  O F F I C E     O F     I N S P E C T O R   G E N E R A L




Semiannual Report to the Congress




                                           as of March 31, 2001




U.S. DEPARTMENT      OF   HOUSING   AND   URBAN DEVELOPMEN T
VISIT OUR WEBPAGE AT WWW.HUD.GOV/OIG/OIGINDEX.HTML
OIG MISSION STATEMENT
      AND VALUES


The OIGs mission is independent and objective reporting to the Secretary and
the Congress for the purpose of bringing about positive changes in the
integrity, efficiency, and effectiveness of HUD operations.

OIG values are as follows:

F     Relationships among OIG components and staff are characterized by
      teamwork and respect.

F     Diversity is valued and promoted in the workforce.

F     Excellence in the workforce is fostered through continuing concern for
      professionalism and career development.

F     As a general rule, emphasis is placed on doing rather than
      reviewing, by delegating operational authority, responsibility, and
      accountability to the lowest appropriate level.

F     Identifying and meeting client needs in a timely fashion are a primary
      concern. Clients are defined as the Secretary, the Congress, HUD
      managers and employees, and the public.

F     OIG operations are focused on substance rather than process and rely on
      innovative as well as traditional methods to address issues of
      significance having potential payback in terms of improved integrity,
      effectiveness, and efficiency.
INSPECTOR GENERALS MESSAGE

    In September 1998, on the twentieth anniversary of the enactment of the Inspector General Act, the Senate
Committee on Governmental Affairs held a hearing on The State of the Inspector General Community. Each of
the Inspector General panelists was asked, among other things, to describe the ideal relationship between an agency
head and an Inspector General. My answer was as follows:

                Ideally, the relationship between an IG and the agency head is characterized by
            mutual respect, a common commitment to the agency mission, and a thorough under-
            standing and acceptance of the vastly different roles of the IG and the agency head.
                This type of relationship sets the tone for the agency as a whole: agency staff will
            tend to approach OIG findings and recommendations as opportunities for improvement,
            rather than gratuitous criticism; and OIG staff will be motivated to focus on finding ways
            to better support the agency mission, rather than nitpicking. With this type of relation-
            ship, the agency head should be comfortable asking for the OIGs views, on a formal or
            informal basis; and the OIG should be comfortable in knowing that those views will be
            respected as independent and objective assessments. In sum, this type of relationship
            serves the best interests of the agency by getting maximum value from OIG work.

    I have worked in the Inspector General community for a long time, and I have never seen this ideal fully real-
ized. But Secretary Martinez and his team are off to a very good start. They treat OIG people, including me, with
respect, and they are taking our work seriously. Note, for instance, Chapter 6 of this Report, where we are now
looking forward to resolution of a number of long-disputed audit recommendations.

     As discussed in Chapter 1 of this Report, I believe that the Secretary and the OIG are both concerned about the
fundamental problems that continue to plague HUD, and share a determination to fix them. The fixing wont be
possible, however, without continuing Congressional attention and support. Change at HUD of course means change
for the HUD bureaucracy. More importantly, it means change for the innumerable interest groups associated with
HUD programs, interest groups with agenda that are firmly established and very divergent.


    I look forward to reports of a Congressional/HUD/OIG collaboration that enables HUD not only to shed its high
risk reputation, but to serve its intended beneficiaries well.




                                                                 Susan Gaffney
                                                                 Inspector General
Chapter 1
            Major Challenges
            Confronting HUD
           Major Challenges Confronting HUD

                    Chapters 2 through 5 of this Report discuss a large number of problems that
                were disclosed this reporting period through OIG audits and investigations. The
                problems occurred across the spectrum of HUD programs and operations, and in
                geographical locations throughout the country. These individual problems must be
                fixed, of course; but more fundamental action is necessary to prevent their
                recurrence. The OIG believes that systemic weaknesses related to HUDs mission
                and programs, organization, and management constantly undermine HUDs
                operations and HUDs efforts to improve its performance.

HUDs Mission        HUD is the principal federal agency responsible for programs concerned with
                housing needs, fair housing, and improving and developing the Nations communi-
and Programs    ties. It has a fiduciary responsibility over a multi-billion dollar housing business
                and a social mission to assist in serving the housing needs of millions of low- and
                moderate-income families. Indeed, HUDs mission is multifaceted and complex.
                For a relatively small agency of about 9,500 staff, it has a lot of work to do. The
                National Academy of Public Administrations report on HUD in 1994 summed it
                up well.  Because of the mismatch of goals and resources and its many commu-
                nities of users, HUD faces a tandem performance deficit (the gap between what
                HUD is supposed to do and has the ability to accomplish) and expectations glut
                (unrealistic perceptions of what HUD can accomplish). The result is a prescrip-
                tion for problems.
                     It is important that HUDs mission bear some reasonable relationship to HUDs
                capability to meet that mission. HUD employees need a clear definition of their
                roles with respect to policy development, providing technical assistance, motivat-
                ing the community, overseeing program implementation, and taking enforcement
                action for inadequate performance. The Congress and HUDs leadership must
                understand that HUD staff cannot be all things to all people. The OIG urges a
                tightened mission statement for HUD as a first step toward streamlining and
                consolidating HUD programs and activities.
                     In 1994, the OIG counted 240 separate HUD programs and activities. With new
                programs and activities added since 1994, that number is approaching 300. More
                often than not, when new HUD programs or activities have been announced, staff
                resources have not been discussed or considered. But it takes staff and resources
                to assure that programs are designed properly and that programs include proper
                checks and balances. Without the proper internal controls and oversight, new
                programs can, of course, be abused. Weve observed this recently with the
                Officer Next Door Program.
                     HUDs proposed 2002 budget acknowledges this issue in a statement that the
                budget emphasizesminimizing the number of new initiatives that undermine
                HUDs capacity to administer its core programs. The Administration needs to
                go much further in tightening HUDs mission statement and streamlining its
                programs. We recognize that such an effort would be enormously time-consuming
                and difficult, requiring the support of HUDs customers as well as the Congress.
                However, we believe it is a fundamental requirement for HUDs shedding its high
                risk reputation and better serving its intended beneficiaries.
HUDs              In the last 4 years, HUD has changed significantly. The former Secretarys
               2020 Management Reform Plan envisioned correcting long-standing HUD prob-
Organization   lems in areas such as resource allocation, financial management, procurement
               and information systems, and bringing the skill levels of HUD staff up to par. These
               planned reforms involved massive reorganizations that shook up nearly every
               Departmental component. When the changes started taking place late in 1997, the
               OIG asked the former Secretary to slow down the process, but our calls went
               unanswered. The push was on for rapid change. Indeed, that was the advice the
               Secretary received from various reinvention experts.
                   Unfortunately, at HUD, this meant that organizational and process changes
               were made before a sound management infrastructure was in place. The organi-
               zational/process changes were to be made while establishing the management
               infrastructure, without the benefit of program consolidation or empowerment and
               within the context of staff reductions. This was an extraordinarily complicated
               plan. It has resulted in many staff resources being moved to new, highly central-
               ized organizational units in the Department such as the Real Estate Assessment
               Center, the Enforcement Center, the Troubled Agency Recovery Centers, and the
               Grants Management Center, as well as to the new Community Builder function.
                   Not surprisingly, given the scope of HUD 2020, OIG audits have noted several
               serious problems with the changes that have taken place. For example, job func-
               tions were moved to centers but many of the associated staff chose to remain at
               their old locations. Staff were not trained for new assignments. The projected
               workloads of some centers did not materialize, while we found other centers to be
               understaffed. Also, our audit of the Community Builder function questioned the
               use of HUDs limited staff resources for what we found to be largely a public
               relations activity.
                   Over the next months, as a priority matter, Secretary Martinez will need to
               decide if the HUD 2020 organizational changes meet his management needs.
               Existing performance data will assist his decision-making, but he will also need to
               consider the types of relationships he seeks within HUD and between HUD and its
               customers, and how HUDs current organization affects those relationships.

HUDs              HUDs proposed 2002 budget states that resolving the following management
               challenges will be a top Secretarial priority:
Management
               Ø Rationalizing the distribution of staff resources in light of program needs;
               Ø Continuing to improve oversight of the local housing agencies and property
                  owners that administer HUDs housing programs;
               Ø Improving income and rent determinations to reduce subsidy overpayments;
               Ø Insuring recipients full and timely utilization of HUD funds; and
               Ø Improving FHA internal systems and controls to reduce fraud in FHA pro-
                  grams.

                    HUDs acknowledgement of these problems and the Secretarys commitment
               to fix them is good news from the OIGs perspective, as these are management
               weaknesses that the OIG has been continually reporting in our annual audits of
               HUDs financial statements (see Chapter 3). The not so good news is that these
               problems have existed for many years, and they have proved to be intractable.
                             We would urge the Secretary to add one other intractable problem to his list of
                          management priorities: financial systems improvement/integration.

     Rationalizing the         The OIG has long been concerned that HUDs downsizing proceeded without
  Distribution of Staff   benefit of a workload/staffing analysis. Further, as noted previously, OIG audits
                          have disclosed instances of both overstaffing and understaffing of organizational
 Resources in Light of
                          units established under HUD 2020. HUDs proposed FY 2002 budget notes that the
       Program Needs      new Resource Estimation and Allocation System will help the Department to
                          assess where staffing should be increased or decreased to effectively administer
                          its programs.
                               In October 1999, former Secretary Cuomo conveyed to the Congress that
                          HUD needed a resource management system and that he planned to implement
                          such a system by April 2001. We found that HUD, with the National Academy of
                          Public Administration (NAPA), developed a methodology for resource estimation
                          and allocation. Further, NAPA briefed each Assistant Secretary on the resource
                          estimation and allocation methodology and the impact it would have on their
                          programs. Also, HUD selected a contractor to do the measurement studies at
                          various program offices throughout the Department to determine resource
                          estimate requirements. Despite these efforts, our audit found the implementation
                          of the Resource Estimation and Allocation System did not progress as planned. A
                          contractor is now completing the first phase of this multi-phase project. We are
                          very supportive of Secretary Martinezs commitment to completing this important
                          activity.

Continuing to Improve          In its proposed 2002 budget, the Department recognizes that the physical
Oversight of the Local    inspections protocol used to assess public housing and multifamily assisted
                          housing needs further refinement to ensure consistent and fair results. But, with
Housing Agencies and      this caveat, the Department commits to continued assessment of the physical
 Property Owners that     condition of HUD assisted housing to ensure that it is decent and safe. Refining the
   Administer HUDs       protocol will be one challenge; making sure that assessment results are used to
   Housing Programs       improve housing conditions will be another.
                               Last year, we conducted an audit of the Office of Housings use of physical
                          inspection assessments generated by HUDs Real Estate Assessment Center
                          (REAC) on multi-family properties insured by the Federal Housing Administration
                          and/or receiving project-based subsidy under the Section 8 Program. The purpose
                          of the review was to evaluate actions taken to address and track corrections of the
                          physical deficiencies disclosed through the REAC property inspections. We found
                          that, although the Office of Housing utilizes the REAC property inspections within
                          their servicing responsibilities, the Office of Housing does not have the proper
                          assurances that corrective actions are completed by the owner to the extent of all
                          the physical deficiencies reported by the propertys REAC inspection. This includes
                          assurances that exigent health and safety violations are corrected within the
                          required time frame and that complete property surveys identifying the magnitude
                          of the physical deficiencies are performed. Further, the Office of Housing needs
                          to improve the current notification process to field office staff of completed
                          property inspection reports and exigent health and safety violations released by
                          REAC.
Improving Income and          Subsidy overpayments are a problem that has plagued the Department for
Rent Determinations to   more than 20 years. Since HUD serves such a small portion of those in need of
                         housing assistance, it is important that every dollar be spent properly. HUD
      Reduce Subsidy     provides housing assistance funds under various grant and subsidy programs to
        Overpayments     multifamily project owners (both nonprofits and for-profits) and housing authori-
                         ties (HAs). These intermediaries, in turn, provide housing assistance to benefit
                         primarily low-income households. HUD spent about $19 billion in FY 2000 to
                         provide rent and operating subsidies that benefited over 4 million households.
                         Weaknesses exist in HUDs control structure such that HUD cannot be assured that
                         these funds are expended in accordance with the laws and regulations authorizing
                         the grant and subsidy programs. HUD overpays hundreds of millions of dollars in
                         low-income rent subsidies due to the incomplete reporting of tenant income, the
                         improper calculation of tenant rent contributions, and the failure to fully collect all
                         outstanding rent. Weve reported this as a material weakness in our annual
                         financial audit since we began this reporting process in 1991.
                              A recently completed contracted study of rent determinations under HUDs
                         major housing assistance programs estimates that substantial errors are made by
                         project owners and HAs. The study projected that annually, about $1.9 billion in
                         subsidies was overpaid on behalf of households paying too little rent and about $0.7
                         billion in subsidies was underpaid on behalf of households paying too much rent
                         based on HUD requirements. In response to this high incidence of error, HUDs
                         proposed 2002 budget commits to implementing a number of measures to resolve
                         this problem, including the development of tools to assist HAs and assisted housing
                         owners in the determination of income and calculation of rent, and the introduc-
                         tion of a quality control program to monitor the performance of these intermedi-
                         aries. HUD also plans to review the current laws and regulations regarding
                         income and rent determinations to ascertain whether their simplification would
                         facilitate program compliance. This constitutes a broader scope approach than
                         previous income matching efforts. This broader scope approach makes sense.

 Improving Recipients        In evaluating HUDs internal controls for monitoring obligated/unliquidated
      Full and Timely    balances, we have found a number of weaknesses. Specifically, we have found
                         that: (1) HUD reviews of these balances were not considering specific statutory or
   Utilization of HUD
                         other requirements relating to particular programs; and (2) because of data
                 Funds   inconsistencies and inaccurate data, HUDs financial systems do not support the
                         process for identifying excess budget authority for the Section 8 Programs.
                              With respect to specific statutory requirements, we found that HUD is not
                         properly enforcing the United States Housing Act of 1937, as amended by the
                         Quality Housing and Work Responsibility Act of 1998 (the Act) requirements
                         relating to HAs timely expenditure and obligation of public housing modernization
                         funds. This is an unresolved issue from our audit report on HUDs FY 1999 finan-
                         cial statements. In August 2000, the OIG forwarded the issue to the Comptroller
                         General of the United States for a legal opinion and resolution.
                              The Act provides that public housing modernization assistance shall be spent
                         not later than 4 years after the date on which funds become available for obliga-
                         tion. The Secretary is responsible for enforcing this requirement through various
                         default remedies. Our review of expenditures of FY 1996 and prior years public
                         housing modernization funds showed $193 million in unexpended funds as of
                         September 20, 2000. For FY 1999, we had reported the same deficiency, with HAs
                         having $337 million in unexpended FY 1995 and prior fiscal year funds.
                                 The previous HUD leadership took the position that the Acts expenditure
                            provisions did not become effective until FY 2000, and the sanction and recapture
                            provisions therefore did not apply to FY 1997 and prior fiscal year funds. HUD
                            also asserted that a December 22, 2000 Federal Register Notice providing policy
                            on the funds was a legal and reasonable exercise of HUDs authority to prescribe
                            remedies for the unobligated FY 1997 and prior funds. We agree that HUD can
                            impose any number of improvised performance remedies; but we believe that
                            HUD must impose the Congress mandated remedy. We are awaiting the Comp-
                            troller Generals ruling on this issue.
                                 In the Section 8 Programs, we found that HUD has been hampered in its
                            attempts to evaluate unexpended Section 8 budget authority balances. Data dis-
                            crepancies and inconsistencies between systems have resulted in the need for field
                            office verification of data, necessitated separate budget reviews of data in differ-
                            ent systems, and impaired HUDs ability to evaluate unliquidated balances. In FY
                            2000, HUD identified a total of $2.1 billion in unliquidated obligation balances to
                            deobligate and recapture. However, HUDs analyses excluded a significant number
                            of contracts because of data discrepancies. Our testing as part of the audit of
                            HUDs FY 2000 financial statements identified an additional $20 million in excess
                            project-based Section 8 funds available for immediate recapture. In addition, HUD
                            excluded data relating to 111 housing authorities from its tenant-based recapture
                            analysis. These 111 housing authorities had available budget authority totaling $18
                            million. Finally, for the Section 8 Moderate Rehabilitation Program, HUD ex-
                            cluded data relating to housing authorities having $43 million in available budget
                            authority.

     Improving FHA       HUDs proposed 2002 budget recognizes the need to strengthen the integrity of
Internal Systems and FHA  internal systems and controls to reduce fraud in FHA programs. Promised
  Controls to Reduce actions include improving the loan origination process and providing better
                     monitoring of lenders and appraisers.
      Fraud in FHA       In the last few years, the OIG audit and investigative staffs have been actively
           Programs involved in examining many aspects of the FHA single family operations. Weve
                            identified rampant origination frauds, property flipping scams, and scandals in the
                            sale of HUD owned properties. Needless to say, all these problems have an impact
                            on the soundness of FHAs Mutual Mortgage Insurance Fund (MMI). There are
                            many factors beyond HUDs controlsuch as interest rates and unemployment
                            ratesthat affect the soundness of the MMI Fund. But assuring that programs are
                            run efficiently and effectively and that programs are sufficiently managed to
                            minimize the opportunities for fraud and abuse is within HUDs control.
                                We have performed numerous audits of FHA operations in the last 2 years,
                            including a comprehensive audit of loan origination activity and a nationwide
                            review of property disposition operations. FHA Single Family Program personnel
                            are in the process of taking corrective actions on most of our audit recommenda-
                            tions. We appreciate the Secretarys commitment to continuing these actions.
                                Recognizing that HUDs single family staff have been through downsizing,
                            reorganization, and heightened workload expectations, HUD urgently needs to
                            make the internal control requirements that are on HUDs books actually work to
                            prevent fraud and abuse. However, internal controls will not work without suffi-
                            ciently trained staff to assure that checks and balances are in place.
    Improving and     The Departments plans for improving its core financial systems have been
 Integrating HUD under continuous development for nearly 10 years. Several major strategy changes
                  during this period have delayed schedules and resulted in tens of millions of dollars
Financial Systems in cost overruns. Even today, managements plans remain unclear and the plans
                         are not supported by an adequate analysis of costs vs. benefits. Consequently, HUD
                         continues to rely on numerous legacy systems that work independently of each
                         other. An integrated financial system would enable transactions to be processed
                         and reported in a timely fashion, thus enabling informed management decisions
                         on a continuing basis.
                             Our annual financial audits have reported numerous problems related to
                         inadequate system integration. For example, there is a lack of an automated
                         interface between the Departmental general ledger and the FHA subsidiary
                         ledger, which necessitates extensive manual analyses, reprocessing, and addi-
                         tional entries. FHAs funds control process is also largely done manually, even to
                         the point of requiring the hand carrying of documents. Other serious deficiencies
                         include the inability to identify, in a timely fashion, excess funds on expired
                         Section 8 projects and inadequate assurance about the propriety of Section 8
                         rental assistance payments. The systems solutions to these problems remain
                         unresolved.
Chapter 2
            Housing Fraud
              Initiative




                     FRAUD
                        Housing Fraud Initiative

                           The Housing Fraud Initiative (HFI) is a proactive law enforcement effort using
                       a unified approach to the detection and prosecution of fraud in HUD programs.
                       The concept combines OIG audit and investigative resources together with FBI
                       Agents and Assistant United States Attorneys for the sole purpose of rooting out
                       corruption and fraud in all HUD funded activities within targeted Federal Judicial
                       Districts. HFI arose out of concern by Members of the House Appropriations
                       Subcommittee on VA, HUD, and Independent Agencies that HUD funds may not be
                       reaching those needing federal assistance due to pervasive fraud.
                           In October 1998, the following Federal Judicial Districts were designated as
                       HFI sites: (1) the Eastern District of New York; (2) the District of Maryland; (3)
                       the District of Columbia; (4) the Northern District of Illinois; (5) the Central
                       District of California; and (6) the Northern District of Texas.
                           Our collaborative work has resulted in major indictments and convictions of
                       those perpetrating fraud in HUD programs. Fraud in single family loan origination
                       continues to be the most pervasive problem uncovered by HFI investigations.
                       The following are examples of HFI results during this reporting period.

Central District of   In Los Angeles, Andres Martinez, Jr. was sentenced to 88 months imprison-
        California ment, fined $100,000, and ordered to pay a $3,100 special assessment. Raul
                       Miranda was sentenced to 46 months imprisonment and ordered to pay a $1,900
                       special assessment. Martinez and Miranda were also ordered to prepare letters
                       admitting their fraud to credit reporting services. Co-conspirator Joseph
                       Gonzalez was sentenced to 8 months imprisonment and 5 years probation. In
                       total, the 3 were also ordered to pay $2,676,329 in restitution ($2,104,441 to HUD
                       and $571,888 to a commercial bank). The 3 individuals, charged with a variety of
                       crimes including conspiracy, mail fraud, wire fraud, false statements, money
                       laundering, and aiding and abetting, were involved in a scheme to dupe more than
                       15 individuals with previously clean credit records into becoming strawbuyers of
                       flipped properties. These individuals were all high school and college students
                       between 18 and 22 years old, and were part of a baseball team. The government
                       hopes the letters will repair these young mens credit that is now destroyed due to
                       foreclosure actions. Martinez was the kingpin of the flipping scheme in which at
                       least 30 properties were purchased at $80,000 to $100,000 and sold to strawbuyers
                       at inflated prices of $200,000 to $300,000. These purchases involved the use of
                       forged documents that the co-conspirators bought in order to obtain FHA insured
                       mortgages. Additional properties were sold with mortgages from commercial
                       banks. To date, 28 FHA insured loans totaling over $6,500,000 have gone into
                       foreclosure, and Housing Fraud Initiative staff have calculated HUDs losses at
                       over $3,100,000.
                            Six other defendants in this case have also signed plea agreements. Previously
                       in this case, a mortgage broker responsible for over $3,600,000 in foreclosed FHA
                       insured loans with losses to HUD of over $2,200,000 was sentenced to 2 years in
                       jail and ordered to pay $957,000 in restitution to HUD. Additional co-conspirators
                       responsible for over $1,800,000 in foreclosed FHA loans, with losses to HUD of
over $1,000,000, are also being charged. This investigation was conducted by the
FBI, IRS, and OIG.


     Hadi Kailani, a real estate agent doing business as Kailani Real Estate, was
sentenced in Los Angeles to 27 months incarceration and 3 years supervised
release, and ordered to pay $1,448,750 in restitution to HUD and a $225 special
assessment. Kailani previously pled guilty to bribing a HUD employee and tax
evasion. An investigation by the FBI, OIG, and IRS Criminal Investigation Division
disclosed that from July 1996 through August 1998, Kailani purchased 20 HUD
real estate owned properties at far below their appraised value and HUDs asking
price with the assistance of Karen Christensen, a former quality assurance
specialist in the HUD Santa Ana Homeownership Center, and a single family
housing specialist in Los Angeles. The appraised value of the properties pur-
chased by Kailani was approximately $2.1 million. However, Christensen sold the
properties to Kailani for approximately $700,000. HUD also paid Kailani $48,750
in the form of real estate brokers commissions on the properties. Kailani resold
the properties for $2.2 million. Kailani paid Christensen over $80,000 in bribe
payments and gave her a BMW convertible.

     Several individuals, who were responsible for over $75,000,000 in fraudulent
loans involving approximately 500 properties, were convicted and/or sentenced in
Los Angeles. John Joseph Edgington and Leslie Ray Rapozo were each sentenced
to 5 years probation and 250 hours of community service, and ordered to pay
$180,000 in restitution and a $100 special assessment for committing fraud against
HUD. According to the terms of the sentence, as owners of Avenue Mortgage in
Cerritos, CA, Edgington and Rapozo must provide to the U.S. Probation Office a
list of all their customers. The Probation Office will then notify those customers
that they are dealing with convicted felons. From 1997 to 1999, Edgington and
Rapozo were employed as licensed loan officers at Capital Funding Group.
During that period, they falsified gift letters, employment information, and credit
references on FHA insured home loan applications so that otherwise unqualified
borrowers were able to obtain loans.
     Brothers Jorge Gomez and Pasqual Gomez, along with family friend Frank
Gomez, were sentenced in U.S. District Court. The Gomez brothers were each
sentenced to 2 years probation, fined $2,000, and ordered to pay a special assess-
ment fee. Frank Gomez was sentenced to 2 years probation, fined $1,200, and
ordered to pay a special assessment fee. In August 2000, the Gomezes each pled
guilty to six counts of structuring transactions to evade reporting requirements.
From 1996 to 1997, the Gomezes were real estate agents working at RE/MAX-
Southeast Properties, then at RE/MAX-Specialist. They participated in a scheme
that involved the cashing of First State Bank cashiers checks in amounts just
below the reporting level of $10,000, but with an aggregate totaling more than
$10,000. At the time, the defendants knew of the reporting requirements of Title
31, U.S. Code § 5313 (a), but intentionally ensured that the cashiers checks were
in amounts less than $10,000.
     Finally, John Charles Miller was sentenced to 5 months imprisonment, 5
months home detention, and 3 years probation, and was ordered to pay $675,000
in restitution. He was also forced to forfeit another $300,000. In March 2000,
Miller pled guilty to four counts of wire fraud. On the same day, Kip Christopher
Cyprus was sentenced to 6 months home detention, 5 years probation, and
$675,000 in restitution, and was forced to forfeit $300,000. Cyprus pled guilty in
March 2000 to five counts of wire fraud. From 1997 to 1998, Miller and Cyprus
were real estate investors. They hired appraisers to artificially inflate the value of
properties they bought for investment. They would then recruit low-income buyers
to purchase the properties with FHA insured home mortgages. To complete the
scheme, Miller and Cyprus used forged signatures, forged documents, and false
gift letters in an attempt to get otherwise unqualified borrowers to qualify for the
FHA insured loans. This investigation was conducted jointly by the FBI, OIG, and
IRS Criminal Investigation Division.


    Martina Estrada Barbato pled guilty to two counts of mail fraud. From
January 1993 to at least January 1998, Barbato participated in a scheme at Sun
State Mortgage in Los Angeles to defraud lending institutions and HUD. Barbatos
scheme involved the submission of false and fraudulent proofs of employment, pay
stubs, credit letters, and bank cashiers checks in applications for federally
insured home mortgages. Barbato obtained the false and fraudulent documents
from a forger whom she paid a fee ranging from $25 to $150 per forged docu-
ment. She caused the forged documents to be placed in FHA loan applications to
create the appearance that the borrowers qualified for the loans. In fact, the
borrowers could not meet minimum FHA income standards without the fraudulent
information. Barbato received a substantial commission for each FHA loan
application she processed. Losses as a result of Barbatos scheme exceed
$5,000,000. Sentencing is scheduled for April 2001. The investigation was con-
ducted jointly by OIG and the FBI.

    Brian Hultman was sentenced to 3 years probation and 200 hours of commu-
nity service for mail fraud. From 1992 to 1999, Hultman was an owner and
manager of Sun America in Covina. In 1999, Hultman left Sun America and
began working as the manager of Granite Home Mortgage. While at Sun
America and Granite Home Mortgage, Hultman conspired with a forger to
create false W-2s, pay stubs, tax returns, and credit reference letters, and caused
those false documents to be submitted to HUD so that otherwise unqualified
borrowers were able to obtain FHA insured home mortgages. As owner of Sun
America and manager of Granite Home Mortgage, Hultman also assisted his
loan officers in obtaining false documents for FHA insured home loans. In this
supervisory capacity, Hultman was responsible for over $3,000,000 in fraudulent
loans. This was a joint FBI/OIG investigation.

    Elizabeth Estrada pled guilty in Los Angeles to one count of mail fraud.
Estrada worked as a loan officer in the Los Angeles area office of Friendly Hills
Mortgage. From February 1997 to at least February 1999, Estrada conducted a
scheme that involved the submission of false and fraudulent proofs of employment,
pay stubs, credit letters, and bank cashiers checks to commercial lenders and
HUD. She obtained the false and fraudulent documents from a forger whom she
paid a fee ranging from $25 to $150 per forged document. She then inserted the
forged documents in FHA loan applications to create the appearance that the
borrowers were qualified for FHA loans when in fact they could not meet mini-
mum FHA income standards without the fraudulent information. Estrada submit-
ted those fraudulent loan applications to commercial lenders and to HUD so that
she would be paid a substantial commission for each transaction. HUDs loss is
calculated at $1,300,000. This was a joint investigation by the FBI and OIG.

     One individual was sentenced and two pled guilty for their part in a real estate
property flipping scheme to defraud HUD by falsifying loan documents. Mortgage
broker Bernard Allen was sentenced to 8 months imprisonment and ordered to
pay $183,169 in restitution to HUD and a $200 special assessment. Allen previ-
ously pled guilty to conspiracy, mail fraud, and false statements. He fraudulently
sold properties to strawbuyers who had no intention of residing in the properties.
He then paid individuals to place their names on titles, obtained FHA insured loans
in the names of the strawbuyers, and provided the down payment money necessary
to purchase the properties while concealing the actual source of funds as a gift.
Allen received the profits from the sale of these properties. All of the properties
went into foreclosure and were subsequently resold by HUD.
     In the same case, real estate agents Ostes Hernandez and Benjamin
Hernandez pled guilty to mail fraud and aiding and abetting. From 1994 to
January 1997, Ostes and Benjamin participated in a scheme at Bankers First
Realty in South Gate that involved the submission of false and fraudulent proofs of
employment, pay stubs, credit letters, and bank cashiers checks in support of
FHA insured mortgages. The two caused forged documents to be placed in FHA
loan applications to create the appearance that the borrowers qualified for the
loans. They also provided the down payment money necessary to purchase the
properties while concealing the actual source of funds as a gift. All of the proper-
ties went into foreclosure and were subsequently resold by HUD. In total, Allen
and Ostes and Benjamin Hernandez originated in excess of $1,000,000 in fraudu-
lent loans. This investigation was conducted jointly by the FBI and OIG.

     Erick Suarez pled guilty to one count of making a false statement. Suarez was
employed by the Southern California area office of Capital Funding Group in Los
Angeles. He participated in a scheme that involved the submission of false and
fraudulent pay stubs, W-2s, credit letters, and bank cashiers checks to commer-
cial lenders and HUD. Suarez obtained the documents from a forger and subse-
quently inserted the forged documents in FHA loan applications to create the
appearance that the borrowers were qualified for the loans. In reality, the borrow-
ers could not meet minimum FHA income standards without the fraudulent
information. The total loss to HUD was more than $300,000. This investigation
was conducted by the FBI and OIG.

     Following a joint investigation by the FBI and OIG, Jesus Gaxiola was sen-
tenced to 5 years probation and ordered to pay $28,000 in restitution. In March
2000, Gaxiola pled guilty to two counts of mail fraud. While he was employed by
the Southern California area offices of Magic Home Realty and RE/MAX-All
Cities, he participated in a scheme that involved the submission of false and
fraudulent pay stubs, W-2s, credit letters, and bank cashiers checks to commer-
cial lenders and HUD. Gaxiola obtained and inserted forged documents in FHA
loan applications to create the appearance that borrowers were qualified when in
fact they were not. The HUD loss attributed to Gaxiola was $49,000.
                            Isaac Powell pled guilty to one count of maintaining nuisance conditions on a
                       property, one count of failure to comply with an order issued by the Department of
                       Building and Safety, and one count of failure to file a statement of intent. The
                       charges stemmed from an investigation by the FBI, OIG, and Los Angeles City
                       Attorneys Office into the physical condition of a property purchased from HUD by
                       Sounds of Young Los Angeles, a nonprofit corporation. Citizen complaints and law
                       enforcement concerns over graffiti and the condition of the building prompted
                       action by the City. Powell is president of the corporation and was held responsible
                       for the condition of the property. The Los Angeles Housing Fraud Initiative
                       conducted an investigation into the activities of Sounds of Young Los Angeles and
                       other nonprofit corporations associated with Powell in conjunction with the City
                       Attorney. Powell received 36 months probation, must make the property safe and
                       sanitary, and must ensure that all properties associated with Powell and Sounds of
                       Young Los Angeles comply with building codes and regulations.

                           In Los Angeles, two mortgage brokers were indicted by a Federal Grand Jury
                       for mail fraud, false statements, and aiding and abetting. The charges involve
                       approximately $12 million in loans for 46 properties on which HUD, to date, has
                       paid claims of $2 million. One of the individuals indicted was the president and
                       co-owner of Pacific Investment Capital (PIC). PIC was a mortgage brokerage
                       company in the business of originating conventional home mortgage loans and
                       Title I home improvement loans. PIC and Blade Runner Management Company, a
                       management company set up by Allstate Mortgage Company, are alleged to have
                       conspired to originate fraudulent Title I and Title II loans. The alleged scheme
                       entailed creating false verifications of employment, W-2s, and pay stubs, and
                       using information from the same strawbuyers who were involved with Allstate
                       Mortgages scheme for originating both Title I and II loans. This case was initi-
                       ated and conducted by the OIG with the assistance of the FBI.

                           A Federal Grand Jury in Los Angeles indicted the president and the vice
                       president of Continental Investments on 19 counts of wire fraud, false statements,
                       money laundering, and aiding and abetting. The indictment charges that the two
                       individuals, through their company, defrauded the FHA by illegally providing the
                       necessary down payments on behalf of unqualified borrowers. Both individuals
                       have been arrested. One was released on a $50,000 bond, while the other re-
                       mained in custody pending a $200,000 secured bond. In addition, Continentals
                       business bank account was seized. Continental Investments has caused more than
                       $11 million in fraudulent loans to be funded. The was a joint investigation by OIG
                       and the FBI.

District of Columbia       Real estate agents Jerry Austin and Larry Kraft pled guilty to conspiracy to
                       submit false statements to HUD. The guilty pleas were the result of an OIG investi-
                       gation which disclosed that from 1995 through 1999, Austin and Kraft used
                       cashiers checks and fraudulent gift letters to qualify unqualified buyers for FHA
                       insured mortgage loans. The two are associated with the sale of at least 183
                       homes with FHA insured mortgages totaling over $23 million. To date, estimated
                       losses to HUD are more than $350,000.
Northern District of    Following a joint FBI/OIG investigation, Roderick Martens pled guilty to 1
            Illinois count of mail fraud in connection with his role in a 20-defendant/60-property land
                          flipping scheme in Chicago. He was sentenced to 18 months incarceration, to be
                          served concurrently with his 15-month prison sentence for a similar property flip
                          conviction in the District of Minnesota. Martens was also sentenced to 36 months
                          supervised release and ordered to pay $785,936 in restitution. This total was
                          divided into $234,000 in repayments to HUD and the remaining $551,936 to various
                          banks and mortgage companies. Martens role was twofold. First, he was respon-
                          sible for finding buyers who would act as second buyers in the flip scheme. In the
                          process, Martens falsified numerous loan documents in order to ensure that these
                          buyers were qualified. In return for Martens participation in the loan application
                          process, he would receive a portion of the inflated loan proceeds from the subse-
                          quent sales. Second, he personally acted as a mortgagor and falsified his identity,
                          credit, and income in order to obtain an FHA insured loan, which subsequently
                          went into foreclosure after he made no mortgage payments. In his plea, Martens
                          accepted responsibility for 8 fraudulent loans totaling $1,167,000.

                               Janet Dockett, Charles Crawford, and Ida Reed were sentenced in federal
                          court in Chicago after previously pleading guilty to their roles in a scheme to
                          defraud conventional lenders, homeowners, and HUD. They falsified deeds for
                          vacant homes, some of which were HUD owned properties, and subsequently used
                          the properties for collateral, as rental properties, or to sell and cash out the
                          equity. Dockett was sentenced to 33 months incarceration and 24 months super-
                          vised release, and was ordered to pay $392,305 in restitution. Crawford was
                          sentenced to 44 months incarceration and 36 months probation, and was ordered
                          to pay $389,262 in restitution. Reed received 6 months incarceration and 24
                          months probation, and was ordered to pay $68,422 in restitution. A fourth co-
                          conspirator was sentenced during the last semiannual reporting period for his part
                          in this scheme. This was a joint investigation by the FBI, OIG, and Postal Inspec-
                          tion Service.

                               Four individuals were indicted on five counts of mail fraud and five counts of
                          wire fraud. The indictment also contained a forfeiture allegation by which one of
                          those indicted would ultimately forfeit interest in any personal property that may
                          have been obtained from proceeds derived from the scheme. The indictment
                          alleged that the four participated in a scheme to obtain short-term rehabilitation
                          balloon mortgages for properties in disrepair on Chicagos south side and refi-
                          nance them with mortgages obtained through the Section 203(k) Rehabilitation
                          Home Mortgage Insurance Program. The indictment further alleged that the
                          203(k) mortgages had inflated appraisals and contained false information relative
                          to the identity, income, employment, and rental income of the buyers. Following
                          closings on the properties, false certifications were provided to obtain escrow
                          checks for work that was never completed. HUDs total exposure on the loans, all
                          of which went into foreclosure, was approximately $386,000. This was an OIG/FBI
                          investigation.

                             In Chicago, mortgagor Eric Duncan pled guilty to one count of bank fraud.
                          Duncan made false statements involving names, Social Security numbers, and
                          employment information to federally insured banks in order to obtain FHA insured
                       mortgages. In the same case, two individuals were indicted on one count of
                       submitting false statements to HUD, one count of mail fraud, five counts of bank
                       fraud, one count of possession of counterfeit security, and one count of intent to
                       defraud through the use of counterfeit devices. The two allegedly operated a
                       counterfeit check and credit card plant in order to fraudulently obtain new identi-
                       ties for the purpose of defrauding banks, private mortgage lenders, and credit
                       card companies. They also allegedly obtained a $128,000 FHA insured loan by
                       fraudulent means. This indictment has a stipulation for forfeiture relative to the
                       property used for the manufacturing of these fraudulent items and $75,000 from
                       proceeds of the counterfeit plant. This was a joint investigation by OIG and the
                       Secret Service.

                            Eleven recipients of the DuPage County Housing Authoritys Section 8
                       Program were indicted on charges of felony theft and state benefits fraud. In-
                       cluded in the 11 were a landlord who collected Section 8 benefits on behalf of a
                       deceased resident, a resident who failed to report her income from her job as a
                       manager of a multifamily project, a resident who obtained an FHA insured mort-
                       gage, and a resident who simultaneously resided in and rented a market rate unit
                       in another city. Two of the 11 individuals pled guilty and were sentenced. Ellen
                       Turnage, also known as Ellen Mayberry, was sentenced to 3 years probation and
                       ordered to pay $26,000 in restitution to the Housing Authority. Jennifer Preyer
                       was sentenced to 2 years probation and 100 hours of community service, and was
                       ordered to pay $5,000 in restitution to the Authority. The loss to HUD in this case
                       is in excess of $120,000. This was a joint investigation by OIG and the DuPage
                       County State Attorneys Office.

                           Brett ONeil, the former finance director for the Winnebago County Hous-
                       ing Authority, pled guilty to one count of official misconduct following his earlier
                       indictment on charges of embezzlement from the Authority. He was ordered to
                       pay $14,540 in restitution and was sentenced to 3-1/2 years incarceration, to run
                       concurrently with his sentence for a probation violation. ONeil previously had his
                       probation revoked as a result of his original criminal indictment for embezzle-
                       ment. This investigation was conducted by OIG and the Illinois State Police.

                           Following her guilty plea to mail fraud and making false statements on loan
                       applications, June Stark was sentenced in Chicago to 24 months supervised
                       release and ordered to pay $2,000 in restitution. Stark had been indicted along
                       with three others for participating in a loan origination fraud scheme and causing
                       the creation and submission to lending institutions of false documents purporting to
                       establish the eligibility of prospective buyers of properties with FHA insured
                       mortgages. These documents included false gift letters and false existence of
                       earnest money on deposit. This was a joint FBI/OIG investigation.

District of Maryland       In one of the first equity skimming cases prosecuted in Maryland, Monte
                       Greenbaum, a former multifamily property manager who managed seven HUD
                       subsidized low-income housing complexes through his company, Maryland Prop-
                       erty Associates Inc. in Baltimore, was sentenced to 18 months incarceration and
                       2 years probation, and ordered to pay $900,000 in restitution. Greenbaum previ-
                       ously pled guilty to conspiracy for his role in skimming money from the projects
that he managed. He began diverting money in 1993, eventually skimming more
than $1.2 million from project accounts by the time losses were discovered in
1997. At that point, the properties had deteriorated because there was not enough
money for repairs. One of the projects has since been taken over by HUD. Besides
creating false documents, forging signatures on documents, and making false
entries, Greenbaum created false businesses, opened bank accounts for nonexist-
ent companies, and had project funds transferred to these accounts for fraudulent
repairs. The money skimmed came from project accounts set up for security
deposits, repairs, and renovations. Greenbaum used the money for alimony
payments and for work on his home. In addition, some of the money went into an
investment account and was used for personal business dealings. This was a joint
investigation by OIG and the FBI.

      Marcia McNeil, a property speculator in Baltimore, was convicted of 4
counts of wire fraud and 1 count of mail fraud for her role in a property flipping
scheme that cost lenders approximately $1.5 million. Carl Schulz pled guilty to 2
counts of a 21-count wire fraud indictment in the same case. McNeil and Schulz
purchased inexpensive houses for the purpose of fraudulently reselling them,
sometimes after making cosmetic improvements. They recruited investors to buy
packages of houses at much higher prices, promising to sell the properties with
little or no down payment and also paying the buyers settlement expenses. In
addition to generating false documentation for potential homebuyers, McNeil and
Schulz also obtained appraisals of the properties for amounts much higher than
the prices they paid. The two were responsible for flipping approximately 120
properties. This investigation was conducted by OIG and the FBI.

     Property speculator Andrew Michael Bogdan pled guilty to one count of
conspiracy to commit mail fraud and wire fraud and making false statements for
his role in illegally flipping 68 properties in Baltimore. Beginning in 1995,
Bogdan entered into an agreement with others to obtain FHA insured loans by
submitting false and fraudulent documentation as part of the loan applications.
Initially, Bogdans falsification usually took the form of false gift letters or false
employment verifications to enhance the apparent creditworthiness of the buyers,
or false termite inspection reports and false certifications that the properties were
to be owner occupied. In addition, inflated appraisal reports enabled Bogdan to
flip properties he owned to new buyers for prices in excess of the properties
value. Typically, Bogdan would buy a house for one price, make a few cosmetic
repairs, and sell it at a considerably higher price to a first-time buyer, one who
was usually not creditworthy. In order for the buyer to obtain a loan, Bogdan and
others would make false statements on the loan application. Loss to the govern-
ment in this case is approximately $1.6 million. This was a joint investigation by
OIG and the FBI.


         In Greenbelt, Jean Almond Jean-Pierre and Norma Diaz pled guilty to,
and Francois Pierre was sentenced for, conspiracy, mail fraud, wire fraud, and
money laundering for their role in using HUD real estate owned (REO) properties
in order to defraud mortgage lenders. Francois Pierre was sentenced to 6 months
incarceration and 3 years probation. A joint investigation by OIG and the FBI
disclosed that the three individuals purchased nine REO properties and then
falsified documents relating to the purchases, including the deeds and appraisals.
Jean-Pierre would purchase a REO property using a bogus name and then falsify
the deed by significantly increasing the value of the property. He would then fill
out a loan application to refinance the property, falsifying the application by
declaring that there was an existing mortgage on the property, with Norma Diaz
as the mortgagee. The pay-off funds for the loan were wire transferred to an
account owned jointly by Jean-Pierre and Diaz. The total amount of fraudulently
refinanced loans was $700,000. Proceeds from several of the fraudulent loans
were used to purchase five of the nine REO properties.

    G. Samson Ugorji, a real estate appraiser accused of providing more than
300 inflated appraisals for property flips in Baltimore, was sentenced to 33
months incarceration to be followed by 250 hours of community service. Ugorji
was found guilty in October 2000 of seven counts of wire fraud and mail fraud for
conducting appraisals on houses bought and resold at much higher prices by
speculator Robert Beeman. Ugorji was responsible for as much as $800,000 in
losses to lenders. Beeman usually paid between $10,000 and $20,000 for houses
and sold them in the $80,000 range. The buyers were low-income individuals with
flawed credit who were told they could own a home for a $500 down payment and
monthly mortgage payments of roughly $400. Beeman, along with co-conspirators
Robert Ness, a settlement attorney, and Michael Fishman and Scott Shinskie,
majority owner/president and minority owner, respectively, of Macallan Funding
Company, were also sentenced as a result of this investigation. These sentences
included 36 months incarceration and 3 years probation for Beeman, 12 months
home detention and 3 years probation for Ness, 30 months incarceration and 3
years probation for Fishman, and 18 months incarceration and 2 years probation
for Shinskie. This was a joint investigation by the OIG, FBI, IRS, and the Postal
Inspection Service.

    Following an investigation by OIG and the FBI, a property flipper in Greenbelt
pled guilty to one count of making false statements in connection with FHA insured
loans. From March 1998 through November 1999, the individual purchased and
resold at least 14 properties to persons who obtained FHA insured loans with the
individuals assistance. The property flipper purchased properties to which he
made minor improvements and then resold the properties within a short time to
third parties at a profit. He assisted the third-party buyers in purchasing the
homes by creating false documents to support the loans. Specifically, the property
flipper, sometimes with the assistance of others, created false loan documentation
including verifications of employment, W-2s, and pay stubs, which were then
submitted to mortgage lenders in support of the loans. In addition, the property
flipper created false gift letters purporting a sum of money designated as a gift to
the buyer from a relative of the buyers, when in fact the money was supplied by
the property flipper. Loss to the government is approximately $250,000.

    Michael D. Clarke, a HUD approved property inspector in Baltimore, was
sentenced to 4 months home confinement and 5 years probation. In January 2000,
Clarke pled guilty to conspiracy to defraud the United States. From March 1995
through March 1997, Clarke conspired with Jerry Miller, Weddina Miller, and
Warren Rollman to divert $135,836 from HUDs Section 203(k) Rehabilitation
Home Mortgage Insurance Program. The 203(k) funds were obtained through the
use of false and fraudulent inspection reports, which verified the completion of
rehabilitation work that had never been performed. The court ordered Clarke to
pay $119,000 in restitution to HUD. Jerry and Weddina Miller are former loan
originators with Atlantic First Mortgage Corporation. This was an OIG investiga-
tion.

     John Katsafanas was sentenced to 1 year and 1 day incarceration and 2 years
supervised probation, and was ordered to pay $110,864 in restitution for his role in
failing to file tax returns from 1995 through 1997. This investigation, conducted by
OIG and the IRS Criminal Investigation Division, was initiated as the direct result
of two previous investigations involving the HUD Section 203(k) Rehabilitation
Home Mortgage Insurance Program during which several people were indicted.
Katsafanas was a former loan officer at First Preference Mortgage Company; he
was involved in obtaining approval for a large volume of HUD insured 203(k) loans
in and around Baltimore City. He was also host of a local radio show on mort-
gage financing heard throughout the Baltimore area.

    In Greenbelt, a federal grand jury returned a 15-count indictment charging
the owner of 15 rental properties in the District of Columbia and Maryland with
obstruction of justice and submitting false documents to HUD in order to conceal
his alleged failure to notify tenants of the presence and hazards associated with
lead based paint. This indictment is the first criminal prosecution in the nation
relating to lead hazard warnings required under the Lead Hazard Reduction Act
of 1992. After the owner failed to produce records demonstrating that he was in
compliance with the tenant notification requirement, he sought to obstruct HUDs
investigation and conceal his failure to properly notify tenants of the presence of
any lead based paint hazards by giving HUD lead paint disclosure forms that were
false and misleading. He allegedly directed resident building managers to have
tenants sign and backdate the lead disclosure forms, and also backdated his own
signature as well as tenants signatures representing that all available lead based
paint information had been provided. The owner presented lead hazard notifica-
tion forms to HUD purporting that he had notified tenants that he had no specific
information regarding certain apartments, when in fact he had been issued
housing deficiency notices. This investigation was conducted by the OIG, EPA
Criminal Investigation Division, and the FBI.

     Stacey Sims, a former Prince Georges County Police Officer, pled guilty to
one count of making a false statement to HUD in connection with his participation
in the Officer Next Door Program (ONDP). This program encourages law en-
forcement officers to live in economically distressed communities. In January
1999, Sims purchased a Forrestville property for 50 percent of its value. How-
ever, Sims leased the property to a third party approximately 8 months after the
purchase. In December 1999, Sims returned a letter to HUD falsely certifying that
he resided in the property when in fact he did not. This was an OIG investigation.

     Janis S. Goss and Amanda F. Rainville pled guilty to committing theft against
the Baltimore County Housing Authority. Goss and her daughter, Rainville,
falsified their personal declarations and recertifications by failing to report
changes in their household composition and income. Goss was sentenced to 4
years in prison, suspended, and 5 years probation, and was ordered to pay
                             $19,000 in restitution to the Authority. Rainville was placed on 3 years probation
                             and ordered to pay $2,700 in restitution. This was an OIG investigation.

Eastern District of New     In Brooklyn, Carlos Sanchez, a licensed mortgage broker in the State of
                    York New York, was sentenced to 46 months incarceration and 5 years probation. A
                             money judgment for $700,000 was ordered as forfeiture and $4,234,655 was
                             ordered as restitution, with the first $500,000 due in 60 days and the remaining
                             amount due over the span of 6 years. Sanchez is jointly and severally liable for this
                             amount. Sanchez must also voluntarily surrender to U.S. Marshals on April 27,
                             2001. The sentencing follows Sanchezs conviction on all 13 counts of a September
                             2000 indictment. The counts included conspiracy, bank fraud, and false statements
                             to HUD.
                                 Sanchez is responsible for the origination of at least 87 fraudulently flipped
                             properties that were insured by the FHA in 1995 and 1996. Of the mortgages on
                             those properties, only one is current and only three had their insurance termi-
                             nated. To date, 3 loans are in default, 22 are in foreclosure, and 58 have already
                             had claims paid by HUD totaling over $10.72 million. Of the 58 properties con-
                             veyed to HUD after claims were paid, HUD has resold 42 properties for a net loss
                             of $4,383,844. Based on these numbers, the OIG Housing Fraud Initiative staff
                             projects an estimated net loss on all properties, excluding active and terminated
                             loans, of over $8,536,424.

                                  The OIG, U.S. Attorneys Office, Eastern District of New York, and the
                             Manhattan District Attorneys Office conducted a lengthy investigation of fraud
                             associated with HUDs Section 203(k) Rehabilitation Home Mortgage Insurance
                             Program that involved lenders, attorneys, appraisers, loan officers, and numerous
                             nonprofit organizations, primarily on Long Island. Several indictments, convic-
                             tions, and sentencings have resulted from the investigation, including the follow-
                             ing.
                                  Robert Dosch, owner of Steuben Hill Realty and an employee of the CLA, Inc.
                             real estate appraisal company, pled guilty to false statement charges. A warrant of
                             arrest for $199,000 was subsequently issued against Dosch, who agreed to forfeit
                             the $199,000.
                                  Francis Boccagna, a real estate investor, pled guilty in U.S. District Court,
                             Eastern District of New York, to mortgage fraud, and in Supreme Court of the
                             State of New York to falsifying business records in the first degree. Boccagna will
                             also criminally forfeit $150,000, which was derived from proceeds traceable to
                             loan and credit application fraud.
                                  A Federal Aviation Administration air traffic controller surrendered to the
                             Manhattan District Attorneys Office and was charged with six counts of falsifying
                             business records in the first degree. The air traffic controller acted as signatory
                             for a nonprofit company on numerous fraudulent Section 203(k) loans and re-
                             ceived payments for his actions. The controller agreed to forfeit $27,000.
                                  A loan officer of Mortgage Lending of America surrendered to the Manhat-
                             tan District Attorneys Office and was charged with 20 counts of falsifying busi-
                             ness records in the first degree and 3 counts of bribery.
                                  Gary Gluskin, a former employee of the law firm of Bank, Tanen, and Bank,
                             pled guilty in Supreme Court of the State of New York to falsifying business
                             records in the first degree. Two days later, Gluskin pled guilty in U.S. District
                             Court to mortgage fraud. While employed at Bank, Tanen, and Bank, Gluskin
represented several nonprofit organizations, including but not limited to Helpline
Soul Rescue Ministry, Family Preservation Center, and St. Stephens Baptist
Church, on numerous loan closings. Specifically, Gluskin represented the
nonprofits in the purchase of real estate with Section 203(k) loans. On each of
these transactions, the loans were provided by Mortgage Lending of America. As
the legal representative of these nonprofits, Gluskin participated in the loan
closings and assisted in the preparation of documents contained in the closing
files, which were subsequently filed with HUD. Gluskin knew that the closing
documents contained fraudulent representations and that the nonprofits he repre-
sented were only able to qualify for the loans because of these false documents.
     Eight individuals surrendered to the OIG and/or the Manhattan District
Attorneys Office. The individuals included a residential real estate investor, who
buys and sells properties using various real estate companies incorporated by his
attorney. Using his companies, this investor sold numerous properties to a not-for-
profit, Advance Local Development Corporation, under the Section 203(k) Pro-
gram. The properties were sold a short time after they were purchased, at
artificially inflated sales prices justified by fraudulent appraisals. In addition to
this, the investor paid a kickback to the loan officer of the mortgage company. The
investor was charged with two counts of commercial bribery in the first degree.
The other seven individuals were charged with several counts of falsifying busi-
ness records in the first degree and submitting false statements to HUD.
     James Corbett, president of a not-for-profit, Homes For Families, pled guilty
to mortgage fraud and falsifying business records in the first degree. Corbett will
forfeit $100,000, which was derived from proceeds traceable to loan and credit
application fraud. The next day, an officer of Homes for Families surrendered to
the Manhattan District Attorneys Office and was charged with falsifying business
records in the first degree.
     Phil Lowe, owner of Southdown LLC, a real estate corporation, pled guilty in
Supreme Court of the State of New York to falsifying business records in the first
degree, and in U.S. District Court, Eastern District of New York, to mortgage
fraud. In addition, Lowe will forfeit $50,000 which was derived from proceeds
traceable to loan and credit application fraud. Both state and federal judges will
sentence Lowe at a later date; the sentences will run concurrently.
     The owner of Steuben Hill Management, a realty company, surrendered to
the Manhattan District Attorneys Office. The owner was charged with three
counts of falsifying business records in the first degree.
     An officer of the Family Preservation Center, a nonprofit organization, pled
guilty in both U.S. District Court, Eastern District of New York, and Supreme
Court of the State of New York to mortgage fraud and falsifying business records.
In addition, the officer will criminally forfeit $143,000, which was derived from
proceeds traceable to loan and credit application fraud.

    In Brooklyn, two rabbis, Jacob Bronner and Efroim Stein, pled guilty to one
count of conspiracy to defraud the United States. Bronner and Stein controlled the
nonprofit entity, Project Social Care, a charity organization that was supposed to
use a HUD Special Purpose Grant in the amount of $2.5 million for support and
counseling tailored to meet the needs of elderly Holocaust survivors. Instead,
Bronner and Stein conspired to use hundreds of thousands of dollars of the Project
Social Care grant funds for their personal financial benefit and the benefit of
others who were not the intended beneficiaries of the grant. Sentencing for both
Bronner and Stein is scheduled for June 2001. In a signed plea agreement,
Bronner and Stein agreed to spend a maximum of 33 months in prison and pay
restitution totaling $325,000, $100,000 of which has already been paid to the
Department.

     Following a joint investigation by the FBI, OIG, and IRS, several people were
sentenced for defrauding the Town of Huntington Housing Authority. David
McKay, former chairman of the Authority, was sentenced to 37 months in prison
and 3 years supervised release, and was ordered to pay $251,000 in restitution,
$206,000 of which is to be paid to HUD. McKay previously pled guilty to multiple
counts of conspiracy to defraud HUD, extortion, and income tax evasion. McKay,
using his position of public trust as chairman of the Authority, caused the theft of
$206,000 in HUD funds through multiple schemes over a 10-year period. In one
scheme, McKay hid his ownership interest in a house and used nominee landlords
to collect rent on behalf of a Section 8 tenant who did not reside there. In addition,
he fraudulently obtained $170,000 in Section 8 assistance for friends, the Watkins
and the Mizells, who did not qualify. McKay also used his position as a union shop
steward and safety officer for Laborers Union Local 66 to threaten violence and
labor shutdowns in order to extort thousands of dollars from construction compa-
nies that were forced to pay McKay for no-show jobs. The construction companies
performed renovations to industrial chimneys and smokestacks on Long Island.
McKay allegedly derived his power from his association with the Luchese orga-
nized crime family. McKays plea to income tax evasion stemmed from his failing
to report the embezzled HUD funds and extortion payments to the IRS.
     Zachary Watkins and Jessie Scott Watkins were sentenced on charges of
defrauding $67,500 from the Authority. Zachary Watkins was sentenced to 6
months house arrest, 3 years probation, and 300 hours of community service.
Jessie Scott Watkins was sentenced to 2 years probation. They were both ordered
to pay a total of $67,500 in restitution. With the assistance of McKay, Jessie Scott
Watkins applied for rental assistance benefits at a residence she jointly owned
with Zachary Watkins. They did not disclose the wifes ownership and actual
annual income, causing benefits to be paid to the husband as landlord on the
wifes behalf.
     Joseph and Katherine Mizell were sentenced for defrauding HUD of $109,000.
Joseph Mizell was sentenced to 6 months house arrest, 3 years probation, and 300
hours of community service. Katherine Mizell was sentenced to 1 year probation.
They were also ordered to pay a total of $109,000 in restitution to HUD. Again
with the assistance of McKay, the Mizells fraudulently applied for and received
rental assistance over a 10-year period. They did not disclose their actual income
and family composition at the time of their initial application and annually thereaf-
ter.

    In October 1999 in New York City, Benjamin Berger, Jacob Elbaum, David
Goldstein, and Kalmen Stern were sentenced to 30, 57, 70, and 78 months incar-
ceration, respectively. They were required to pay over $11 million in restitution for
their conviction on charges of conspiring to defraud the Departments of HUD and
Education, the Small Business Administration, the Social Security Administra-
tion, and the Internal Revenue Service. The investigation leading to the conviction
spanned over 6 years and required months of trial preparation. The trial lasted 9
weeks. More than 10 Special Agents from 7 different agencies were assigned to
                       the investigation. During the trial, the government produced over 10,000 exhibits
                       and directly examined over 30 witnesses.
                            On January 20, former President Clinton commuted the sentences of all 4
                       individuals to 30 months incarceration. All 4 defendants have already spent at
                       least 12 months in prison.

                            A former loan officer from Community Home Mortgage Bank (CHM) in
                       Melville, Long Island, was arrested and arraigned for submitting false state-
                       ments to HUD. The arrest stems from an investigation of the mortgage company,
                       its corporate officers, employees, and appraisers, and two not-for-profit organiza-
                       tions. The investigation revealed that the former loan officer allegedly arranged
                       for the staging of down payment money to be deposited into the bank accounts of a
                       not-for-profit organization by a third party in order to make it appear that the not-
                       for-profit was making the down payments with its own funds. In addition, other
                       CHM employees allegedly committed fraud by staging asset money on behalf of the
                       second not-for-profit. All of the Section 203(k) Rehabilitation Home Mortgage
                       Insurance Program loans have gone into default or foreclosure since their origina-
                       tion by CHM. The FBI and the VA and HUD OIGs conducted this investigation.

Northern District of        Wallace Chambers, an individual doing business as Equity Mortgage Associa-
              Texas    tion, was charged with and pled guilty to one count of mail fraud. Mary Anyango
                       Omolo, an individual doing business as MBC Financial Group, was charged with
                       and pled guilty to one count of mail fraud. These actions are the result of a joint
                       investigation by OIG and the FBI which disclosed that both Chambers and Omolo
                       purchased monthly lists for properties in the Dallas/Fort Worth area to identify
                       homeowners facing foreclosure. They mailed, via the U.S. Post Office, advertise-
                       ments to these distressed homeowners representing that their companies could
                       help them avoid losing their homes. Upon being contacted by the homeowners, the
                       investors falsely represented that they could save their homes either by making
                       payments to the mortgage companies on the homeowners behalf or by renegotiat-
                       ing the terms of the loans. Chambers and Omolo took money from the
                       homeowners, promised to negotiate with the mortgage companies to have other
                       late payments and fees rolled to the end of the mortgage, and then instructed the
                       homeowners to make future mortgage payments to their companies. The pay-
                       ments were never made to the mortgage companies, resulting in the foreclosure
                       of the properties. Losses to the government on these FHA insured loans was
                       $278,000.

                           A Federal Grand Jury in Dallas returned a 1-count indictment against a
                       borrower who represented herself as her 10-year old daughter on an application
                       for an FHA insured mortgage. An OIG investigation disclosed that the borrower
                       applied for and received a $120,000 FHA insured mortgage in the name of her
                       daughter. She allegedly provided a false state identification card bearing her
                       photograph but the name of her daughter and represented that, as the applicant,
                       her daughter was earning over $64,000 in annual income. Neither the borrower
                       nor her spouse would have qualified for the mortgage using their actual incomes
                       and credit histories. Nine days after closing on the fraudulent FHA insured mort-
                       gage, the borrower and her spouse filed for bankruptcy using their true identities,
                       and seeking to discharge over $50,000 in debts.
    Tonya Raper, a former employee of Infinity Mortgage Company, was sen-
tenced to 10 months imprisonment and 5 years supervised release, and ordered to
pay restitution of $147,827 to HUD and $48,500 to Frost Bank, and a $100 special
assessment. Raper participated in a scheme to submit false information to HUD.
She previously pled guilty to false statements and bank fraud. An OIG investigation
found that while employed by Infinity Mortgage, Raper provided false income
information in order to qualify for an FHA insured mortgage for which she would
not otherwise have been eligible. The mortgage went into default and foreclosure.
    The indictment and sentencing are the latest legal actions in an investigation
involving Infinity Mortgage Company. To date, the investigation has uncovered
over 127 fraudulent loans representing over $11 million.

    A superseding indictment was issued against a former HUD employee in
Dallas. The 46-count indictment charges the individual with 4 counts mail fraud,
14 counts of theft of government funds, 14 counts of theft of program funds, 11
counts of money laundering, and 1 count of filing a false individual income tax
return. A joint investigation by the FBI, OIG, and the IRS Criminal Investigation
Division disclosed that the former employee allegedly stole over $340,000 in rents
from a HUD coinsured multifamily housing project by diverting the rents to several
bank accounts, including accounts used for money laundering purposes; paid for
remodeling and air conditioning work for a personal residence; and paid legal
fees on a personal lawsuit that resulted in a $500,000 settlement to the employee.
The employee used the stolen funds to purchase a lakefront home, a condo-
minium, automobiles, and watercraft, and paid college and high school tuition and
fraternity dues for his children. In addition, the employee failed to fully report his
income on a 1995 individual income tax return, and failed to inform personal
accountants of the $500,000 settlement. HUDs Enforcement Center subsequently
suspended the individual, who was the Director of Housing Management in the
HUD Dallas Office in the early 1980s, from participation in procurement and non-
procurement transactions with HUD and throughout the executive branch of the
Federal Government.

     Milton K. Raybould, a former closing attorney, was sentenced after his
conviction on charges of theft of public funds. Raybould received 20 months
incarceration and 3 years supervised release, and was ordered to pay full restitu-
tion of $561,602 and a $100 special assessment. The sentencing was the result of a
joint investigation by OIG and the FBI which disclosed that Raybould closed a total
of 9 HUD single family properties and kept HUDs closing proceeds of $427,044 for
his own use. Raybould admitted keeping the funds because he was in arrears on
other HUD closing contracts in Houston and needed the money to pay off various
other debts as well. Raybould also pled guilty to stealing an additional $134,557 in
title policy money and bank overcharges, and a kickback scheme involving a tax
certificate company.

     A Federal Grand Jury in Dallas returned a three-count indictment against the
former executive director and a former employee of the City of Lancaster Housing
Authority (CLHA) on charges of theft and conspiracy. The indictment is the result
of a joint investigation by OIG and the FBI which disclosed that from 1992 to 1999,
the defendants allegedly conspired to steal over $300,000 in HUD Section 8 funds
from CLHA. In an effort to conceal the theft, the defendants altered tenant income
forms to lower certain tenants reported income and show that the rents of these
tenants were 100 percent subsidized by HUD. The defendants required the tenants
to pay them rent, and then paid various landlords with checks written from the
HUD funded account at CLHA. The defendants subsequently split the tenants rents
after cashing tenant checks or depositing the checks in their personal bank
accounts. The stolen funds were used for personal expenses and to pay off credit
card debts. No further judicial proceedings have been scheduled at this time.

    Nicholas P. Valenzuela, a former Police Officer with the Dallas Independent
School District, was sentenced for submitting false statements to HUD.
Valenzuela was sentenced to 1 year supervised release and 60 hours of commu-
nity service, and was ordered to pay $35,000 in restitution to HUD in a lump sum
payment within 120 days of sentencing. In August 1999, Valenzuela obtained a
house through the Officer Next Door Program. Valenzuela signed a HUD form
certifying that he had not purchased a HUD owned property within the past 24
months as an owner/occupant, when in fact he had purchased 2 properties within
14 months of each other.
    Also in Dallas, two Police Officers were charged with making false state-
ments to HUD. The Officers were allegedly living for free in Dallas area apart-
ment complexes by serving as Courtesy Officers at the same time they should
have been living in the HUD homes they purchased through the Officer Next Door
Program. One of the Officers purchased a $61,000 HUD home for $25,010; the
other purchased a $90,500 HUD home for $36,200.
    On the same day, a one-count indictment was filed charging a former Dallas
Police Department Officer with false statements. The former Officer purchased
a $69,000 home for $34,500 under the Officer Next Door Program, sold the
home less than 2 years later for $80,000, and then allegedly made false state-
ments when questioned about the sale of the home prior to the end of the 3-year
commitment.
    These investigations were conducted by the FBI and OIG.
Chapter 3
    Audits
                     In addition to evaluating HUDs management reform issues, conducting audit
                 work in support of the Housing Fraud Initiative and Operation Safe Home, and
                 commenting on regulations and legislative proposals, the OIGs Office of Audit
                 continued to monitor HUD programs and operations through audits. During this
                 reporting period, the Office of Audit issued 9 reports and 8 audit-related memo-
                 randa on internal HUD operations, and 23 reports and 11 audit-related memoranda
                 on grantees and program participants. (See Appendix 1 for a listing of the audit
                 reports and memoranda issued.) Collections amounted to $14.1 million, with
                 another $13.5 million in management decisions on audits with questioned costs.
                 Investigative recoveries (out of court settlements, court ordered fines, penalties,
                 and restitution) totaled $355,310.



            Public and Indian Housing Programs

                     There are approximately 3,300 public housing agencies (PHAs) which are
                 established by local governments pursuant to state enabling legislation, and which
                 receive financial assistance from HUD. HUD provides both project-based and
                 tenant-based housing assistance to PHAs, in addition to homeownership and other
                 grant assistance. HUD also provides assistance directly to PHAs resident organi-
                 zations to encourage increased resident management of public housing develop-
                 ments and to promote the formation and development of resident management
                 entities and resident skills. Programs administered by PHAs are designed to
                 enable low-income families, the elderly, and persons with disabilities to obtain
                 and reside in housing that is safe, decent, sanitary, and in good repair.

                     During this reporting period, we reviewed HUDs handling of an ineligible
                 housing project, the Drug Elimination Technical Assistance Program, and HUDs
                 environmental assessment determination about a possibly historically significant
                 building. Additionally, we reviewed some PHAs administration of the Comprehen-
                 sive Grant, HOPE VI, Section 8, Low-Income, Low-Rent, Single Room Occu-
                 pancy, and Drug Elimination Programs and the validity of various complaints
                 concerning these programs. We also attempted to assess the progress of HUDs
                 receivership of the Chester, PA Housing Authority, and reviewed the general
                 administrative activities of other PHAs.

HUD Activities        Complaints received by our office led to an OIG review which found that HUD
                 officials: approved an ineligible Cook Inlet, AK Housing Authority student
                 housing project by approving pre-development costs as a standard activity without
                 adequate justification for doing so; did not timely notify the Authority once it found
                 out the project was not a standard activity; approved the project as a model
                 activity without any evidence that there was a need for the project; improperly
                 waived HUD cost guidelines, and did not adhere to statutory subsidy layering
                 requirements that limit project funding to reasonable costs. In addition, the
                 Authority did not fully comply with certain eligibility requirements pertaining to
                 its local cooperation agreement and the tax-exempt
status of the student housing project. As a result of these actions, the Authority
spent almost $1.4 million in pre-development costs for an ineligible project, and
HUD authorized $9.5 million for a project that it estimated should not cost more
than $2.28 million. We believe these improper actions occurred because HUD
officials based their decisions primarily on political considerations rather than
statutory and regulatory requirements. Also, noncompliance with local coopera-
tion agreement and tax-exempt status requirements may result in public services
and facilities not being provided along with housing units, as well as increased
costs.
    The audit recommended, among other things, that HUD issue written Depart-
mental guidance regarding procedures for dealing with political influences that
may conflict with statutory and regulatory requirements; ensure that the Office of
Native American Programs provides additional guidance to its staff regarding
reviews of standard and non-standard activities; notify the Cook Inlet Housing
Authority that its student housing project is not a model activity eligible for
funding under the Native American Housing Assistance and Self-Determination
Act; and investigate the actions of current and former HUD officials responsible
for violating statutory waiver requirements and take appropriate disciplinary
action. (Report No. 2001-SE-107-0001)

     In Washington, DC, in response to a citizen complaint, the OIG audited the
Public and Indian Housing Drug Elimination Technical Assistance Program
(DETAP) and found that the complaint was valid because the DETAP consultant
referral process was not administered in a fair and equitable manner. The con-
sultant database restricted each consultant to only eight skill codes and searches
made to the database were arbitrarily limited to three skill codes. Referral lists
showed inconsistencies, favoritism, improper referrals, and possible discrimina-
tion. In addition, consultants were not evaluated based on individual skill codes
and the evaluations were not used in the referral process. As a result, the integrity
of the DETAP referral process has been compromised, and because consultants
were not treated in a fair and equitable manner, some may have lost contractual
opportunities.
     The audit recommended that HUD notify all consultants to update their skill
codes; record all consultant skills in the database; evaluate the entire application
in determining skill codes to use in the database search; require the removal of
contractor employees who do not properly administer DETAP; develop specific
procedures for preparing and managing consultant referral lists; redesign the
consultant evaluation and use the ratings as part of the referral process; execute a
Government Technical Manager (GTM) appointment memorandum with specific
DETAP responsibilities; ensure that the GTM is allowed to closely monitor the
contractor by periodically reviewing the referral process; ensure that the GTM
receives formal training; and ensure that revisions made to all guidance are
correct and approved prior to issuance. (Report No. 2001-AO-0001)

    Based on a citizen complaint, the OIG reviewed the HUD Pittsburgh, PA
Public Housing Offices (PIHs) environmental assessment determination of the
Joshua Meeks House (property) in connection with a HUD funded HOPE VI
project, Forest Green Commons Townhouse Development. Specifically, the
                     complainant alleged that PIH and the developer did not properly apply the require-
                     ments of Section 106 of the National Historic Preservation Act in their review
                     process.
                          Based on our review of the complaint issues, documentation, and federal
                     regulations governing the demolition of the property, we determined that HUD
                     Pittsburgh PIH followed appropriate regulations. In conformance with the National
                     Historic Preservation Act, HUD verified that the site was not listed on the Na-
                     tional Historic Register, and asked for and received the State Historical Preserva-
                     tion Officers (SHPO) opinion regarding the historical significance of the property.
                     According to the SHPO, due to significant property alterations and additions
                     affecting the historical integrity of the property, it was not eligible for listing in the
                     National Register of Historic Places. Additional historic information submitted by
                     Moon Township residents did not alter the opinion of the Pennsylvania Historical
                     and Museum Commission regarding the propertys historic significance. Since
                     the property was not listed as eligible, there was no assessment of adverse affects
                     and the HOPE VI project was approved. (Report No. 2001-PH-0802)

Public                    In order to address concerns expressed by the Director of Public Housing in
                     the San Francisco, CA HUD Office, the OIG reviewed selected aspects of the San
Housing              Francisco Housing Authoritys (SFHA) force account modernization activities
Programs             under the Comprehensive Grant Program (CGP). (Under certain restrictions, CGP
                     allows housing authorities the option of using their own in-house labor  force
                     account  to perform modernization work, as opposed to independent contrac-
                     tors.) We identified $18.2 million of possibly excessive force account costs involv-
                     ing three developments. However, due to deficient SFHA records, all moderniza-
                     tion costs could not be estimated accurately. In addition to insufficient records,
                     there were indications of poor workmanship. Also, the program did not suffi-
                     ciently emphasize high priority modernization, and some of the low priority work
     Comprehensive   performed cannot be adequately maintained by the SFHA. These problems prima-
     Grant Program   rily occurred due to inadequate management. The SFHAs neglect of high priority
                     work resulted in emergency conditions requiring additional HUD funding.
                          We also found that the SFHA did not adequately record and track its assets and
                     expenditures. The general ledger recording was inadequate to fully assess CGP
                     force account expenditures. Expenditures were charged or moved to incorrect
                     project accounts, making the general ledger unreliable. In addition, the SFHA did
                     not consistently follow required procedures over the generation of its purchase
                     orders relating to force account work; the inventory system over CGP purchased
                     equipment was insufficient to accurately track all items; and the SFHA was
                     charging ineligible payroll costs to the CGP grant, while failing to maintain ad-
                     equate documentation to substantiate additional payroll costs attributed to the
                     grants. These problems occurred because the SFHA did not develop sufficient
                     procedures and controls, or was not following existing procedures. As a result,
                     $98,102 of ineligible and $73,210 of inadequately supported maintenance expenses
                     were charged to the CGP.
                          The findings in this audit include recommendations to avoid the continuance of
                     these problems and to lessen their effects. The more significant recommenda-
                     tions call for HUD to require the SFHA to terminate the use of force account
              for comprehensive modernization; stop using force account for non-routine
              maintenance until the SFHA can demonstrate that it is cost effective; require new
              procedures and controls to be put in place over record maintenance in the general
              ledger, inventory, and purchase order system; and return ineligible and excessive
              costs. (Report No. 2001-SF-1001)

HOPE VI     In San Juan, PR, we attempted to audit the HOPE VI Program of the Puerto
 Program Rico Public Housing Administration. The program was an initiative to revitalize
              the New San Juan Gateway to be funded with a total of $38.8 million from HOPE
              VI, Comprehensive Grant Program (CGP), and Economic Development and
              Supportive Services grants. Our audit disclosed a total breakdown of the PHAs
              administration of the New San Juan Gateway project. The PHA lacked effective
              management and accounting controls over its federal funds and did not effectively
              monitor the activities of its project manager, Carrero and Associates. Due to the
              unreliability of the amounts reported in the grant program accounts, we were
              unable to determine total program expenditures. Our report disclosed:

              Ø The PHA failed to provide full and open competition when it awarded a sole
                source contract to the project manager of the Gateway project and did not
                perform a price or cost analysis when procuring the services. In addition, the
                PHA made payments in excess of the contract limits and did not maintain
                proper disbursement control. The PHA acquired property on which to develop
                replacement housing that was still sitting vacant after 5 years.

              Ø The project manager, Carrero and Associates, did not comply with federal or
                the PHAs procurement requirements. It did not: (1) follow established proce-
                dures; (2) use the proper procurement methods; (3) maintain procurement
                files; and (4) perform price or cost analyses. The project manager obtained
                goods and services without full and open competition and charged unrelated
                and unnecessary costs to the HOPE VI project.

              Ø Carrero and Associates selected a subcontractor, Freeman and Associates,
                as a sole source without justifying the lack of competition or the validity of the
                cost. Further, the PHA did not review invoices submitted by Carrero for the
                services provided by Freeman. Had it done so, the PHA would have found
                unnecessary, unrelated, and unsupported charges.

              Ø The PHA failed to properly administer payments of CGP funds. It approved
                $3.8 million as project management fees without proper solicitation of the
                vendor and without cost analysis and justification. In addition, the PHA did not
                maintain adequate documentation to support the disbursements to Carrero and
                Associates, paid excessive charges, and failed to obtain proper approval prior
                to disbursement.

              Ø The PHA had no system of internal control. It had an inadequate accounting
                system, inadequate disbursement control and recordkeeping, and commingled
                cash from the various grants. It failed to meet matching state requirements
                and used fderal funds to overcome a shortfall in state funds. The PHA executed
                no inventory control over purchases of goods and services for the HOPE VI
                Program.
                  These conditions existed, in our opinion, because the PHAs management was
             unprepared or incapable of administering the program. It failed to monitor its
             project manager and disregarded program requirements. Consequently, HUD has
             no assurance of economy or efficiency of this project. We identified $5.4 million
             of ineligible expenditures, $10.5 million of unsupported costs, and $3.8 million in
             cost efficiencies. We recommended HUD declare the PHA in default of its grant
             agreements for the HOPE VI Program and take steps to oversee completion of the
             Gateway initiative as planned. We also recommended HUD take administrative
             action against former PHA officials who disregarded program requirements and
             failed to take corrective action on known deficiencies. HUD also needs to work
             closely with the newly appointed PHA administration to rebuild its management
             and internal controls systems. In response, the new PHA administration stated its
             commitment to resolve the problems facing this PHA and set forth the actions
             being taken to correct the deficiencies created by the prior administration.
             (Report No. 2001-AT-1004)

Section 8     The Housing Authority of Baltimore City (HABC) is not properly administer-
Program   ing its Section 8 Program according to the terms and conditions of its Annual
             Contributions Contribution (ACC) and federal requirements. An OIG audit found
             that:

             Ø There are fundamental weaknesses in the HABCs overall financial manage-
               ment of its Section 8 Program in the areas of gathering, recording, and
               reporting accurate data to HUD, accurately and timely disbursing housing
               assistance payments to owners, and accounting of program receipts and
               disbursements. Because of HABCs inability to effectively meet its financial
               responsibilities, financial reports submitted to HUD are often inaccurate. In
               Fiscal Years 1999 and 2000, the HABC submitted claims for excessive admin-
               istrative fees of more than $3.2 million, and HUD paid at least $279,952 in
               excess fees to the HABC. In addition, the HABC paid landlords/owners more
               than $730,000 in excess rental assistance during the same period.

             Ø The HABC does not have adequate controls and procedures in place to manage
               its Section 8 Program according to HUD requirements. We observed funda-
               mental deficiencies in HABCs file maintenance and record keeping, tenant
               income verification and file documentation, the inspection process over
               housing quality standards, waiting list administration, accounting for Section 8
               portable units, and staff assignments and training.

             Ø The HABC is not fully utilizing its Section 8 resources in providing affordable
               housing to its low-income residents. In 1997/1998, HUD recaptured $74
               million of unused Section 8 operating reserves, and another $50 million of
               unused operating reserves have accrued in its accounts between 1997 and
               2000.

             Ø The HABC does not currently have an automated management information
               system (MIS) that supports its Section 8 Program. Even though HABC manage-
               ment was aware that its previous computer system was not Y2K compliant in
               1997, it has not been able to successfully develop, test, and implement a
    replacement system, and has been operating its Section 8 Program without an
    MIS since December 1999. Further, adequate contingency plans were not
    developed and implemented to ensure program operations would not be
    adversely affected during an interim period during which the HABC was
    working to install its new system. Unfortunately, the HABC continues to
    experience delays in its efforts to install a new MIS, and the reliability of
    program data now being processed manually by temporary employees contin-
    ues to erode.

    During the course of our audit, the Greater Baltimore Committee (GBC) and
the Presidents Roundtable completed a citywide report, entitled Managing for
Success, which included a review of the HABCs Section 8 Program. The GBC
cited similar problems and characterized the HABCs Section 8 Program as
barely functional. Because of the continuing problems at the HABC, the new
Mayor of Baltimore pledged to adopt many of the recommendations contained in
the GBC report. In addition, the Mayor recently asked for and received the HABC
executive directors resignation and hired a new executive director on December
4, 2000. Although the initial actions taken by the Mayor are encouraging, much
more work will need to be done to turn the HABCs program around.
    Our audit recommended that HUD take appropriate administrative actions
against the HABC, as prescribed in the ACC. In addition, HABC should repay over
$1 million in questioned expenditures, and improve its overall operation of the
Section 8 Program. (Report No. 2001-PH-1003)

    Pursuant to our current audit of the Housing Authority of Baltimore Citys
(HABCs) Section 8 Program, we completed an assessment of HABCs progress in
implementing the Section 8 component of the Thompson Partial Consent Decree
(Decree). Specifically, we reviewed the HABCs progress in creating and imple-
menting a Mobility Counseling Program designed to assist residents, through the
use of Special Section 8 Vouchers awarded under the Decree, to move from areas
of minority concentration to non-impacted areas in Baltimore City and surround-
ing counties according to the terms and conditions of the Decree. The Thompson
Court Decree was the result of a lawsuit brought by Carmen Thompson and five
other public housing families alleging that the HABC and HUD engaged in racial
and economic segregation through site selection and development of public
housing in Baltimore City since 1937. On June 25, 1996, the parties entered into a
Partial Consent Decree, approved by a U.S. District Court Judge in Maryland.
The Partial Consent Decree called for: complete demolition and replacement
within 5 years of all of Baltimore Citys family high-rise public housing projects
and Fairfield Homes, a vacant low-rise project; and replacement of the approxi-
mately 3,000 demolished units with 1,200 new or rehabilitated public housing
units in Baltimore City, 800 new or rehabilitated units for project-based rental and
home ownership, and issuance of 1,342 new tenant-based Section 8 Special
Vouchers.
    We found the HABC has made little progress in implementing the terms and
conditions of the Section 8 component of the Decree. Specifically, the HABC had
planned to release the entire 1,342 Special Section 8 Vouchers over a 6-year
period, or approximately 225 vouchers per year since the Decree was
                    executed in 1996. However, based on records provided by the HABC and its mobil-
                    ity counselor, we found the HABC has assisted no more than 51 families in moving
                    from impacted to non-impacted areas. Further, we found the HABC misreported
                    the actual number of families assisted in its FY 2000 PHA Plan submitted to HUD,
                    stating they had served 285 families. As a result of not complying with the terms
                    and conditions of the Thompson Court Decree, public housing families continue to
                    be racially and economically segregated within defined areas of the City of
                    Baltimore.
                         The audit recommended that HUD ensure that the HABC develops appropriate
                    policies and procedures to successfully implement the relocation, mobility
                    services, and the Special Section 8 Vouchers component of the Thompson Court
                    Decree; designates management personnel who will have overall responsibility
                    for implementing the Decree; provides sufficient staff resources to accurately
                    account for the Special Section 8 Vouchers leased and issued; monitors the
                    performance of its mobility counselor; and expediently recruits a new mobility
                    counselor who can adequately implement the Decree. (Report No. 2001-PH-1801)

      Low-Rent,          At the request of the Director, Troubled Agency Recovery Center North, and
       Section 8,   the Director, Office of Public Housing, HUD Michigan State Office, the OIG
    Single Room     audited the Muskegon, MI Housing Commissions financial operations, including
                    its Low-Rent Public Housing, Section 8, and Single Room Occupancy Programs.
     Occupancy,     We found that the Housing Commission transferred $836,893 from its Public
Low-Income, and     Housing Program to fund the Single Room Occupancy Program and operating
Drug Elimination    expenses of the Family Investment Center without HUD authorization. In addition,
 Grant Programs     we estimated that $298,970 of Section 8 subsidy funds were improperly used by
                    the Commission to pay operating expenses of the Low-Rent Public Housing
                    Program. The Commission obtained two loans, one from First of America Bank
                    for $480,000 secured by the Family Investment Center building, and a second
                    from the Michigan Housing Trust Fund for $140,000. To secure the second loan,
                    the City of Muskegon, acting on behalf of the Housing Commission, executed a
                    blanket mortgage covering 14 Low-Rent Public Housing Program homes, and
                    pledged future income expected to be received from the sale of the homes. This is
                    prohibited by the Annual Contributions Contract. In addition, the Housing Com-
                    mission did not cease these activities after being instructed by HUD to do so.
                         We also found that the Commission used $51,233 of Public Housing Program
                    funds to pay employee health insurance premiums for the same coverage the
                    employees were also receiving from the City of Muskegon. In addition, the
                    Housing Commission could not provide supporting documentation for $12,989 in
                    expenses charged to its credit card accounts.
                         As of August 1, 2000, HUD was in the process of instituting a limited denial of
                    participation action against the executive director of the Housing Commission. On
                    the same date, the City of Muskegon board of housing commissioners terminated
                    the executive directors employment.
                         The audit recommended that the Director, Troubled Agency Recovery Center,
                    ensure that the Muskegon Housing Commission sells the Family Investment
                    Center building to pay off any outstanding mortgages, implements a plan to repay
                    the Public Housing Program for funds transferred to other programs, and
                    strengthens controls to ensure compliance with HUD regulations and its own
                    procurement policy. (Report No. 01-CH-202-1002)
     At the request of the Office of Public Housing, HUD San Antonio Area
Office, the OIG audited the Section 8 and Low-Rent Programs of the Uvalde, TX
Housing Authority. Before the OIG audit, the Office of Public Housing, San
Antonio Area Office, had already identified significant Annual Contributions
Contract violations and the severe financial condition of the Authority. Specifi-
cally, the Authority had over-requisitioned Section 8 funds and had incurred
excessive administrative expenses over what they had earned.
     Our audit found that the Authoritys former executive director (ED) ignored
HUDs instructions and violated HUD requirements by using $563,702 in HUD
program funds to pay for excessive and questionable expenses. The Authority
incurred $375,552 in excessive administrative costs in the Section 8 Program and
$188,150 in questionable costs in the Low-Rent Program. The former ED had an
objective to develop properties not related to the Section 8 and Low-Rent Pro-
grams. To do this, he manipulated the Section 8 requisition process. The former
ED was also the secretary/treasurer of the affiliate from which he arranged to
receive a rent-free apartment, thus creating a conflict of interest. However, the
former ED, acting as the ED of the Authority and the secretary/treasurer of the
affiliate, severed the affiliate from the Authority in 1999. As a result, the Author-
ity is currently in a severe financial condition. The Authority has reimbursed
$224,194 to the Section 8 and Low-Rent Programs, but still owes HUD $262,925 in
unearned Section 8 funds and $76,583 to the Low-Rent Program for the excessive
administrative expenses and questionable costs.
     In addition to making a number of recommendations for corrective actions,
the audit recommended that HUD consider taking administrative sanctions against
the former ED. (Report No. 01-FW-203-1003)

    At the request of HUD and as a result of a complaint, the OIG audited the Low-
Income Housing, Section 8, and Drug Elimination Grant Programs of the
Saginaw, MI Housing Commission. The complainant alleged that the president of
the Board of Commissioners created a conflict of interest by voting on matters
that benefited an outside organization of which he was the executive director. Our
audit did in fact find that the president of the board and another board member
had conflict of interest relationships with outside organizations, which they failed
to disclose.
    We also found that the Commission disbursed over $19,500 in ineligible and
unsupported Drug Elimination Grant funds and did not assure that one of its
subrecipients properly administered its Drug Elimination Grant activities. Of the
$19,500, the Commission: did not obtain HUD aproval before selling a parcel of
land; paid over $3,600 in unsupported payroll costs to the Saginaw Police Depart-
ment; overpaid $3,100 in scholarship money to a subrecipient college for 8 public
housing residents; reimbursed the Saginaw Tenants Organization $2,466 for
excess payroll tax deductions; reimbursed the Tenant Organization $4,350 for
unapproved and unsupported financial consultant services; and allowed the Tenant
Organization to spend $5,947 after the Commission terminated its contract with
the Tenant Organization. In addition, the Commission could not demonstrate the
benefit or results of its drug elimination activities. We also found that the Com-
mission did not maintain units in decent, safe, and sanitary condition. Our inspec-
tion of 18 Section 8 units found 278 housing quality standards violations.
                      The audit recommended that the Director, Office of Public Housing, HUD
                  Michigan State Office, assure that the Commission obtains fair market value for
                  the parcel of land that was sold, repays HUD for the ineligible and unsupported
                  costs; seeks repayment from the Saginaw Tenants Organization for funds that
                  should have been returned to HUD when its contract was terminated; implements
                  a system to measure its Drug Elimination Grant activities; and corrects the health
                  and safety violations in the 18 units inspected. In addition, HUD should consider
                  taking appropriate action against the board members for not disclosing potential
                  conflicts of interest. (Report No. 2001-CH-1003)

Chester Housing        In November 1991, HUD designated the Chester, PA Housing Authority as
                  troubled and took control of the Authority because of numerous and long-standing
Authority         deficiencies. On April 29, 1994, the U.S. District Court for the Eastern District
                  of Pennsylvania declared HUD liable for de facto demolition of housing units at the
                  Authority. On August 31, 1994, the Court placed the Authority in Receivership.
                  The Court appointed Receiver was to improve Authority operations so the Author-
                  ity would provide its residents housing that is structurally sound and functionally
                  adequate, along with appropriate services. The Court recognized that ineffective
                  policies and procedures played a major role in the operational problems con-
                  fronted by the Authority.
                       In January 2000, the OIG began an audit to assess the Receivers and the
                  Authoritys progress. Unfortunately, the Court did not permit us free and open
                  access to Authority personnel and records during the conduct of this audit. The
                  impediments and limitations to our audit constituted an external impairment and
                  affected our independence. Hence, we were unable to comply with government
                  auditing standards regarding independence and the external impairment con-
                  strained our efforts to form independent and objective opinions and conclusions.
                       In spite of this, our audit found that: (1) although the Receiver made progress
                  in updating Authority policies and some procedures, the Receiver did not update
                  procedures for some fundamental operations; (2) the Receiver did not use free
                  and open competition to procure legal services for the Authority; (3) the Receiver
                  and the Authority did not employ adequate safeguards to oversee a conflict of
                  interest situation involving the Authoritys General Counsel; and (4) the Authority
                  lacked adequate controls to ensure the Receivers out-of-pocket expenses and
                  credit card charges were appropriate and adequately supported. In addition,
                  although the Receiver and the Authority have made progress in improving rent
                  collections, the Authority did not evaluate prospective tenants thoroughly, apply its
                  rent collection strategies consistently, or aggressively pursue collection of rents
                  from delinquent vacated tenants receiving Section 8 assistance.
                       The audit recommended, among other things, that HUD direct the Authority to
                  create a plan to train staff on standard operating procedures being developed by a
                  consulting firm; establish a plan to monitor the effectiveness of new policies and
                  procedures and make modifications as necessary; request the Court to direct the
                  Receiver to improve the Authoritys procurement policy manual by including
                  federal and HUD requirements governing free and open competition for legal
                  services; confirm that the Authority does not reimburse Receiver out-of-pocket
                  expenses until it receives the Courts written notification that it has reviewed
                  theexpenses and that the Authority is authorized to pay the reimbursement; and
                  ensure procedures under development prescribe the Authority to screen appli-
                  cants. (Report No. 2001-PH-1002)
General             At HUDs request, the OIG audited the Housing Authority of the City of Miami
                 Beach, FL and found violations of HUD requirements and over $1 million in
Administration   questioned costs and $9,000 in ineligible costs. Specifically, the Authority:

                 Ø Spent over $795,000 of its Section 8 reserves for questionable police protec-
                   tion, recreation, and code enforcement activities. The costs were unreason-
                   able and unnecessary because they were for public services the City should
                   have provided from its local tax revenues.

                 Ø Spent over $2 million in a failed effort to provide housing and social services.
                   The project had been delayed for over 5 years and the Authority had lost or
                   was at risk of losing almost all of its funding. We questioned nearly $210,000
                   paid to the City for fees and permits because the fees were excessive consid-
                   ering the joint venture project was not constructed.

                 Ø Did not adhere to HUD requirements to assure the reasonableness of Section 8
                   rents. The Authority also did not timely execute new leases for tenants who
                   moved from one assisted unit to another, and did not pay tenants the amounts
                   by which their utility allowances exceeded the familys contribution for rent.
                   We noted some cases where the Authority and owners provided false repre-
                   sentations concerning rent reasonableness. These conditions caused HUD to
                   pay over $9,000 in excessive subsidy.

                 Ø Had not implemented corrective actions recommended by past reviews of its
                   operations to comply with procurement requirements.

                      The audit recommended that HUD require the Authority to: (1) obtain addi-
                 tional supporting documentation or recover the questioned costs paid to the City;
                 (2) reimburse HUD for excessive housing assistance payments made to owners;
                 (3) submit evidence that it has the financial capability and commitment to com-
                 plete construction of the joint venture project within a reasonable time; and (4)
                 establish the necessary controls to improve its operations. If improvements are
                 not made within a reasonable period of time, we recommended that HUD consider
                 declaring the Authority in substantial default, and identify other entities that can
                 effectively carry out its programs. We also recommended that HUD restrict the
                 use of all Section 8 administrative fee reserves until the Authority has substan-
                 tially resolved the systemic problems in its programs. (Report No. 01-AT-202-
                 1001)

                     Based on the results of an Operation Safe Home probe, the OIG reviewed the
                 operations of the Youngstown, OH Metropolitan Housing Authority. The Housing
                 Authoritys procurement process was generally performed correctly and the
                 Authority had sufficient controls over inventory. However, the Authority lacked
                 sufficient controls over safeguarding cash and other monetary assets. Specifically,
                 the Authority used $44,216 of Public Housing Drug Elimination Program funds to
                 pay the City of Youngstown for baseline police services that the City was required
                 to provide at no cost; was undercharged $32,586 for supplemental police services
                 by the City; lacked documentation to support that $8,210 in police services paid
                 were reasonable and necessary expenses; failed to sufficiently pursue amounts
owed by current and former Section 8 tenants; did not properly account for
$32,300 of former Section 8 tenant accounts receivable; and lacked an acceptable
cost allocation plan to support the allocation of indirect costs among its programs.
While we found that the Authoritys controls over Section 8 tenant accounts
receivable were poor and offered the opportunity for its employees to misuse or
divert funds, we found no evidence that funds were diverted.
    The audit recommended that the Director of the Public Housing Hub, Cleve-
land Area Office, assure that the Housing Authority: (1) requires the City of
Youngstown to reimburse the Authority for the baseline police services that were
improperly paid; (2) establishes procedures and controls over its supplemental
police services to ensure the services meet HUDs requirements; (3) establishes
policies, procedures, and/or controls to ensure the collection of outstanding
Section 8 accounts receivable and to properly record all tenant accounts; and (4)
develops an allocation plan in accordance with OMB requirements. (Report No.
2001-CH-1004)

     The OIG reviewed the Housing Authority of Independence, MO, based on
input from HUD that indicated the Authority lacked adequate internal controls.
The review found that the Authority did not always have written policies and
procedures for its operations; and where policies and procedures did exist, they
were not always complete, approved by the board of commissioners, or enforced.
The Authority also did not properly segregate duties for collecting and depositing
rent, and lacked an acceptable system of controls over other assets. In addition,
the Authoritys board of commissioners did not always comply with a Missouri
statute that governs the conduct of public meetings. Further, the Authority did not
have adequate controls over its procurement process, did not have an acceptable
system of controls over its Section 8 Program, and needs to improve its human
resource function. Finally, the Authority did not resolve deficiencies identified in
its financial statement audit for the fiscal year ended March 31, 1999. The
independent auditor reported that the account balances for three tenant related
subsidiary accounts did not agree with the general ledger.
     The audit recommended that HUD ensure the Authority establishes adequate
internal controls for all areas of its operations, including developing and imple-
menting policies and procedures approved by the board of commissioners. The
audit also recommended that HUD ensure the Authority takes appropriate action
on all other concerns addressed in the audit. (Report No. 01-KC-202-1001)

    At the request of the HUD Maine State Office of Public Housing, the OIG
reviewed operations at the Waterville, ME Housing Authority (WHA) to deter-
mine the validity of complaints brought by a former WHA employee, and to identify
any other indicators of problems or deficiencies in WHAs operations. Our review
confirmed three conditions alleged by the complainant: the purchasing of personal
items on WHA accounts by employees; snowplowing of the WHA executive
directors residence by maintenance employees; and inadequate controls over coin
operated laundry machines. These practices occurred in the past; however, there
was no evidence that these conditions continued to exist at the time of our survey.
In addition, our review found no evidence that confirmed the existence of the two
other conditions cited by the complainant. Our review did, however, identify one
condition present during the audit survey: WHA has not established proper inven-
tory controls over its fixed assets, such as equipment items and appliances.
    The audit recommended that HUD require the WHA to establish and imple-
ment inventory control procedures for all WHA fixed assets, including equipment
and appliances. (Report No. 01-BO-202-1801)

     In response to a citizens complaint, the OIG audited the procurement opera-
tions of the Mobile, AL Housing Board for Fiscal Years 1998 and 1999 and found
significant weaknesses in the Boards administration of its procurement activities.
Specifically, the Board used incorrect procedures to procure certain goods and
services and did not procure contracts in accordance with HUD requirements. In
addition, the Board used small purchase procedures to procure flooring, paint,
and window installation services when it should have used sealed bidding. Fre-
quently, the Board obtained fewer than the required three quotes, selected other
than the lowest quote, and solicited and selected the same vendor. Also, contract
deficiencies included issuing purchase orders without valid contracts in place,
improperly soliciting and awarding contracts without adequate competition,
awarding a sole source procurement without prior HUD approval, and not per-
forming independent cost estimates or cost and price analyses.
     The audit recommended that HUD require the Mobile Housing Board to
implement procurement policies and procedures to ensure proper procurement
planning, contract administration, contract solicitations, cost estimates, price
analyses, and training of the Boards procurement personnel, along with appropri-
ate selection methods and use of authorized staff. (Report No. 01-AT-204-1003)

     In response to a request from the Coordinator of HUDs Ohio State Public
Housing Program Center, the OIG audited the London, OH Metropolitan Housing
Authority and found that the Authoritys controls over cash and other monetary
assets and inventory were weak. Specifically, the Authority improperly paid its
executive director over $3,600 for time she did not work for the Authority or time
she spent on activities not related to Authority operations, and used over $2,800 of
Public Housing Drug Elimination Program funds to pay the City of London for
baseline police services and equipment that the City was required to provide at no
cost to the Authority. The Authority also failed to maintain accurate payroll
records regarding employees vacation time; did not review or adjust its utility
allowances for over 8 years; lacked documentation to support how its current
utility allowances were determined; did not sufficiently segregate the duties of its
employees responsible for cash receipts, tenant accounts, cash disbursements, and
accounting transactions; failed to maintain complete and accurate books of
account regarding its equipment; did not conduct an inventory of non-expendable
equipment; improperly disposed of used equipment; and lacked an acceptable cost
allocation plan to support the allocation of costs among its programs.
     The audit recommended that HUDs Director of the Cleveland Area Office of
Public Housing Hub assure that the Authority implements controls to correct the
weaknesses cited in the audit. (Report No. 2001-CH-1005)

    In response to a Congressional request, the OIG reviewed the 1998 HOPE VI
application for Roseland Homes submitted by the Dallas, TX Housing Authority.
A complainant alleged that the HOPE VI revitalization application contained false
information involving the property purchased within the Fitzhugh Capital Neigh-
borhood. Specifically, the complainant alleged: (1) the sites are not adequate in
size, exposure, and contour to accommodate the number and type of units pro-
posed and adequate streets to service the sites are not available; (2) the new sites
will be located in an area of minority concentration and will cause a significant
increase in the proportion of minority to non-minority residents in the area; (3)
the new sites do not promote greater choice of housing opportunities and avoid
undue concentration of assisted persons; (4) the sites are not free from adverse
environmental conditions such as flooding, sewage hazards, and vehicular traffic;
and (5) there were no public meetings held with residents of the surrounding
community and newspaper ads did not say anything about building in the surround-
ing community.
    Our review determined that the HOPE VI revitalization application filed by the
Dallas Housing Authority did not contain fraudulent or misleading information. In
reviewing the application, it is important to keep in mind that it is only a proposed
plan. The applicant is not required to pinpoint property for off-site units. In fact, in
the case of the HOPE VI revitalization application filed by the Authority, the
properties contained in the application were not the same as the off-site units
subsequently purchased. No recommendations were made during our review.
(Report No. 01-FW-201-1801)

     An OIG audit of the Housing Authority of the City of Winston-Salem, NC,
disclosed that the Authority did not comply with its procurement policies or
federal requirements when it selected the developer for the Kimberly Park HOPE
VI project. Specifically, the Authoritys evaluation panel did not follow prescribed
evaluation procedures and the Authority did not properly document its selection
process. As a result, we were unable to determine whether the Authority provided
full and open competition, its rationale for accepting or rejecting contractors, or
whether its selection was objective, impartial, consistent, and fair. In addition,
HUD has no assurance that the contractor selected was the most advantageous to
the program. We believe this occurred because the executive director, rather than
an experienced contract administrator, acted as the contracting officer respon-
sible for overseeing the procurement.
     The audit recommended that the Authority issue a new request for proposal
and select a developer for the Kimberly Park HOPE VI project using required
procurement procedures. The procurement should be fully documented. The
Director, Office of Urban Revitalization, HOPE VI, agreed with our recommenda-
tion and advised us that the Authority terminated its memorandum of understand-
ing with the developer and will reissue a request for qualifications. The Authority
will use a selection and documentation process consistent with Authority and
federal procurement policy. (Report No. 01-AT-202-1802)
    Community Planning and Development Programs

                    The Office of Community Planning and Development (CPD) administers
               programs that provide financial and technical assistance to states and communi-
               ties for activities such as community development, housing rehabilitation, home-
               less shelters, and economic and job development. Grantees are responsible for
               planning and funding eligible activities, often through subrecipients. During this
               reporting period, the OIG reviewed grantees administration of the Community
               Development Block Grant (CDBG) and Continuum of Care Programs.
                    The CDBG Program provides annual grants to entitled communities to carry
               out a wide range of activities directed toward neighborhood revitalization, eco-
               nomic development, and improved facilities and services. The Continuum of Care
               Program is designed to fight against homelessness by linking key housing services
               and expediting movement toward housing for the homeless.

CDBG Program       In response to a complaint, the OIG audited the Municipality of Aguadilla,
               PRs use of CDBG funds. The funds were allocated for the Paseo de la Real
               Marine, also known as the Waterfront project. The complaint alleged that, as
               part of the project, the Municipality demolished an historic building known as the
               House of Redeemer Fathers (Casa Parroquial) despite the communitys opposi-
               tion to the demolition. The multi-year Waterfront project was funded with $3.8
               million of CDBG funds, $2.7 million of which had been disbursed as of March 9,
               2000.
                   On March 23, 1998, the State Historic Preservation Office (SHPO) wrote the
               Municipality of Aguadilla that it had knowledge of the Municipalitys plans to
               expropriate and demolish properties for the Waterfront project that might be
               eligible for inclusion in the National Register of Historic Places. The letter
               specifically mentioned the Casa Parroquial and the Masonic Lodge. Our audit
               determined that the Municipality did not comply with procedures in Section 106 of
               the National Historic Preservation Act. It did not provide adequate evidence to
               demonstrate that it: (1) identified the historic properties affected by the Water-
               front project; (2) assessed the effect the Waterfront project would have on historic
               properties; or (3) properly consulted with the SHPO. As a result, on August 24,
               1998, the Municipality started the demolition of the Casa Parroquial, in violation
               of HUDs CDBG regulations.
                   The audit recommended that HUD consult with the SHPO and the Advisory
               Council on Historic Preservation to determine whether they believe federal
               assistance should be granted despite the adverse effect created by the applicant,
               and determine if the Municipality complied with environmental requirements
               pertaining to other structures located in the Waterfront project site. Unless
               otherwise justified based on discussions with the Council, HUD should also
               require the Municipality to reimburse, from non-federal funds, the $2.7 million
               charged to the Waterfront project, plus any additional costs incurred to date,
               reprogram the remaining project funds of $1.1 million into an eligible CDBG
               Program activity, and monitor the Municipalitys future compliance with environ-
               mental requirements for projects funded by HUD. (Report No. 01-AT-241-1801)
     The OIG audited HUDs Canal Corridor Initiative along the Erie Canal, NY,
to assess the Departments efforts in achieving the programs objectives as
outlined in the Notice of Funding Availability published in the Federal Register on
December 3, 1996. The Initiative sought to revitalize the economic base of
communities in upstate New York through development projects and job creation
along the canal system and connecting waterways involving grants from the Small
Cities CDBG Program and loans from the Section 108 Loan Guarantee Program.
Our review did not disclose any improprieties regarding the award process.
Essentially, all the grantees located along the New York State waterways that
requested funding were awarded funds.
     While the Initiative has produced some limited successes by means of public
improvement projects, most activities have been slow moving, thus compromising
the Initiatives ultimate success. HUD authorized over $100 million for the Initia-
tive. However, 4 years after HUD introduced the Initiative, only $24.4 million has
been expended and program objectives such as job creation are not being fully
realized. Our site visits to 12 of the 53 funded grantees disclosed that the 12
grantees were to create 1,338 jobs; however, at the time of our visits, only 153
jobs, less than 12 percent, were documented as created. The audit showed that
progress has been curbed because grantees had little success brokering Section
108 loans to third parties, and because HUD has not actively monitored grantees,
thus allowing poor program performance to go undetected and unresolved.
     Grantee site visits also showed that grantees often did not comply with finan-
cial management systems requirements. In fact, we determined that 10 of the 12
grantees we visited were not in compliance with financial management require-
ments. Again, the absence of adequate monitoring allowed deficiencies to go
undetected and unresolved.
     The audit recommended that HUD: (1) rescind Section 108 grant authority if
the grantees have not expended the funds within an agreed upon time; (2) ensure
that grantees are making adequate progress toward the Initiatives objectives of
economic revitalization and job creation; (3) for those grantees that are not
making progress, decide if just making public improvements constitutes eligible
activities that meet a CDBG national objective; (4) perform monitoring reviews of
the grantees involved with the Canal Corridor Initiative and document the reviews
as required by HUD requirements; and (5) ensure that grantees are complying
with the financial management system requirements promulgated in HUD regula-
tions during monitoring reviews. In addition, if HUD rescinds any Section 108 loan
authority, and there is a future need for loans, HUD should coordinate with the
State of New York to provide Small Cities CDBG grants to those grantees that have
worthy canal related projects. (Report No. 2001-NY-0001)

    The OIG audited the Philadelphia, PA Commercial Development
Corporations (PCDC) funding of the Urban Education Development Research and
Retreat Center (UEDRARC) rehabilitation project. We noted that UEDRARC met a
CDBG Program national objective of eliminating a slum and blighted condition,
and accomplished its mission to provide an institutional environment encompass-
ing programs designed to promote education, research, employment training, and
human development to serve the needs of Philadelphias African American
community. PCDC had designed good management systems and controls to provide
project oversight and to account for all the loan funds disbursed to the project.
Despite these good controls, the audit found that PCDC did not follow its own and
HUDs requirements, and did not use prudent financial judgment in evaluating,
approving, and administering its $550,000 loan to UEDRARC, a high risk borrower.
PCDC did not observe existing loan approval policies and procedures; enforce its
loan monitoring policies and procedures when administering the loan; or take full
advantage of available recourses when UEDRARC defaulted on its loan. As a result
of PCDCs loan decision, it is likely PCDC will need to write off the loan to
UEDRARC, depriving other applicants of needed funds.
    The audit recommended that HUD require PCDC to comply with loan approval
and administration policies and procedures and loan agreements, and document
the reasons for circumventing existing policies and procedures when approving
and administering loans. UEDRARC should be required to obtain an audit of the
construction project in question. In addition, if PCDC writes off the loan, HUD
should direct the City of Philadelphia to repay the Citys CDBG Program, with
non-federal funds, for the loan portion written off as uncollectible. (Report No.
01-PH-241-0001)

    Following a complaint to the HUD Hotline, the OIG reviewed Cuyahoga
County, OHs revolving loan fund backed by the Countys CDBG Program. The
complainant alleged that the County misused CDBG funds to pay expenses of the
Special Purpose Grant for the Bellefaire Residential Treatment Center for Chil-
dren. The Bellefaire Center is a nonprofit mental health and child development
agency that provides services to children suffering from emotional, physical, and/
or substance abuse. We found that the County did not follow federal requirements
when it used CDBG funds to pay administration and construction expenses of the
Special Purpose Grant for the Bellefaire Center. Contrary to the Office of Man-
agement and Budgets requirement in Circular A-87, Cost Principles for State,
Local, and Indian Tribal Governments, the County used $308,495 of CDBG funds
to pay the expenses of the Special Purpose Grant because the County could not
draw down the Special Purpose Grant funds. HUD did not permit the County to
draw down the Special Purpose Grant funds because the County did not submit
the required closeout documents. The business services manager for the Countys
Department of Development said she was not aware that this use of CDBG funds
violated OMB Circular A-87. Subsequent to the completion of our audit work, the
County repaid $308,495 to the CDBG Program.
    The audit recommended that HUD assure that Cuyahoga County establishes
procedures and controls to ensure that it follows OMB Circular A-87 regarding the
use of federal funds. (Report No. 2001-CH-1801)

    As a result of a complaint to the HUD Hotline, the OIG audited the City of
Ironton, OHs administration of its CDBG Program. The allegations stated that
the City misused CDBG funds and did not follow proper procurement practices
when awarding contracts paid with CDBG funds. The complainant based the
allegations on information from HUDs 2020 Internet map, which provided a
general description and location of where HUD funds have been spent.
    HUDs 2020 map did not accurately show the locations where HUD funds were
used in the City. Nevertheless, we found that the City did not follow HUDs, the
State of Ohios, and/or the Citys own requirements regarding the use of CDBG
and HOME Program funds. We also found that the City and/or the Housing Stan-
dards Officer for the Ironton-Lawrence County Area Community Action Organi-
zation, with which the City contracted to administer its CDBG Program, did not
properly administer the Citys HUD funded rehabilitation activities. Specifically,
the City: (1) used $35,400 of HUD funds to pay for housing rehabilitation work that
was improperly performed or was not provided; (2) used $39,000 to assist 7
properties which were not occupied by low- or moderate-income families; (3)
lacked documentation to show that $112,000 in housing assistance paid to 11 other
households benefited low- or moderate-income individuals; (4) provided $146,000
in totally deferred assistance to 9 households when these households had the
ability to repay part of their housing assistance; (5) provided $58,000 in housing
assistance to 4 of 84 households reviewed without property hazard insurance and/
or without recording mortgage liens, deed restrictions, or covenants on the
assisted properties; (6) improperly provided CDBG funds for housing rehabilitation
assistance when conflicts of interest existed; (7) did not award contracts using full
and open competition, as required; and (8) did not ensure that the specifications
for housing rehabilitation contracts showed the requested materials and/or ser-
vices.
     The audit recommended, among other things, that HUDs Ohio State Office
Director of Community Planning and Development, in conjunction with State
officials, sees that the City of Ironton: ensures that all housing rehabilitation work
in question is completed; establishs procedures and controls to ensure that as-
sisted houses meet the States Residential Rehabilitation Standards; reimburses its
Community Housing Improvement Program from non-federal funds for the
housing rehabilitation assistance improperly provided to households that were not
low- or moderate-income; and terminates its contract with the Ironton-Lawrence
County Area Community Action Organization. (Report No. 01-CH-243-1001)

     Based on concerns by HUD staff related to the prior administrators oversight
of the City of Cheyenne, WYs Housing Rehabilitation and First-Time
Homebuyer Down Payment Assistance Programs, the OIG audited these pro-
grams. Our audit found that the Citys Office of Housing and Community Devel-
opment administrator and staff made unapproved program disbursements; did not
adequately document or justify the assistance to be provided and/or actually
provided; did not record and collect all program loans; and inappropriately
provided assistance to persons with conflicts of interest. As a result, the City
provided $952,080 in unauthorized funding, failed to collect on over $279,891 in
loans, and could not justify the need for assistance provided. We believe these
deficiencies occurred because the City failed to provide adequate management
controls and oversight.
     Based on HUDs previous reviews and our preliminary findings, we briefed the
City Attorney, who took immediate actions. First, the City canceled all open
purchase orders for participants. Second, the City Attorney must approve all
disbursements of funds. In addition, the City limited assistance under the Reha-
bilitation and Down Payment Assistance Programs to emergency assistance. The
City also hired a new administrator, whose first task necessitated completion of
the City Consolidated Plan to ensure CDBG funds for the next year. In addition, the
new administrator began reviewing the most recent participant folders to obtain a
better understanding of the problems. The new administrator plans to use this
knowledge in developing new program guidelines and internal management
controls over these programs. Also, the City provided substantial documentation
related to actual and proposed changes to the programs. We believe if these
               changes are fully implemented, the concerns raised in the audit should be cor-
               rected. (Report No. 2001-DE-1001)

Continuum of        The OIG is conducting a nationwide review of HUDs Continuum of Care
               Program. The Continuum of Care approach is a community based process of
Care           identifying the needs of the homeless and building a comprehensive and coordi-
               nated housing and service delivery system to address those needs. The Continuum
               is an organization of local governments, not-for-profit, and for-profit organizations
               that assist in the compilation of a consolidated application for grant funds. The
               Continuum of Care includes three programs that are competitively funded: the
               Supportive Housing Program, the Shelter Plus Care Program, and the Section 8
               Moderate Rehabilitation Program. As part of our review, we selected a sampling
               of grantees in order to evaluate the Continuum of Care. In addition, we performed
               work at HUD Offices and Continuum of Care entities. The results of eight of our
               audits are reported below. Our work is continuing.

                  An OIG audit of the Supportive Housing Program grant awarded to the Los
               Angeles, CA Homeless Services Authority (LAHSA), and operated by the El
               Monte Youth Development Center (El Monte), disclosed that El Monte did not
               implement its activities consistent with its application. Specifically:

               Ø El Monte admitted ineligible participants and participants whose eligibility was
                 not adequately documented into the Transitional Housing Program. Based on
                 our calculations, El Monte spent over $70,000 in supportive services for the
                 ineligible participants and over $93,000 for those who may not have been
                 eligible.

               Ø El Monte did not accomplish programs goals and/or could not support reported
                 accomplishments. For example, the application stated that transitional housing
                 services for 200 homeless youths would be provided by the end of the grant
                 period. El Montes progress report indicated that 33 participants were served
                 during the first year, and only 16 were served through October of the second
                 grant year.

               Ø El Montes financial records did not support grant expenditures and some
                 expenditures did not comply with federal procurement regulations. Although
                 financial statements prepared by El Montes independent public accountant
                 showed total expenses of $1,282,143 for the Transitional Living Care Program
                 through October 31, 2000, we were only able to verify $799,585 of these
                 expenses. We determined that expenses totaling $482,558 were not supported by
                 documentation justifying their eligibility or allocability.

                   The audit recommended that HUD require LAHSA to conduct programmatic
               and financial monitoring of all subgrantees and document follow-up actions
               resulting from the site visits, and perform in-depth reviews of all grants awarded
               to El Monte. In addition, LAHSA should ensure that El Monte obtains and verifies
               the necessary information to determine participant eligibility, require El Monte to
               revise its accounting systems to properly account for individual grant expenses on
               a grant-by-grant basis prior to receiving additional funding, require El Monte to
provide documentation supporting the eligibility and allocability of all unsupported
costs, and reimburse HUD for all ineligible costs incurred by El Monte. (Report
No. 2001-SF-1803)

    Adopt-A-Family of the Palm Beaches, Inc. (AAF) in West Palm Beach, FL,
needs to improve its administration of the Supportive Housing Program. Specifi-
cally, AAF did not:

Ø Follow federal procurement requirements when awarding a professional
  counseling services contract. As a result, AAF and HUD had no assurance that
  the best service and price were obtained. Also, grant expenditures totaling
  $89,000 were unsupported.

Ø Provide the agreed level of service for transitional housing. AAF chose to
  vacate and renovate available units during the grant period. This withdrawal of
  the units resulted in a significant reduction in the level of service required by
  HUD.


Ø Provide accurate or complete information in its annual performance reports.
  AAF did not monitor one goal and underreported other goals. As a result, HUD
  lacked information to determine whether the grant activities were achieving
  intended results.

    The audit recommended that HUD determine whether the $89,000 in contract
costs are adequately supported, instruct AAF to improve its controls over the
program, and require AAF to house additional homeless families with non-federal
funds to offset the reduced level of services. In addition, HUD should monitor any
ongoing or future grants. (Report No. 01-AT-251-1002)

    An OIG audit of the 1996 Supportive Housing Grant awarded to the Palm
Beach County Division of Human Services (County), West Palm Beach, FL,
found that:

Ø A service provider had zoning problems and was unable to obtain site control
  within the 1-year period or timely provide transitional housing at the agreed
  location. As a result, the County did not provide the full level of housing units.
  Also, the delay may cause the County to be unable to spend grant funds within
  the required 3-year period. Furthermore, the County did not disclose the
  change in site location or obtain HUD approval for the change.

Ø The County misclassified operating and supportive services costs totaling
  $285,717. As a result, the County incorrectly used about $32,103 of grant funds
  to pay for its share of the costs.

Ø The County did not submit accurate program progress and financial informa-
  tion, nor did it maintain adequate evidence of measurable results. As a result,
  the County and HUD lacked information to determine whether the grant
  activities were providing intended results.
Ø The County did not follow required federal procurement procedures in award-
  ing contracts in excess of $1.1 million. County officials did not believe the
  federal requirements were applicable. Therefore, the County entered into
  contracts with service providers to provide transitional housing and supportive
  services without competition or a cost/price analysis. As a result, the County
  and HUD have no assurance that the costs for transitional housing and support-
  ive services obtained under these contracts were reasonable and obtained at
  the best price.

     The audit recommended that HUD instruct the County to submit a detailed
listing of all costs so that HUD staff can determine whether the costs are properly
classified, prepare a revised budget and submit it for HUD approval, if warranted,
and improve its controls over the program. In addition, HUD should monitor any
ongoing or future grants. (Report No. 01-AT-251-1004)

     The City of Dallas, TX, failed to implement its 1996 Shelter Plus Care grant
and its 1997 Supportive Housing grant in compliance with grant agreements and
federal regulations. An OIG audit disclosed that the City did not: (1) provide and
document the matching supportive services required by the Shelter Plus Care
grant; (2) expend its funds timely; (3) file accurate and consistent annual progress
reports; (4) include only eligible and supported costs in its grant drawdowns; (5)
sufficiently monitor participants and their supportive service needs; and (6)
perform yearly housing quality standards inspections for apartments inhabited 1
year or more. Furthermore, the City drew down $53,977 for ineligible costs and
$2,261 for unsupported costs. The $53,977 included duplicate expenses, expenses
for ineligible participants, and expenses incurred prior to the grant start date.
     The audit recommended that HUD discontinue funding Continuum of Care
grants to the City until the City can demonstrate that it can administer the funds
appropriately. This includes providing HUD a comprehensive management plan
and documentation detailing supportive services provided for all Shelter Plus Care
grants. In addition, HUD should require the City to repay $53,977 in ineligible
costs and either support or repay $2,261 in unsupported costs. (Report No. 01-
FW-251-1002)

     In Houston, TX, an OIG audit of AIDS Foundation Houston, Inc.s 1997
Supportive Housing Program grant disclosed that the Foundation expended funds
for ineligible and unsupported activities and did not comply with federal cost
requirements. Of the $397,395 in grant funds audited, we found that the Founda-
tion expended $69,369 on ineligible or unsupported activities, including reim-
bursements to Building Lives Offering Community Knowledge (the BLOCK), a
partner, for ineligible payroll, office supply, telephone, and mileage costs. In
addition, the Foundation drew down $27,278 for ineligible costs, including admin-
istrative costs and costs for an ineligible participant. The Foundation also failed to
maintain sufficient documentation to support the homelessness eligibility of all 17
participants that we tested.
     The audit recommended that HUD require the Foundation to reimburse HUD
for all ineligible costs paid from grant funds, revise its monitoring policies and
procedures for financial site visits to prevent the future allocation of ineligible and
unsupported costs to federal grants, provide evidence that its grant participants
were homeless, and reimburse HUD for costs of participants whose eligibility
cannot be supported. The Foundation should also take administrative sanctions
against the BLOCK and its executive director for double billing salary, office
supplies, and telephone costs to two grants. (Report No. 2001-FW-1803)

     In administering the Supportive Housing grant awarded to the Greater Dallas,
TX Council on Alcohol and Drug Abuse, an OIG audit found that the Councils
activities were consistent with its application. However, the Council included
nearly $28,892 in ineligible and/or unsupported costs in grant drawdowns. These
costs included costs not directly associated with the provision of supportive
services and a portion of a directors salary. In addition, due to the Councils
goals and lack of coordination with other members of the Homeless Consortium
in Dallas, the Council did not report on its goals. Furthermore, it did not expend
its funds in a timely manner.
     The audit recommended that HUD require the Council to repay its grant or
support the $28,892 in ineligible and unsupported salary costs charged to the
grant. HUD and the Council should determine whether the Council should con-
tinue providing substance abuse treatment referrals. In addition, HUD should
ensure the coordination among Consortium members to meet the objectives of the
Continuum of Care concept, and deobligate any funds not expended as of May 31,
2001. (Report No. 2001-FW-1802)

     In Philadelphia, PA, the OIG audited the Supportive Housing Grants awarded
to Project H.O.M.E. (Housing, Opportunities, Medical Care, Education) for 1997
and 1998 and found that Project H.O.M.E.s activities were consistent with its
applications and achieved measurable results; funds were expended properly and
timely; and projects were sustainable. However, during our review of tenant files
at three projects, we noted that current tenant income documentation was not
maintained in those files. Income documentation is used to determine each
tenants initial income eligibility for the program and the tenants monthly rent.
Although initial income documentation was included in most of the files, subse-
quent income documentation and rent calculations were not included. As a result,
we could not determine if the tenant rent charges were appropriate.
     The audit recommended that HUD require Project H.O.M.E. to provide
documentation indicating that any rent overpayments have been refunded, and
maintain detailed tenant income and rent calculation records in the tenant files.
(Report No. 2001-PH-0801)

    An OIG review of the Continuum of Care Program administered by the
Department of Mental Health and Addiction Services (DMHAS) in Hartford, CT,
disclosed that DMHAS is operating its Supportive Housing Program (SHP) in
accordance with HUD regulations, but is not complying with regulations in operat-
ing its Shelter Plus Care (SPC) Program. We determined that rental payments by
SPC tenants exceed contract rents; administrative fees may surpass the amount
allowed; and the minimum number of grant participants are not being served.
    We recommended that HUD: (1) monitor DMHAS corrective action plan to
resolve matters with tenant rental payments in excess of contract rent; (2) ensure
that DMHAS develops a monitoring and training plan that will ascertain whether all
SPC contractors administer the SPC Program according to HUD regulations; (3)
ensure that DMHAS administration fee for all SPC grants does not exceed 8
                  percent of the total grant awarded; and (4) provide technical assistance to DMHAS
                  on approaches to maximize occupancy for all SPC grants. (Report No. 2001-BO-
                  1802)


              Multifamily Housing Programs

                      In addition to multifamily housing developments with HUD held or HUD
                  insured mortgages, the Department owns multifamily projects acquired through
                  defaulted mortgages, subsidizes rents for low-income households, finances the
                  construction or rehabilitation of rental housing, and provides support services for
                  the elderly and handicapped. In addition to Operation Safe Home equity skim-
                  ming work during this period, the OIG reviewed management agent operations, the
                  underutilization of apartments at multifamily developments, the HUD Earthquake
                  Loan Program, and a possible conflict of interest at an elderly housing develop-
                  ment.

Equity Skimming        Equity skimming is the willful misuse of any part of the rents, assets, pro-
                  ceeds, income or other funds derived from a multifamily project covered by an
                  FHA insured or held mortgage. The use of project assets or income for other than
                  reasonable operating expenses and necessary repairs, or for the payment of
                  unauthorized distributions to the owner, constitutes a violation of the Regulatory
                  Agreement between the owner and HUD and plays a significant part in the realiza-
                  tion of losses to the FHA insurance fund. Equity skimming deprives projects of
                  needed funds for repairs and maintenance. This, in turn, contributes to the finan-
                  cial and physical deterioration of projects and the resultant substandard living
                  conditions for the families who depend on the Federal Government to provide
                  housing.

                       HUDs mortgage loan servicing contractor received a repayment in the
                  amount of $1 million from the general partner of Beaveridge Housing, Yorktown,
                  NY, and Roslyn Plaza Housing, Roslyn, NY. This repayment stemmed from an
                  August 1996 OIG audit report on the two projects which disclosed unauthorized
                  loans involving both Beaveridge and Roslyn Plaza. Specifically, the general
                  partner of the projects made unauthorized loans totaling almost $4.2 million to an
                  affiliated company from the projects residual receipts funds. As a result of the
                  audit, the HUD New York Office of Counsel negotiated a repayment agreement
                  between the general partner and HUD in June 1998, in which the general partner
                  agreed to repay HUD the amount of unauthorized loans with interest over a 6-year
                  period. Although the general partner initially made payments to HUD, the pay-
                  ments stopped in 1999. Additionally, the projects certified public accountant
                  noted in the projects annual financial statements that the general partner had
                  stopped making payments to HUD. This was identified during HUDs Financial
                  Assessment Subsystem review and was referred to the HUD Enforcement Center
                  for action. The Enforcement Center contacted the general partner and negotiated
                  an agreement whereby the general partner would commence repayment of the
                  unauthorized loans.
                        An OIG audit report issued in January 1994 disclosed that Eastfield Manage-
                   ment, Inc., a Dallas, TX management agent for several HUD insured multifamily
                   projects, diverted almost $875,000 from an unapproved payroll clearing account.
                   In the account, the agent commingled funds from HUD insured projects, conven-
                   tional projects, and management companies. According to the terms of a settle-
                   ment agreement signed by HUD and the management agent in January 2000, the
                   agent has paid the first three installments of the payback agreement. These three
                   installments totaled $400,000.

                       In September 1996, an OIG audit of Little Flower Estates, a HUD insured
                   multifamily project in Ponchatoula, LA, disclosed that the owner spent almost
                   $285,000 in project funds for ineligible and questionable expenses while the
                   project was in a non-surplus cash position. The audit recommended that those
                   funds be recovered or supported and that project costs subsequent to the audit
                   period be reviewed. The owner has now repaid the remaining $148,000 of ineli-
                   gible and unsupported funds relating to this audit finding.

                        In Fort Worth, TX, the U.S. District Judge presiding over the multifamily
                   civil equity skimming case of the United States vs. Retirement Services Group, et
                   al, issued an order granting the governments motion for summary judgment and a
                   final judgment for the government to recover from the defendants over $1.6
                   million plus all costs of the court. In addition, the final judgment provided that
                   pre-judgment interest on the total amount of the diversions ($841,106) shall accrue
                   at the rate of 10.25 percent per annum from September 30, 1993, to the date of
                   this judgment, February 26, 2001. Post-judgment interest shall accrue at a rate of
                   6.052 percent per annum from the date this judgment entered on the docket until
                   paid. These actions resulted from an August 1993 OIG audit of the Heritage
                   Village Retirement Service Center.

                        The OIG was recently informed that HUDs Enforcement Center in Atlanta,
                   GA, issued letters proposing to debar the owner and the management agent of
                   Eastover Apartments. The proposed debarment resulted from the owner and
                   agents failure to properly maintain the 56-unit HUD insured multifamily project
                   located in Indianola, MS. In January 1999, we issued an audit report that cited
                   the owner and agents substantial neglect of the projects physical maintenance.
                   During the audit, we observed that the project was in such poor condition that it
                   was not fit for human habitation. We met with HUD to discuss our concerns about
                   the projects poor physical conditions, and as a result, HUD took immediate steps
                   to take possession of the project and relocated the residents to decent, safe, and
                   sanitary housing. We recommended that HUD pursue enforcement action against
                   the owner and agent.

Management             An OIG review of the books and records of the Bay Towers multifamily project
                   in Far Rockaway, NY, conducted at the request of the Director of the New York
Agent Operations   Multifamily Hub, disclosed that the management agent did not comply with the
                   provisions of the Regulatory Agreement and other HUD requirements. Specifi-
                   cally, we found that the management agent did not properly compute Section 236
                   excess income; as a result, $199,205 in collections were not remitted to HUD.
                   Furthermore, the HUD New York State Office (NYSO) may have inadvertently
                   given approval to the project to retain future excess income amounts collected. We
                   also found that the management agent charged ineligible legal fees that pertained
                   to the filing of petitions of bankruptcy by the project owners. As a result, the
                   project has been deprived of $77,000 which should have been used for reasonable
                   project operating expenses. In addition, the management agent wrote off a
                   $201,312 account receivable, due from the project owners, and a $174,677 loan
                   payable, without obtaining HUDs written approval. Consequently, we believe that
                   the project could be deprived of funds from a collectible receivable, and that its
                   loans payable balance may be understated.
                        The audit recommended that the HUD NYSO determine whether: (1) the
                   $199,205 in excess income collected and retained by the agent should be remitted
                   to HUD; and (2) the NYSOs April 2000 approval to allow Bay Towers to retain
                   future excess income collected should be rescinded. The owners should also be
                   required to immediately reimburse the projects operating account for the
                   $77,000 in legal fees charged to the project. In addition, the amounts for the
                   account receivable and the loan payable should be put back on the projects books
                   until HUD makes a determination on their authenticity. (Report No. 2001-NY-1001)

                       The OIG reviewed Metro Management Corporation, a management agent in
                   Overland Park, KS, who managed Royal Towers/Pickwick Plaza. The review
                   was initiated based on recent newspaper articles that contained negative informa-
                   tion, HUDs actions regarding the poor physical condition of Royal Towers/
                   Pickwick Plaza, complaints reported to the OIG regarding Metro, and the consid-
                   erable volume of Metro managed HUD assisted properties. The review resulted in
                   four observations that identified problems with Metros management of Royal
                   Towers/Pickwick Plaza. Two of the observations required no corrective action
                   since Metro no longer manages Royal Towers/Pickwick Plaza. However, they
                   represent information that HUD needs to be aware of in its oversight of other HUD
                   projects that Metro manages. The other two observations require corrective
                   action because they involve the inappropriate payment of a duplicate management
                   fee and an ineligible management fee.
                       The problems that require no corrective action are: (1) Metros previous
                   participation certificate was not updated to reflect current information on all
                   properties it owned; and (2) Metro did not maintain complete and accurate
                   project account books and records. The two problems that required corrective
                   action are Metro: (1) paid itself $6,770 in duplicate management fees for June
                   1999; and (2) collected $2,736 in eligible management fees from 1997 through
                   1999.
                       The audit recommended that HUD ensure Metro Management reimburses the
                   Royal Towers/Pickwick Plaza project account $6,770 for the duplicate manage-
                   ment fees and $2,736 for the ineligible management fees. (Report No. 2001-KC-
                   1801)

Underutilization        Based on a low physical assessment by HUDs Real Estate Assessment Center
                   (REAC), the OIG reviewed the Blue Hill Housing multifamily development in
of Apartments at   Dorchester, MA. We noted that deficiencies in property maintenance, disclosed
Multifamily        in the REAC assessment, were being addressed by Blue Hill. Although we found
                   no deficiencies in the use of project funds, the audit disclosed an underutilization
Developments       of apartments. During our review of tenant eligibility, we determined that 24 of
                   144 apartments were underutilized, contrary to HUD requirements. Based on
                   household compositions, families are in apartments with too many bedrooms.
                 Blue Hill had not established and implemented a policy to address
                 underutilization. Consequently, HUD is paying too much in subsidies for the
                 number of tenants served ($4,705 per month based on current conditions) and
                 larger families are being prevented from living in appropriate size apartments.
                 We found that this condition has existed for some time, possibly for at least 5
                 years.
                      After we brought the underutilization of apartments to Blue Hills attention,
                 they prepared a transfer policy and corrective action plan to address the defi-
                 ciency. However, we believe the corrective action plan is inadequate. The plan
                 states that vacancies will be alternately filled from the waiting list (outside) and
                 the transfer list (tenants in underutilized apartments). This method will double the
                 amount of time necessary to correct the problem. Blue Hill could not provide a
                 sound reason why it is necessary to alternate between the two lists.
                      The audit recommended that HUD monitor Blue Hills compliance with their
                 new transfer policy and obtain progress reports until the underutilization problem
                 is resolved. (Report No. 01-BO-219-1001)

                     Based on a low physical assessment given in a HUD Massachusetts State
                 Office (MSO) review, which reclassified the project to troubled, the OIG audited
                 Bowdoin Apartments in Malden, MA. We found that Bowdoin is correcting the
                 maintenance deficiencies disclosed by the MSO. However, we found that Bowdoin
                 needs to relocate over-housed households to reduce underutilization of apart-
                 ments. Our review disclosed that 21 of 226 apartments were underutilized,
                 contrary to HUD requirements. Based on household compositions, families are in
                 apartments with too many bedrooms. Bowdoin had not established an effective
                 transfer policy to address underutilization of units. Consequently, HUD is paying
                 too much in subsidies for the number of residents served and larger families are
                 being restricted from appropriate size apartments.
                     The audit recommended that Bowdoin revise its transfer policy to relocate
                 families to appropriately sized units as such units become available, and submit
                 quarterly progress reports on progress made in reducing underutilization. (Report
                 No. 2001-BO-1003)

HUD Earthquake        In response to a citizens complaint, the OIG audited Fountain Park Coopera-
                 tive, Inc.s (FPC) use of HUD HELP funds. The complainant alleged that FPC
Loan Program     improperly spent HELP funds for earthquake repairs that were either not com-
(HELP)           pleted as claimed, or were completed in an unsatisfactory manner. At the time of
                 our audit, the Los Angeles Multifamily Hub also conducted a management review
                 and physical inspections of FPCs dwelling units to determine whether repairs
                 were either actually made or completed satisfactorily. Since the Hub was already
                 addressing the issue concerning the repairs, we excluded this portion from our
                 audit scope. Instead, we reviewed other areas relating to FPCs receipt and
                 expenditure of HELP and other earthquake related funding sources to determine
                 FPCs compliance with the Financial Assistance Contract (FAC).
                      Our audit found that, contrary to the provisions of the FAC, FPC did not reduce
                 its HELP loan for $55,524 that shareholders also received from other sources for
                 earthquake related damages. Specifically, some of FPCs shareholders obtained
                 funding from the Federal Emergency Management Agency, the State of California
                 Individual and Family Grant Program, and the Small Business Administration,
                 which duplicated repair items paid with HELP funds.
                             The audit recommended that HUD require FPC to determine which repair
                         items were completed either by the repair contractor or the shareholders, and
                         collect $55,524 from either the repair contractor or the shareholders. (Report
                         No. 2001-SF-1802)

Possible Conflict             At the request of the HUD Office of General Counsel (OGC), we performed a
                         limited review of the Rainbow Village Section 202 project in Houston, TX, to
of Interest at           determine whether a Program Fraud Civil Remedies Act (PFCRA) filing was
                         merited. OGC stated that it appeared that three individuals  an ownership entity
Elderly Housing          president, an officer of the management company, and an ownership board
Development              member  may have made false statements/certifications in order to obtain HUD
                         contracts and funding. In our opinion, the issue is not clear-cut. HUD had docu-
                         ments in its possession prior to the projects initial closing that identified the three
                         individuals and their conflict-of-interest relationships. HUD should have cancelled
                         the fund reservation based on the conflicts that existed. However, HUD took no
                         action at the initial closing. HUD did not question the conflicts until the project
                         entered the final closing stage.
                              Based on our work and HUDs inaction, we do not believe that a PFCRA filing
                         is appropriate, nor do we believe that debarment is appropriate. Instead, HUD
                         should take administrative action to prevent any future payments to entities with
                         prohibited conflicts of interest. In addition, HUD Counsel must determine whether
                         HUDs inaction on information in its possession negatively affects its ability to
                         recover previous payments to entities with conflicts of interest. Further, HUD
                         should provide notice to the three individuals and their related conflict-of-interest
                         entities that they will not be able to participate in any future phases of the project
                         because of their conflicts. Finally, HUD must adjust the remaining amount of the
                         developers fee to ensure that the amount paid at final closing does not exceed the
                         8 percent regulatory cap. (Report No. 01-FW-111-0801)



                  Single Family Housing Programs

                             Single Family Housing Programs provide mortgage insurance that enables
                         individuals to finance the purchase, rehabilitation, and/or construction of a home.
                         During this reporting period, we reviewed property disposition and closing agent
                         activities.

Property                     The interim results of the OIG Southeast/Caribbean Districts nationwide audit
                         of HUDs Officer Next Door/Teacher Next Door (OND/TND) Program found that
Disposition              closing agents did not execute second mortgages on 56 percent of the property
                         sales in our sample that closed after the effective date of the second mortgage
                         requirement. Our sample of all 29 OND home sales clustered in the Dade
                         County, FL area included 9 home sales subject to the second mortgage require-
    Officer Next Door/   ment. Second mortgages were not filed on five of these nine home sales. These
    Teacher Next Door    five sales closed on various dates from December 22, 1999, to June 9, 2000.
              Program    Additional evidence provided by a management and marketing (M&M) contractor
                         showed that second mortgages were not filed on 16 of 17 closings from March 24,
                         2000, to September 13, 2000.
                                 Our interim results indicate that a high proportion of homebuyers abused and
                            defrauded the OND/TND Program. Seven of the 29 homebuyers we reviewed, or
                            about 26 percent, violated 1 or more program requirements by renting, selling, or
                            not living in the property. We also found strong indications that many other
                            homebuyers may have violated program requirements. The OIG had 81 OND/TND
                            homebuyers under investigation for suspected violations, including 5 who were
                            convicted. HUD OND/TND Program staff in Headquarters estimated that 25
                            percent of all OND/TND homebuyers violated occupancy requirements after
                            closing. Also, the Atlanta Homeownership Center began, but did not complete, a
                            proactive monitoring effort that identified 12 homebuyers who were suspected of
                            violating OND/TND occupancy requirements.
                                 Preliminary recommendations include requiring closing agents and M&M
                            contractors to review all closed OND/TND sales and file second mortgages where
                            needed; establishing management controls to ensure that closing agents execute
                            second mortgages on behalf of HUD on all OND/TND sales; developing a manage-
                            ment control procedure to specifically monitor OND/TND homebuyers to ensure
                            that they meet their continuing obligations throughout the 3-year occupancy term;
                            and establishing a centralized log at Headquarters or at each Homeownership
                            Center to record suspected violations, actions taken to confirm or clear the
                            suspected violations, and cases referred to the OIG. (Report No. 2001-AT-0801)

    Purchase Money      In Atlanta, GA, during our ongoing audit of nonprofit organizations partici-
   Mortgage Amounts pation in HUDs Single Family Programs, we discovered that the Atlanta
                            Homeownership Center (HOC) was incorrectly calculating Purchase Money
                            Mortgage (PMM) amounts to HUDs detriment. HOCs may make PMMs to non-
                            profit organizations to finance their purchase of homes from HUDs inventory of
                            acquired single family properties. The nonprofits are required to repay the PMMs
                            when they sell the properties to qualified buyers. However, we determined that the
                            HOC over-financed all PMMs at 100 percent of the properties discounted sales
                            prices. The HOC should have calculated the PMMs at 85 percent of the discounted
                            sales prices. As a result, all PMMs made by the Atlanta HOC were excessive by 15
                            percent. This exposed HUD to unnecessary risk.
                                On January 10, we met with Atlanta HOC officials and informed them that
                            their method for calculating PMMs was incorrect and resulted in excessive PMM
                            amounts. The HOC researched the issue and informed us that they agreed with our
                            determination. On February 5, the HOC issued written instructions to its staff on
                            the correct method for calculating future PMM amounts. The HOCs timely action
                            to correct the calculation error should result in the determination of correct PMM
                            amounts and reduce the risk to HUD for PMMs that may go into default or are
                            foreclosed.

Closing Agent                   In New London, CT, as part of a nationwide effort to review closing agents,
                            the OIG audited HUDs closing agent, Waller, Smith & Palmer, P.C. (WSP), and
                            found that HUD was overcharged $20,347 for wire transfer and closing agent fees.
                            This includes not only overcharges on wire transferring the proceeds from 392
                            HUD property sales to the Department of Treasury, but also improperly charging
                            the full closing agent fee for 42 of a sample of 69 third party closings rather than
                            the required 50 percent of the full fee. HUD may have also been overcharged an
                            additional $58,905, including $54,540 in wire transfer fees that we believe were
                            included in WSPs closing agent fee, resulting in a duplication of cost.
                                 Although prohibited by its contract, WSP collects a 60 percent title insurance
                            premium fee split for each case where it issues a title insurance policy on behalf
                            of a specific title insurance company. In addition, WSP may be collecting duplicate
                            fees for the same services required by both the closing agent contract and its
                            agreements with title insurance companies. The Real Estate Settlement Proce-
                            dures Act prohibits fee splitting and collecting unearned fees, including duplicate
                            payments.
                                 The audit also found that WSP did not comply with all of its closing agent
                            contract requirements. Specifically, WSP did not always ensure that only allowable
                            expenses were paid by HUD on the buyers behalf. Furthermore, WSP did not
                            deposit sales proceeds timely; wire sales proceeds to the Department of Treasury
                            timely; or submit a complete closing package to CityWest New England, Inc.,
                            management and marketing contractor for HUD.
                                 The audit recommended that the HUD Homeownership Center: (1) direct and
                            ensure that WSP complies with the terms of its closing agent contract and HUD
                            regulations; (2) require WSPto reimburse HUD $20,347 for overcharges related to
                            wire transfer and closing agent fees for the periods in question; (3) require WSP to
                            provide support for fees earned from title insurance companies and to claim only
                            actual costs up to 60 percent of the premium to comply with regulations; (4)
                            instruct and ensure that WSP includes only allowable expenses in the amount HUD
                            pays on the buyers behalf; and (5) instruct and ensure that WSP submits a com-
                            plete closing package in all cases. (Report No. 2001-BO-1002)



                                    Financial Audits

Audit of HUDs                  On March 1, 2000, we issued a report on the audit of HUDs financial state-
                            ments for the year ended September 30, 2000. We issued an unqualified opinion of
Consolidated                those financial statements, but our overall report identified four material weak-
Financial                   nesses and ten reportable conditions. (These numbers are inclusive of the one
                            material weakness and three reportable conditions discussed in the FHA audit.)
Statements                  Most of these control weaknesses were reported in previous audits and represent
                            long-standing problems. Our audit also disclosed three instances of noncompli-
                            ance with laws and regulations.
                                HUD has been taking actions to address the weaknesses and in some instances
                            has made progress in correcting them. Progress has been slow in large part
                            because HUD needs to address issues that fundamentally impact its internal
                            control environment. These issues are Departmentwide in scope and must be
                            addressed for HUD to more effectively manage its programs.

       Four Reported      The Departments financial management systems, including its core financial
  Material Weaknesses system, do not fully comply with federal financial system requirements. In
                            addition, weaknesses remain in the supporting financial systems and the Depart-
                            ment continues to experience delays in integrating the financial systems.
                            Managements plans for additional improvements are not clear and have not been
                            supported by adequate analyses. The following financial management system
                            deficiencies, which were reported in last years report, were present during FY
                            2000:
     Need to complete Ø Several interfaces between subsidiary systems, such as FHAs subsidiary
          improvements  ledger, and the core financial systems general ledger either not automated or
   to financial systems require manual analyses.
                           Ø Deficient FHA general ledger and subsidiary systems.
                           Ø Inability to support adequate funds control for FHA.
                           Ø Inadequate assurance about the propriety of Section 8 rental assistance
                             payments.
                           Ø Inability to fully support the timely identification of excess funds remaining on
                             expired project-based Section 8 contracts.

      Need to improve           HUD relies on intermediaries to make rental subsidy calculations for the
         oversight and     billions of dollars in subsidy payments made each year. Because of insufficient on-
                           site monitoring of intermediaries and the absence of an ongoing quality control
 monitoring of housing
                           program to periodically assess the accuracy of rent determinations, we consider
subsidy determinations     this a significant internal control risk. This material weakness relates to monitor-
                           ing weaknesses that were first reported in our financial audit in 1991 and have
                           been reported in every audit thereafter.
                                A recent study of rent determinations under HUDs major housing assistance
                           programs estimates that errors made by intermediaries (project owners and
                           housing authorities (HAs)) result in substantial subsidy overpayments and under-
                           payments. The study was conducted to provide national estimates of the extent,
                           severity, costs, and sources of errors occurring in the certification and recertifi-
                           cation procedures used by HAs and owners in calculating tenant rents. Based on
                           analyses of a statistical sample of tenant files, tenant interviews, and income
                           verification data, the study concluded that on a monthly basis:

                           Ø 36 percent of all households paid at least $5 less rent than they should (with an
                             average error of $105).
                           Ø 40 percent of all households paid the correct amount of rent within $5 (29
                             percent paid exactly the right amount).
                           Ø 24 percent of all households paid at least $5 more rent than they should have
                             (with an average error of $56).

       Need to ensure          The study projected subsidy overpayments of about $1.9 billion annually and
that rent subsidies are    underpayments of about $0.7 billion. Payment errors of this magnitude take on
                           added significance in light of HUDs estimate of 4.9 million households with
      based on correct
                           worst case housing needs (unassisted very low-income renters who pay more
        tenant income      than half of their income for housing or live in severely substandard housing).
                               HUD provides rent and operating subsidies through a variety of programs,
                           including public housing and Section 8. The admission of a household to these
                           rental assistance programs and the size of the subsidy it receives depend directly
                           on its self-reported income. HUD performed computer income matching with its
                           assisted housing universe and estimated that housing subsidy overpayments from
                           tenants misrepresenting their income totaled $617 million during calendar year
                           1999. Tenants often do not report income or under report income which, if not
                           detected, causes HUD to make excessive subsidy payments. Tenant income is a
                           major factor affecting eligibility for, and the amount of, housing assistance a
                           family receives, and indirectly, the amount of subsidy HUD pays. Generally, HUDs
                           subsidy payment makes up the difference between 30 percent of a households
                        adjusted income and the housing units actual rent or, under the Section 8 Voucher
                        Program, a payment standard.

   Need to enhance           FHA has 19 subsidiary systems that feed transactions to its commercial
FHAs information       general ledger. The system lacks the capability to process transactions in the
                        Standard General Ledger (SGL) format and provide required credit reform data.
technology systems      During FY 2000, FHA purchased a commercial off-the-shelf (COTS) SGL finan-
 to more effectively    cial system to replace the current system and possibly an interim financial data
   support business     warehouse. The warehouse will be used to convert the subsidiary system transac-
          processes     tions to the SGL and credit reform basis prior to transfer to the FHA COTS system.
                        FHA intends to implement the warehouse and COTS systems during FY 2002. Long
                        range plans on how and which subsidiary systems can be made compliant by
                        either enhancing them, replacing them with the COTS system, or retaining them
                        for use with the warehouse conversion system are not clearly established.
                             FHAS purchase of the COTS system was to follow the Departments System
                        Development Methodology (SDM), which required the completion of a feasibility
                        study, a cost/benefit analysis and a risk analysis prior to the purchase. However,
                        FHA did not adequately complete these studies and therefore cannot be assured
                        that the system selected will effectively or efficiently meet its objectives. For the
                        last 2 years, we reported that frequent financial system project and strategy
                        changes have resulted in schedule delays and cost overruns. After spending more
                        than $206 million over 8 years, HUD continues to rely on legacy systems.

   Ten Reportable     The audit disclosed ten additional reportable conditions in internal controls
       Conditions in FY 2000 related to the need to:
                        Ø   refine performance measures to effectively implement results management;
                        Ø   improve control over project-based subsidy payments;
                        Ø   strengthen controls over HUDs computing environment;
                        Ø   overhaul personnel security for systems access;
                        Ø   address risks with the reliability and security of HUDs critical financial
                            systems;
                        Ø   improve processes for reviewing obligation balances;
                        Ø   tighten controls over Fund Balance with Treasury reconciliations;
                        Ø   enhance the design and operation of controls over FHAs information systems
                            security and application data integrity;
                        Ø   continue to place more emphasis on early warning and loss prevention for
                            FHA single family insured mortgages; and
                        Ø   sufficiently monitor and account for FHAs single family property inventory.

      Compliance     Our findings also included the following instances of noncompliance with
   with Laws and applicable laws and regulations:
      Regulations
                        Ø HUD did not substantially comply with the Federal Financial Management
                          Improvement Act (FFMIA). In this regard, HUDs financial management
                          systems did not substantially comply with (1) federal financial management
                          systems requirements; or (2) the U.S. Standard General Ledger at the
                          transaction level.
                 Ø HUD did not comply with the U.S. Housing Act of 1937, as amended by the
                   Quality Housing and Work Responsibility Act of 1998. Specifically, HUD has
                   not timely or properly enforced the Acts requirements for the timely expendi-
                   ture and obligation by housing agencies of public housing modernization funds.
                   As discussed later, HUD disagrees with our conclusion and we have referred
                   the matter to the Comptroller General of the United States.

                 Ø Certain FHA contract obligations are allocated between FHAs program and
                   liquidating funds based on the nature of the services to be provided. Limits
                   have been set by appropriation law regarding the amount of administrative
                   costs that may be charge to FHAs program accounts. The allocation method-
                   ology that FHA has currently applied for certain contracts may require refine-
                   ment, to better reflect the relationship of the services to specific programs.
                   Such reallocation would result in a matter of noncompliance with the Anti-
                   Deficiency Act, as of September 30, 2000, relating to FHAs Mutual Mort-
                   gage Insurance Program account. (Report No. 2001-FO-0003)

Audit of FHAs        On March 1, 2001, we issued our report based on KPMG LLPs audit of the
                 FHAs financial statements for the year ended September 30, 2000. KPMG ex-
Financial        pressed an unqualified opinion on these statements. The report identifies one
Statements       material weakness involving the need for FHA to improve information technology
                 systems in support of business processes and three reportable conditions including
                 the need for enhanced security over data, improved progress on early warning/
                 loss prevention activities and better monitoring and accounting for single family
                 property inventories. The material weaknesses were discussed and reportable
                 conditions were listed above in our write-up on the consolidated audit.
                      While each of these internal control deficiencies was reported in FHAs prior
                 financial audit, we are seeing progress in resolving the problems. Additionally,
                 four reportable conditions in FY 1999 are no longer reported in FY 2000. Those
                 FY 1999 reportable conditions were: (1) controls over budgetary funds and funds
                 control must by improved (a prior year material weakness); (2) FHA must con-
                 tinue to place more emphasis on early warning and loss prevention for Multifam-
                 ily insured mortgages (a prior year reportable condition); (3) FHA must continue
                 actions to safeguard and quickly resolve Secretary-held Single Family mortgage
                 notes (a prior year reportable condition); and (4) FHA must improve its review
                 process for estimating reserves for the insured portfolio (a prior year reportable
                 condition).
                      Also, for the first time, this years FHA financial audit recognizes the poten-
                 tial geographic concentration of fraud risk in origination activities. These fraudu-
                 lent activities could be recognized as unexpected future claims and defaults
                 against FHAs mortgage insurance funds. These geographic areas of fraud risk
                 have been identified by HUD program staff and through the OIGs recent audit and
                 investigative focus on FHA single family operations at various locations throughout
                 the country. (Report No. 2001-FO-0002)
Audit of
                      The audit of the Government National Mortgage Association (Ginnie Mae)
Ginnie Maes     financial statements was issued February 20, 2001. This audit was also conducted
Financial        under contract with KPMG. The audit found the financial statements presented
                 fairly, in all material respects, Ginnie Maes financial position as of September
Statements
                         30, 2000, and results of its operations and its cash flows for the year then ended,
                         in conformity with generally accepted accounting principles. Additionally, the
                         audit results indicate that there were no material weaknesses or reportable
                         conditions with Ginnie Maes internal controls, or material instances of noncom-
                         pliance with laws and regulations. This is the fifth year that Ginnie Mae has had
                         an unqualified opinion with no reported internal control weaknesses. (Report No.
                         01-FO-177-0001)



                          Other Significant Audits

Information                  Based on the results of the OIGs FY 1999 financial statement audit, which
                         resulted in a disclaimer of opinion, the OIG audited HUDs Central Accounting and
Technology               Program System (HUDCAPS) in Washington, DC. The disclaimer was given, in
                         part, because of HUDCAPS system control weaknesses and Program Accounting
                         System (PAS) to HUDCAPS conversion problems. The audit found significant
                         internal control deficiencies that must be addressed. Specifically:

      HUDs Central Ø Implementation of Configuration Management (CM) for HUDCAPS has been
     Accounting and   continuously delayed. The OIG has reported on this weakness for several
                      years. HUD has not fully implemented CM for HUDCAPS, despite having
     Program System
                             purchased a CM tool over 6 years ago. As a result, HUDCAPS remains exposed
                             to errors and system failures from uncontrolled software changes and incor-
                             rect version releases. Another deficient maintenance practice is the lack of
                             formal and tested procedures for the restoration process in the event of a
                             system processing disruption. We also had a concern regarding the lack of
                             procedures to promptly resolve system and user problems.

                         Ø We found that the Decision Support System (DSS) data was not periodically
                           reconciled with the data in the HUDCAPS production tables to ensure accuracy
                           and completeness. Without periodic reconciliation, there is no assurance the
                           DSS is reliable. Another data integrity control deficiency is the lack of controls
                           over the use of the UTTCOR utility (a system utility that can be used to resolve
                           data discrepancies). Access to this utility had been granted to over 20 contrac-
                           tor and HUD personnel. Without limiting the use of UTTCOR, HUDCAPS data
                           are exposed to unauthorized changes. The third deficiency is that the rejected
                           transactions in the HUDCAPS Document Suspense File were not resolved in a
                           well-timed manner and the posting model for the PAS to HUDCAPS interface
                           was not punctually updated. In addition, HUDCAPS has not been regularly
                           updated to reflect legislated changes.

                         Ø HUD spent at least $188,000 for a contractor to develop procedures for the
                           FYs 1999 and 2000 cash reconciliation efforts. This investment was neither
                           cost effective nor efficient. The reconciliation procedures developed involved
                           numerous manual steps that are inefficient and susceptible to data errors or
                           omissions.
                    HUDCAPS can be a reliable financial management system if the Department is
               willing to invest the time and resources to correct the deficiencies identified in
               this audit. In particular, the Department must complete the configuration man-
               agement implementation for HUDCAPS, implement controls to protect the integrity
               of the data, and use already developed automated functionality for assisting in the
               cash reconciliation process. (Report No. 2001-DP-0002)

      HUD           The Clinger-Cohen Act requires the head of every executive agency to ensure
Entity-wide    that the information security policies, procedures, and practices of the agency are
               adequate. Despite the magnitude of HUDs systems in terms of dollars and trans-
  Security     actions processed, and prior reported security weaknesses, an OIG audit found
  Program      that HUDs security practices are still deficient. HUD has not adequately planned
               and managed an entity-wide security program to ensure that its critical informa-
               tion system resources are protected from accidental or intentional loss or dam-
               age. Specifically, we found that: (1) risks are not adequately assessed and man-
               aged on a continuing basis; (2) security plans are either not documented or not
               kept current; (3) incident tracking, reporting, and response capability need
               improvement; (4) an effective training and awareness program is not in place; and
               (5) HUDs Critical Infrastructure Protection Plan, prepared in accordance with
               Presidential Decision Directive (PDD) 63, is inadequate and out of date. PDD 63
               calls for a national effort to assure the security of the nations critical infrastruc-
               tures, especially our computer based systems. These weaknesses continue to
               expose HUDs critical information resources to loss or damage.
                    Currently, responsibility and accountability for information security within the
               Department is fragmented and decentralized. In addition, HUD has not placed
               sufficient priority nor devoted adequate resources toward establishing an effective
               security program. The establishment of the Office of the Chief Information
               Officer (CIO) almost 2 years ago provided an opportunity for the Department to
               raise the priority and support for information security. However, the CIO has not
               fulfilled the management void in this critical area. Since the CIO reports directly
               to the Secretary, that office is in the best position to provide the necessary leader-
               ship, oversight, and enforcement for information security. Our audit therefore
               recommended that the Deputy Secretary assign the CIO full responsibility and
               accountability for information security and allocate adequate resources to estab-
               lish an effective entity-wide security program. The Deputy Secretary should also
               transfer information security responsibilities, with the exception of password and
               user identification administration, from the Office of Information Technology to
               the Office of the CIO. In addition, the audit recommended several actions that the
               CIO should take after assuming full responsibility for information security. (Report
               No. 01-DP-166-0001)

   Internet     In Washington, DC, the OIG conducted a review to determine whether the
    Privacy Department  or any third parties, including other governmental agencies, are
            obtaining personally identifiable information relating to any individuals access or
     Status viewing habits for governmental or non-governmental Internet sites. The OIG
               determined that the Department has not been collecting personally identifiable
               information on HUD Internet users. However, there are areas needing improve-
               ment. Management oversight to ensure adequate privacy on HUDs Internet web
               pages should be strengthened, the standard privacy statement needs strengthening,
               and all HUD contracted sites should have hyperlinks to the statement.
                              Under current policies, individual web managers of program areas are
                         responsible for the content of their web sites. There is no requirement for man-
                         agement review or oversight of web contents to ensure that all of the Departments
                         Internet web pages adhere to federal privacy legislation. Although we did not find
                         any persistent cookies (mechanisms that allow the Internet server to store its
                         own information about a user on the users own computer), there is no assurance
                         that future web pages would protect the privacy of those accessing HUD Internet
                         web pages. Another concern we have is about the content and availability of HUDs
                         privacy statement. This statement lacked a disclaimer on security to inform users
                         that there are inherent risks of unauthorized access to personally identifiable
                         information on the public Internet. An example of a security disclaimer is ...due
                         to the nature of the Internet and the World Wide Web, we cannot assure the
                         security of the information during transmission by electronic mail over the public
                         Internet. With respect to availability of the privacy statement, we observed 45 of
                         122 indexed web pages, which can be directly accessed from the site index on the
                         main page, did not have a hyperlink to the standard privacy statement. HUDs web
                         manager did indicate that all indexed web pages would be linked to HUDs stan-
                         dardized privacy statement. We also determined that the six HUD contracted sites
                         (such as Community Connections) we examined were not linked to HUDs privacy
                         statement. In addition, we noted a minor deficiency with the placement of the
                         hyperlink. The hyperlinks to the privacy statement are placed on the lower right
                         side of the web page, which is not a conspicuous location.
                              The audit recommended that HUD: (1) update the Internet policy to require
                         that the Departments Web Manager conduct periodic management reviews to
                         ensure adequate privacy on HUDs Internet web pages, including those web pages
                         on HUDs contracted sites; (2) add appropriate disclaimer comment(s) on security
                         to HUDs privacy statement; (3) ensure that all HUD indexed web pages and
                         contracted Internet web sites include a hyperlink to the Departments standard-
                         ized privacy statement; and (4) consider placing the hyperlinks to the privacy
                         statement on the top left side of the web pages rather than on the lower right hand
                         corner. (Report No. 2001-DP-0801)

 Internal Controls     In Washington, DC, the OIG reviewed the internal controls over HUDs FY
     Over Annual   1999  annual performance data to determine what internal controls HUD has
                   established to ensure the accuracy and reliability of data presented in its FY 1999
Performance Data
                         Annual Performance Report (APR). Many of the performance indicators we
                         reviewed contained data that were estimated by HUD offices. Offices estimated
                         the data because they did not have current data or did not have confidence in their
                         data to give an accurate description of accomplishments. Although the estimates
                         may have given a better picture than the data offices actually had, these offices
                         cannot attest to the accuracy and reliability of the performance data presented in
                         the FY1999 APR.
                             Data for some performance measures were inaccurate. Some of the inaccu-
                         racies occurred because offices did not review a draft of the APR which was
                         provided to them. Others occurred because systems that accumulate performance
                         data were updated after data were extracted for the APR. Because of these inaccu-
                         racies, a clear picture of accomplishments is not being reported in the APR.
                             HUD has not set Departmentwide standards for criteria that determine data
                         quality and direct data clean-up efforts. As part of the data clean-up effort, a
                            guidebook was published which established a process for determining data clean-
                            liness based on six criteria. Although the guidebook establishes definitions for
                            these criteria, it falls short of setting a standard for each criterion that program
                            offices can follow to determine cleanliness of data. Without this, HUD offices do
                            not have standards for criteria that determine data quality and serve as a basis to
                            direct data clean-up efforts as well as to formulate data quality plans.
                                In our audit, we made specific recommendations to each HUD office, as
                            appropriate, for improving data quality. We also recommended that HUDs Chief
                            Financial Officer implement data quality standards for systems and/or data
                            elements that support performance indicator data, require that data quality plans
                            based on these standards be formulated for all HUD data systems and/or elements
                            that produce performance indicator data, and implement the methodology for
                            performing independent verification of data with a high priority for elements that
                            produce performance data. In general, the Deputy Chief Financial Officer and
                            cited HUD offices agreed with our findings and recommendations and stated that
                            actions have been taken or are planned to strengthen internal controls over data
                            quality. (Report No. 2001-FO-0004)

                                The Office of Fair Housing and Equal Opportunity (FHEO) enforces the Fair
Fair Housing                Housing Act and other civil rights laws to ensure the right of equal housing
                            opportunity and free and fair housing choice without discrimination based on race,
and Equal                   color, national origin, religion, sex, disability or family composition. Among the
Opportunity                 goals of the Office of FHEO are promoting geographic mobility for low-income
                            and minority households; integrating fair housing plans into HUDs consolidated
Programs                    plans; furthering fair housing in other relevant programs of the Federal Govern-
                            ment; and promoting substantial equivalency among state, local, and community
                            organizations involved in providing housing.

          Fair Housing      The OIG audited the FY 1998 Fair Housing Initiatives Program (FHIP), Na-
    Initiatives Program tional Focus Education and Outreach Competition, in Washington, DC, as a
                            result of allegations disclosed during our review of the Use of Fair Housing
                            Initiatives Program Funds. The allegations were that the former HUD Chief of
                            Staff significantly changed the statement of work during negotiations, after
                            Consumer Action of San Francisco had been selected as the grantee. Specifically,
                            the allegations were that: (1) the negotiation process may have resulted in unfair
                            competition because the final negotiated statement of work was materially differ-
        National Focus      ent from the activities in Consumer Actions application; (2) during negotiations,
                            former officials from the Secretarys Office tried to steer the project require-
         Education and      ments to BBDO, the contractor for the FHA media campaign; (3) the Secretarys
  Outreach Competition      Office directed BBDO to perform oversight of Consumer Actions media campaign
                            but BBDO did not separately bill for this function; and (4) the Secretarys Office
                            required Consumer Action to develop fair housing storyboards before the grant
                            was signed. Our review determined that the focus and scope of the $2 million FHIP
                            project were significantly changed after Consumer Action had been selected to
                            receive the award. This condition occurred because the Secretarys Office used
                            undue influence over FHEO grant officials.
                                 We recommended that the Secretary review these matters and make a
                            determination for addressing the improprieties identified in the report. Impropri-
                            eties include changing project scope after selecting recipients, circumventing the
                         Government Technical Representatives (GTR) authority, directing unauthorized
                         contracting actions, and causing recipients to incur pre-award project costs and
                         other excess costs. We also recommended that the Secretary implement a correc-
                         tive action plan for preventing these improprieties from recurring. (Report No.
                         2001-AO-0801)

Grant Administration   Following allegations disclosed during our review in Washington, DC, of the
 Process Weaknesses Use of Fair Housing Initiatives Program Fund, the OIG reviewed FHIP Grant
                         Administration Process Weaknesses. Although we attributed the root cause of the
                         allegations to the undue influence of the former Secretarys Chief of Staff and a
                         Senior Advisor (see Report No. 2001-AO-0801 above), we also found deficiencies
                         in the way FHEO officials administered the award to Consumer Action of San
                         Francisco. Specifically, FHEOs cooperative agreement with Consumer Action did
                         not disclose HUDs substantial involvement in the FHIP project activities. In
                         addition, FHEO did not timely negotiate its FY 1998 FHIP National Education and
                         Outreach Project with Consumer Action. We believe these conditions occurred
                         because the grant officer did not amend the agreement as directed in the policy
                         governing cooperative agreements. Also, the grant officer did not coordinate with
                         the GTR during the negotiation process, nor had FHEO developed and implemented
                         timeframes for completing negotiations.
                              We recommended that the Assistant Secretary for Fair Housing and Equal
                         Opportunity ensure that HUDs level of involvement is clearly defined in all
                         cooperative agreements; ensure that the grant officer enforces his/her oversight
                         and monitoring responsibilities when administering cooperative agreements;
                         establish realistic timeframes for completing the negotiation process; and ensure
                         that the GTR and grant officer coordinate their reviews of the statement of work
                         during the negotiation process. (Report No. 2001-AO-0802)
Chapter 4
            Investigations
                       In addition to Housing Fraud Initiative responsibilities, the Office of Investiga-
                  tion investigates all types of potential wrongdoing in HUDs programs and activi-
                  ties. This Chapter presents results from: (1) white collar investigations relating to
                  HUDs Multifamily, Public and Indian Housing, Single Family, and Community
                  Planning and Development Programs; (2) other significant white collar investiga-
                  tions; and (3) investigations relating to violent crime and drug trafficking in HUDs
                  Public and Assisted Housing Programs.


              Multifamily Housing Programs
                      In addition to multifamily housing developments with HUD held or HUD
                  insured mortgages, the Department owns multifamily projects acquired through
                  defaulted mortgages, subsidizes rents for low-income households, finances the
                  construction or rehabilitation of rental housing, and provides support services for
                  the elderly and handicapped. During this reporting period, OIG investigations
                  disclosed criminal equity skimming under Operation Safe Home, as well as an
                  insurance kickback scheme and a case involving conspiracy to commit program
                  fraud and money laundering.

Equity Skimming        Equity skimming is the willful misuse of any part of the rents, assets, pro-
                  ceeds, income or other funds derived from a multifamily project covered by an
                  FHA insured or held mortgage. The use of project assets or income for other than
                  reasonable operating expenses and necessary repairs, or for the payment of
                  unauthorized distributions to the owner, constitutes a violation of the Regulatory
                  Agreement between the owner and HUD and plays a significant part in the realiza-
                  tion of losses to the FHA insurance fund. Equity skimming deprives projects of
                  needed funds for repairs and maintenance. This, in turn, contributes to the finan-
                  cial and physical deterioration of projects and the resultant substandard living
                  conditions for the families who depend on the Federal Government to provide
                  housing. The following reflects equity skimming activity during this reporting
                  period:

                      Ellard Robert Silva, Jr., management agent of the Villa San Carlos Garden
                  Apartments, a HUD insured multifamily housing complex in San Jose, CA, was
                  sentenced to 3 years probation and 6 months house arrest and ordered to pay
                  $27,114 in restitution. A civil judgment in the additional amount of $31,003 was
                  also filed against Silva in Federal District Court. Silva converted approximately
                  $57,000 in project funds to his own use and/or to the use of family members or
                  friends. This investigation was conducted by the OIG Offices of Investigation and
                  Audit.

                      Charles H. Harvey, general partner of Woodbrook Associates in Indianapolis,
                  IN, was debarred from transactions with HUD for a period of 3 years by HUDs
                  Enforcement Center. The debarment is based on a civil judgment obtained against
                  Harvey in U.S. District Court for violation of the HUD Regulatory Agreement in
                  connection with the administration of Woodbrook Apartments. An OIG investiga-
                  tion disclosed that Harvey improperly used FHA insured project funds for pay-
                  ments to related parties, bankruptcy related expenses of the partnership, partner-
                    ship secretarial services, and partner travel expenses. Harvey was previously
                    ordered to pay $219,442 to the government.

                        The U.S. Attorneys Office for the Southern District of Indiana negotiated a
                    payment of $85,000 to the Department of Justice on HUDs behalf to settle a civil
                    claim against Franklin Park Apartments, a HUD insured multifamily complex in
                    West Lafayette, IN. An OIG investigation disclosed unauthorized payments to the
                    project partners as well as unauthorized payments of non-project expenses totaling
                    approximately $68,000.

Other Significant        Two corporations pled guilty to charges involving an insurance fee kickback
                    scheme related to low-income housing projects located throughout the country.
Investigations      Management Assistance Group, Inc. (MAGI), headquartered in Los Angeles, CA,
                    was owned and controlled by two individual partners, Deane Earl Ross and A.
                    Bruce Rozet. MAGI wholly owned a subsidiary corporation, Associated Financial
                    Corporation, Inc. (AFC), a Delaware corporation. PL Acquisition, Inc. (PL), a
                    California corporation, was owned by Lawrence F. Penn and headquartered in
                    Los Angeles. PL worked closely with and acted as agent for MAGI and AFC. PL,
                    MAGI and AFC were headquartered in the same suite of offices. Prior to forming
                    PL, Lawrence F. Penn was the executive vice president, treasurer and chief
                    financial officer of AFC.
                         MAGI controls various partnerships that, in turn, own, operate and control
                    approximately 160 HUD subsidized multifamily housing projects located through-
                    out the United States. MAGI pled guilty to aiding and abetting its agents in embez-
                    zling, stealing, obtaining by fraud and otherwise without authority, knowingly
                    converting to the use of another and intentionally misapplying approximately $3.4
                    million in insurance fees collected under a master policy from HUD projects
                    controlled by MAGI and its affiliates.
                         PL pled guilty to knowingly and willfully soliciting and accepting approxi-
                    mately $3.4 million in kickbacks from insurance brokers in connection with the
                    provision of insurance for various housing projects insured and subsidized by HUD.
                    PL, with the knowledge of defendant MAGI, directed insurance brokers to include
                    added fees in the insurance bills sent to hundreds of HUD subsidized projects.
                    These added fees were not separately billed but were instead included as part of
                    the insurance premiums. The mortgagees and HUD did not know about these
                    added fees.
                         MAGI and PL were ordered to pay a criminal fine of $1 million each and civil
                    penalties, damages, and restitution to the United States totaling $8.125 million in
                    accordance with a separate civil consent judgment. The civil consent judgment
                    was a result of the global settlement agreed to by the United States and MAGI, PL,
                    and affiliates. On May 8, 1997, a civil complaint was filed against A. Bruce
                    Rozet and his affiliates alleging that owners and general partners of HUD assisted
                    or financed properties solicited and received monetary kickbacks from certain
                    management companies in exchange for securing property management contracts
                    with the project owners. Specifically, the project owners granted the management
                    companies the exclusive right to manage certain HUD projects in exchange for
                    receiving 33-1/3 percent of all monthly management fees earned by management
                    companies under the contract. The kickbacks paid to the project owners out of
                    management fees received from HUD constituted illegal distributions in violation
                    of the project owners obligations under their Regulatory Agreements with HUD.
    On March 2, 1998, the civil complaint was amended to add counts for false
claims, equity skimming, and kickbacks involving insurance for the projects
controlled by AFC or Penn. All Defendants denied the allegations in the civil
complaint and the amended civil complaint, and the consent judgment is not an
admission of liability or wrongdoing.
    Both companies will be placed on probation for 3 years. HUD, HUD OIG, and
the U.S. Probation Office will oversee certain aspects of the corporations
functioning as specified in the plea agreement. Additionally, Ross, Rozet, and
Penn individually, and on behalf of their respective companies, entered into an
agreement with HUD in which they have 3 years to give up all of their general
partnership and any other controlling interests they may have in any HUD insured
or subsidized housing program. PL was suspended by HUD; this suspension will
remain in force for 3 more years. AFC and its affiliates (including A. Bruce Rozet
and Dean Earl Ross) agreed there would be no new business with HUD for a
period of 10 years.
    This case marks the first time criminal activities were prosecuted identifying
HUD Multifamily Regulatory Agreements and Housing Assistance Payments
Contracts as prime contracts as defined in Title 41, United States Code,
Section 58. The pleas and sentencings capped a 5-year investigation by the OIG,
the FBI, HUDs Enforcement Center, the Commercial Litigation Branch of the
Civil Division of the Department of Justice in Washington, DC, and the Criminal
and Civil Divisions of the U.S. Attorneys Office in San Francisco, CA.

     In Norfolk, VA, former property manager LuAnne Wade was sentenced to 24
months incarceration and 36 months supervised release. Her husband, Jerry, was
sentenced to 41 months incarceration and 36 months supervised release. They
were also ordered to pay a total of $541,755 in restitution to HUD. LuAnne Wade
pled guilty in December 2000 to one count of conspiracy to commit program
fraud, while her husband pled guilty in January 2001 to one count of conspiracy to
commit money laundering. LuAnne Wade formerly managed the Stuart Gardens
Apartments, a 489-unit subsidized development. In 1994, she and her husband
initiated a fraudulent scheme to divert federal funds by creating false invoices and
purchase orders for plumbing contract work purportedly performed at Stuart
Gardens. LuAnne Wade then issued monthly checks ranging from $2,000 to
$10,000 as payment for the bogus plumbing work, enlisting the help of several of
her acquaintances to cash the bogus checks for which they received payment. This
was a joint investigation by OIG and the FBI.

    In Portland, OR, Kailia Durham, a former Housing Our Family financial
manager, was sentenced to 36 months incarceration and 3 years supervised
probation, and was ordered to pay $23,363 in restitution and a $100 special
assessment fee. Durham embezzled from accounts that included HUD funds.
Housing Our Family is a nonprofit entity that received HUD funding under several
programs, including the Multifamily Preservation and Drug Elimination Pro-
grams. Durham previously pled guilty to 2 counts of embezzlement, and is
currently serving a 15-month sentence for embezzlement from a local public
radio station. She will be given credit for state time served; federal time is to be
served concurrently. This was a joint OIG/FBI investigation.
            Public and Indian Housing Programs
                     There are approximately 3,300 public housing agencies (PHAs) which are
                 established by local government pursuant to state enabling legislation, and which
                 receive financial assistance from HUD. HUD provides both project-based and
                 tenant-based housing assistance to PHAs, in addition to homeownership and other
                 grant assistance. HUD also provides assistance directly to PHAs resident organi-
                 zations to encourage increased resident management of public housing develop-
                 ments and to promote the formation and development of resident management
                 entities and resident skills. Programs administered by PHAs are designed to
                 enable low-income families, the elderly, and persons with disabilities to obtain
                 and reside in housing that is safe, decent, sanitary and in good repair.
                     During this reporting period, under Operation Safe Home, the OIG discovered
                 instances of fraud, embezzlement, false statements, conspiracy, theft, extortion
                 and bribery involving Public and Indian Housing Programs.

Fraud in              Three individuals were sentenced in Federal District Court for their roles in a
                 scheme to solicit and take bribes in exchange for Section 8 certificates and public
Public Housing   housing units administered by the San Francisco, CA Housing Authority (SFHA).
Administration   Patricia Williams, the former SFHA manager of relocation and support services,
                 who was convicted of 30 felony counts of conspiracy, bribery, and false statements
                 in September 2000, was sentenced to 63 months incarceration, 3 years supervised
                 release, $503,721 in restitution, and a $3,000 special assessment. Yolanda Jones,
                 another SFHA employee who became a government witness, was sentenced to 18
                 months in federal detention, 3 years supervised release, restitution of $485,825,
                 and a $1,000 special assessment. Ena Coleman, a former SFHA public housing
                 resident who pled guilty to charges including bribery of SFHA staff, was sentenced
                 to 12 months and 1 day in federal detention, 3 years supervised release, $38,519
                 in restitution, and a $400 special assessment. The sentencing Judge likened the
                 sale of Section 8 vouchers and public housing units by SFHA staff to the type of
                 corruption typically associated with third world countries. To date, 22 individuals
                 have pled guilty and/or have been convicted as a result of this joint investigation
                 into public corruption at the SFHA conducted by the FBI and OIG Offices of Audit
                 and Investigation.

                     Hazel Ann Mike, former executive director of the Moapa, NV Indian Hous-
                 ing Authority, was sentenced to 10 months incarceration and 3 years supervised
                 release, and was ordered to pay $37,268 in restitution to the Authority and a $200
                 special assessment. Mike previously pled guilty to two counts of embezzling
                 money from the Housing Authority. She had been charged in a 75-count indict-
                 ment with embezzling money from the Authority between May 1995 and March
                 1997. Mike, who had worked for the Authority since 1980, assumed the position
                 of executive director in 1986. She embezzled the money by processing additional
                 payroll checks for herself. This was an OIG investigation.

                    In Houston, TX, Glenda Harrington, former executive director of the Tenaha
                 Housing Authority, was sentenced after pleading guilty to one count of theft or
bribery involving a government program. An OIG investigation disclosed that
Harrington embezzled $23,000 in cash from tenant receipts that were never
deposited in the proper account. She was sentenced to 3 years supervised release,
which is below the sentencing guidelines, based on the extraordinary circum-
stances that she repaid $18,000 at the time of sentencing.

    Sheila Addison, a former housing specialist at the City of Fairfield, CA
Housing Authority, was sentenced in Solano County Superior Court for embez-
zling $12,704. Addison charged tenants of the housing authority additional rents
that she then kept for herself. She was sentenced to 90 days incarceration, 3 years
probation, and fined $450. Addison had already repaid the embezzled funds. The
investigation was conducted by the Fairfield Police Department with assistance
from the OIG.

     Phyllis Richardson, the former executive director of the Sanford, FL Housing
Authority, was sentenced to 4 months home confinement and 2 years probation,
and was ordered to pay $4,500 in restitution to the Housing Authority and a $100
special assessment. Richardson previously pled guilty to submitting false docu-
ments to the Authority in order to cover up the bargain sale of a Ford Explorer
that the Authority sold to Richardsons son. An OIG investigation disclosed that
Richardson purchased a Ford Explorer from an Orlando, Florida dealership to be
used for Housing Authority business. A few months after the purchase,
Richardson, on behalf of the Housing Authority, sold the vehicle to her son at a
price estimated to be at least $4,500 below fair market value. To disguise the sale,
Richardson had a friend who worked at a car dealership prepare and submit to
the Authority false documents which made it appear that Richardson had traded
the Explorer as an even trade for a Dodge passenger van.

     In Kennett, MO, Laverne Moore was sentenced to 4 months imprisonment, 4
months home confinement, and 3 years probation, and was ordered to pay $2,589
in restitution to HUD and $12,580 to Section 8 residents. Moore, the site manager
at Kennett Apartments, overcharged Section 8 residents for their portion of the
rent and kept the money for her personal use. She also falsified documents under
a nominee name to make herself eligible for Section 8 rent subsidy. Moore was
charged with and pled guilty to submitting false statements. This was an OIG
investigation.

    James S. Williams, the former maintenance supervisor for the Housing
Authority of Homer, LA, was sentenced for theft or bribery concerning programs
receiving federal funds. Williams received 4 months incarceration and 3 years
supervised release, and was ordered to pay $14,158 in restitution. Kerry L. Sims,
former executive director of the Housing Authority of the Town of Homer, pled
guilty to one count of theft or bribery concerning programs receiving federal
funds. The pleas resulted from a joint investigation by OIG and the FBI which
disclosed that Sims diverted $86,488 in Authority funds and that Williams re-
ceived $14,158 in Housing Authority funds for work that was not completed.
Williams returned a portion of each check to Sims.
    Patricia Goodhue, former property manager of the Asheville, NC Housing
Authority, pled guilty to 4 counts of embezzlement and was sentenced to 8 months
in prison and 3 years probation, and was ordered to pay $11,784 in restitution.
Goodhue used Asheville Housing Authority petty cash and accounts to pay for
personal expenses. She admitted that she conducted this fraudulent activity for
approximately 2 years. This case was investigated by the Asheville Police Depart-
ment and OIG.

    Linda George, former executive director of the Housing Authority of the Town
of Hanna, WY, was served with a state criminal complaint and arrested for
felony larceny in connection with the embezzlement of funds from the Authority.
Specifically, she embezzled funds from the Comprehensive Improvement Assis-
tance Program and the general operations account for salary advances and
personal loans. Following a plea agreement, George was sentenced to 3 years
supervised probation and ordered to pay restitution of $3,228 to the Authority.

    In McRae, GA, Mark Joiner, the former regional administrator of the
Georgia Housing and Finance Authority, and Craig Selph, a Section 8 landlord,
pled guilty to defrauding HUD. A federal grand jury returned a 29-count indict-
ment against Joiner and Selph in December 2000. The indictment charged the two
with conspiracy, mail fraud, false statements, HUD fraud, and submitting false
claims to HUD. The indictment alleged that Joiner knowingly approved false
Section 8 applications submitted by Selph. The Section 8 applications reflected a
tenant rent burden preference, which was then approved by Joiner. Selph
received $425,000 in Section 8 benefits as a result of the scheme. The investiga-
tion was conducted by the FBI and OIG.

    Freddy Valentin, a former Senator for the Commonwealth of Puerto Rico,
pled guilty to conspiracy to commit extortion and money laundering. The charges
resulted from Valentins accepting kickbacks in exchange for using his political
influence to resolve difficulties that had arisen in contracts with the Office of the
Liquidation of Assets of the Puerto Rico Urban Renewal (OLAPRUR) and the
Puerto Rico Ports Authority (PRPA). Valentin was previously indicted on 44 counts
of soliciting $96,000 from contractors Jose Luis Diaz and Juan E. Mayol Alicea.
Diaz and Mayol paid the Senator over $20,000 in kickbacks for the Senators
promise to resolve difficulties with the contractors efforts to purchase the
Extension Los Robles property for the OLAPRUR and over $75,000 in exchange for
the Senators promise to resolve difficulties with the contractors efforts at the
Tropical Acres project, located near the Ramey Air Force Base in Aguadilla, to
remodel and sell low-income housing units. Diaz and Mayol pled guilty to con-
spiracy to commit extortion. This investigation was conducted by the FBI and the
OIG Offices of Investigation and Audit.

     In a separate case, three former employees of the Department of Liquidation
for CRUV (OLACRUV), the predecessor of the Puerto Rico Public Housing Author-
ity, have been indicted along with two contractors. The OLACRUV employees used
their influence to award contracts for the renovation and construction of housing
units at the PRPHA. This investigation was conducted by the FBI and the OIG
Offices of Investigation and Audit.
    Jeffrey A. Brickett, former executive director of the Williamson, WV
Housing Authority, pled guilty to obstruction of a federal audit as the result of an
18-month investigation into allegations that he converted Public Housing Drug
Elimination Program grant funds to personal use. Brickett furnished false invoices
and health club client lists to auditors conducting a review of the Authoritys FY
1999 operations in an effort to cover up his improper authorization of payments to
the health club from Authority funds. Brickett was the owner of a health and
fitness club where from January 1998 to March 1999, he, through the health club,
fraudulently billed the Authority for $25,699 in membership dues. These dues
were allegedly for 160 Authority residents. The investigation disclosed that the
health club was having financial difficulty and the fraudulent membership fees
guaranteed that the health club could stay in business. The Authoritys board of
commissioners had not approved any tenant memberships. This was a joint OIG
and FBI investigation.

     Audley Evans, the former executive director of the Tampa, FL Housing
Authority, was convicted of conspiracy, bribery, accepting gratuities, and false
statements. Evans convictions included making false statements to HUD concern-
ing the housing quality standards of Authority developments. Clyde Chapman, a
contractor doing business with the Authority, was convicted of making gratuities.
A jury found Chapman guilty of paying Evans $175,000 in gratuities pertaining to
$20.6 million in contracts with the Authority. One other contractor and the former
Authority deputy director previously pled guilty to counts of bribery and false
statements and to counts of false statements and misprision of a felony, respec-
tively. In addition, Evans, Chapman, and a physician/officer in a company previ-
ously receiving Authority work received suspensions from future participation in
procurement and non-procurement transactions as participants, principals, or
contractors with HUD and throughout the Executive Branch of the Federal Govern-
ment. The suspensions also included three related companies. The investigation of
Chapman was conducted by the OIG Offices of Investigation and Audit. The
investigation of Evans was conducted by the OIG Offices of Investigation and
Audit, the FBI, and the IRS.

     James W. Graydon, a former maintenance supervisor for the Village of
Hempstead, NY Housing Authority, was found guilty of conspiring with James
McKay, the former director of public relations for the Nassau County Economic
Opportunity Commission, to use Graydons position to extort over $27,000 in cash
kickbacks from a local contractor who performed maintenance and repair work
at the Authority. McKay has already pled guilty and is awaiting sentencing.
Graydon was also found guilty of 2 counts of extortion and 2 counts of bribery in
connection with his demands for cash kickbacks totaling over $36,000 from 2other
contractors hired by him to provide maintenance and repair services at the
Authority. In addition, Graydon was found guilty of three counts of filing false tax
returns. This investigation was conducted by the FBI, IRS and OIG.

    The former chief executive director (ED) of the Cuyahoga Metropolitan
Housing Authority in Cleveland, OH, and the former chief operating officer were
indicted on one count of conspiracy, one count of theft of public funds, and one
count of false statements to influence a federally insured bank. In addition, the
former chief ED was charged with one count of mail fraud, while the former chief
operating officer was charged with one additional count of theft of public funds.
The indictment alleges that the two conspired and later individually committed
acts which allowed them to fraudulently utilize Authority funds for personal use,
including paying off the EDs rental property in Virginia and/or depositing Author-
ity funds directly into the chief operating officers personal bank account. Be-
tween the 2 individuals, more than $350,000 was alleged to have been misappro-
priated from the Authority. This investigation was conducted by the FBI and OIG.

     The former executive director (ED) of the Tuskeegee, AL Housing Authority
was indicted by a federal grand jury on eight counts of embezzlement and one
count of money laundering. The ED allegedly embezzled over $349,000 in Author-
ity funds for his personal use. The ED was also charged in a money laundering
scheme involving $181,427 of the $349,000 he allegedly embezzled. This was an
OIG investigation.


    A former accounting clerk for the Housing Authority of the City of
Texarkana, TX, and her spouse were indicted on 13 counts of embezzlement,
conspiracy, unlawful use of means of identification of another person, and false
use of a Social Security number. The indictments resulted from an OIG investiga-
tion which determined that the former accounting clerk stole six checks from the
Authority, and the spouse used a false State of Arkansas identification card to
cash the checks. Four of the checks were cashed for a loss to the Authority of
$3,521. The individuals attempted to cash a fifth check for $887, but the check
was confiscated when the manager of the check cashing outlet attempted to verify
the check. A stop payment was placed on the final check by the Authority. Arrest
warrants were issued for both individuals.

    In Anchorage, AK, a former president and a former treasurer of the Stony
River Alaska Traditional Council were indicted on one count each of bank fraud.
The indictments were the result of a joint investigation by the FBI and OIG which
disclosed that the 2 officers allegedly removed $24,000 of Stony River housing
project funds from the bank and used the funds to their own benefit.

    A former member of the McCracken School Board in Paducah, KY, was
indicted by a state grand jury for failing to report income derived from her
employment as a school teacher on her public housing tenant certification forms.
This was an OIG investigation.

    OIG and FBI Agents arrested the former director of finance for the
Wilmington, DE Housing Authority and three other individuals. All 4 were
charged with embezzlement and conspiracy and face up to 15 years imprisonment
and $250,000 in fines. Over a period of 3 months, the former director allegedly
carried out a fraud scheme that included the creation of false vendors and con-
tracts in the names of his co-conspirators. The fictitious vendors provided no work
or services for the Authority. The former director approved and issued 6 checks
for payments totaling $53,905. These payments were made to his co-conspirators
who, in turn, laundered the funds through various local bank accounts. The funds
were then converted to personal use. The former director also processed all of the
                 check documentation to avoid detection. The arrests, which resulted from an 18-
                 month joint investigation by the FBI and the OIG Offices of Audit and Investigation,
                 received extensive media coverage.

                      An ex-prison guard and his three co-conspirators were arrested by OIG
                 Agents, Delaware County Criminal Investigation Division Detectives, and
                 Chester, PA Housing Authority Police Officers for operating a fraudulent check
                 cashing scheme that siphoned at least $12,200 from the Chester Housing Author-
                 ity over a 5-month period. The ex-guard and his co-defendants were charged with
                 multiple violations of Pennsylvania State criminal conspiracy, theft, and forgery
                 laws. An investigation disclosed that the former guard, who previously resided in
                 public housing, supplied his co-conspirators with numerous fraudulent Housing
                 Authority checks as well as checks drawn on the accounts of other local compa-
                 nies that he allegedly created by using a computer. The checks were made
                 payable to the various co-conspirators who negotiated them and shared the pro-
                 ceeds.

                     Tina Jones, an employee of the Helena, AR Housing Authority, was arrested
                 on state charges of theft of property. The arrest and charges are the result of an
                 OIG audit and investigation which disclosed that $42,310 was missing from the
                 Authoritys rent rolls. Jones admitted taking rent monies from residents and
                 providing handwritten instead of computer generated receipts. She also admitted
                 posting credit memos in computer records to offset rental amounts which would
                 zero out the balances due.

Other                 In Pittsburgh, PA, former Section 8 recipient Joyce Emerick and her ex-
                 husband, Robert Emerick, were sentenced for their conviction on mail and wire
Investigations   fraud charges associated with defrauding HUD and the Social Security Adminis-
                 tration. Joyce Emerick received both Section 8 and Social Security disability
                 benefits for 14 years, during which time she failed to declare her ownership of a
                 Florida vacation home and other assets and income, including eight automobiles.
                 She also failed to disclose that Robert Emerick lived with her at her Section 8
                 residence during the entire 14-year period. In addition to court ordered restitution
                 of over $81,000 to HUD and the Social Security Administration, Joyce Emerick
                 was sentenced to 6 months home detention and 5 years of probation, while Robert
                 Emerick was sentenced to 5 months in jail, 5 months home detention with elec-
                 tronic monitoring, and 3 years probation. This was a joint investigation by the HUD
                 and Social Security Administration OIGs.

                      Gerri Gordon, a former Section 8 housing assistance recipient with the
                 Housing Authority of the City of Los Angeles, CA, was sentenced to 4 months in
                 jail and 3 years probation, and was ordered to pay $32,793 in restitution to the
                 Authority. Gordon collected Section 8 subsidies from July 1986 through July 1995
                 while claiming to be a resident of a property that she actually owned but rented
                 out to another tenant. She also failed to disclose to the Authority that she owned a
                 construction company and a consulting firm. This was an OIG investigation.

                      Edward J. Kravitz, the former controller for a major plumbing and heating
                 contractor to the Chester Housing Authority in Philadelphia, PA, was sentenced
                 to 6 months confinement and 4-1/2 years probation, and ordered to pay $25,000 in
restitution to an insurance company. No additional restitution was ordered due to
the defendants financial inability to pay more. The sentencing stemmed from
Kravitzs role in a conspiracy to defraud the insurance company retained to
provide performance and payment bonds for mechanical work awarded to the
contractor. Kravitz was involved in an 11-month bond conversion conspiracy with
the contractor president. They conspired to falsely inflate the contractors payroll
reports, thus enabling them to receive about $85,000 in excess payments. The
insurance company, through its authorized representative, attempted to monitor
the contractors payroll and related expenditures by establishing a joint trust
account. However, both contractor payment submissions and insurance company
capital were deposited into the same account, thereby causing the insurance
company to release more money to the contractor than he was entitled to. Kravitz
is the fourth and final defendant to be sentenced as a result of this investigation by
the OIG Offices of Audit and Investigation and the Department of Labor OIG.

    In Baltimore, MD, Dona Lee Rawlings-Varner, a former Section 8 resident
who falsified her annual recertifications by failing to report her employment and
earned income as a bus driver, was sentenced to 3 years in prison, suspended,
and 5 years supervised probation, and ordered to make full restitution totaling
$19,548 to the local housing authority. Rawlings-Varner had concealed her em-
ployment from housing authority officials since August 1995 by using her married
name of Varner. This was an OIG investigation.

    Jennifer Elizabeth Baker of Cumberland, MD, was sentenced to 90 days
incarceration with 45 days was suspended. Baker pled guilty to defrauding the
Housing Authority of the City of Frostburg, MD, by failing to report her mar-
riage and additional income while she was receiving Section 8 rent subsidies. She
was ordered to pay $12,100 in restitution to the Authority. This investigation was
conducted by OIG and the Maryland State Police.

    Betty J. Suggs, also known as Betty Heeraman, a former Postal Service
employee in Uniondale, NY, was sentenced for fraudulently obtaining $26,663 in
Section 8 benefits. Suggs devised a scheme to defraud the government by conceal-
ing her income and employment with the U.S. Postal Service by utilizing an
invalid Social Security number to apply for Section 8 rental assistance. A joint
investigation conducted by the HUD Fraud Task Force determined that several
individuals were also using bogus Social Security numbers at the Ocean View I
and II FHA insured multifamily housing developments. As a result of this scam,
over $352,000 in HUD Section 8 rental subsidy payments were obtained fraudu-
lently over a 5-year period. Suggs was sentenced to 3 years probation and ordered
to pay $10,000 in restitution to HUD and a $100 special assessment. All of the
suspects in this investigation have either been convicted or have pled guilty. Two of
the defendants have been deported by INS to Chile. Suggs was the last defendant to
be sentenced in this HUD Fraud Task Force case.
    The New York District Offices HUD Fraud Task Force, created in January
1993 and disbanded in 1997, was responsible for the arrest, indictment and
conviction of 68 individuals, 37 debarments imposed by HUD, and over $1.3
million in court ordered restitution, asset forfeitures, fines, and Program Fraud
Civil Remedies Act penalties.
    Mary Kingan, the former manager of Acadian Manor Apartments in
Lafayette, LA, and Harold Troy Abshire and Judy Pitre, two residents, pled guilty
and were sentenced for submitting false statements. Kingan received 2 years
supervised probation and was ordered to pay 2 concurrent $500 fines and a $50
special assessment fee. Abshire and Pitre were each sentenced to 2 years super-
vised release and ordered to pay a $500 fine and a $25 special assessment fee.
Randy Meaux, the former maintenance supervisor and a Section 8 resident of
Acadian Manor, pled guilty and was sentenced for false statement violations.
Meaux was ordered to serve 2 years supervised release, fined $500, and ordered
to pay a $25 special assessment.
    These sentencings were the result of a joint investigation by the OIG and the
FBI which found that by providing false information, the individuals were able to
receive excess Section 8 benefits for which they were ineligible. The loss to the
government was $36,104, which the judge determined was a financial gain real-
ized by the owner.

    Colby Leila St. Claire of Hilo, HI, pled guilty to theft for her role in a
scheme to defraud the Hawaii County Office of Housing and Community Develop-
ment (OHCD) of Section 8 rental assistance funds. St. Claire presented herself as
a management agent for a property to which she had no legal connection and
collected rental assistance on behalf of the propertys tenant, Gwen Perreira, who
was in on the scheme. St. Claire was sentenced to 200 hours of community
service and ordered to pay $8,352 in restitution to the OHCD.
    Perreira, the former Section 8 rental assistance recipient, pled guilty to
felony theft of Section 8 benefits that she fraudulently received between 1997 and
1998 from the Hawaii OHCD. Perreira devised a scheme to receive benefits
although she resided rent-free in a property for which rental assistance was paid.
Perreira, in turn, split the Section 8 funds with St. Claire who received the HUD
assistance checks without the knowledge of the legitimate owner of the property in
which Perreira was living. Perreira was sentenced to 30 days incarceration, 5
years probation, and 500 hours of community service, fined $100, and ordered to
pay $8,352 in restitution to the OHCD, which administers the Section 8 Program
on behalf of HUD. The investigation was conducted by OIG and the Hawaii County
Police Department.

     At the request of the OIG, Walter J. Turnbull, president of the Boys Choir of
Harlem in New York, NY, was sentenced to an additional 18 months of probation
in order to ensure that he makes full restitution to the Department. From 1984
through 1994, Turnbull concealed his true annual income of over $103,000 from
HUD and the IRS, falsified his tax returns, avoided paying $87,800 in taxes, failed to
report his receipt of a $225,000 cash award in 1996, and submitted false certifica-
tions in order to obtain over $21,841 in Section 8 rent subsidies. He also engaged
in a double-dipping paycheck scheme at the Boys Choir of Harlem and submitted a
fraudulent non-insured mortgage loan application to Citibank in 1991. Turnbull
was originally sentenced to 1 year probation and ordered to make full restitution
to HUD. However, since the defendant failed to make any restitution payments
from the time of his original sentencing in November 1999 until his first payment
in October 2000, OIG requested, through the U.S. Probation Department, that his
probation be extended. Turnbull has also been issued a notice of debarment by
HUDs Enforcement Center.
     In Sacramento, CA, Melissa Rae Perry, a former Section 8 rental assistance
recipient, pled guilty to one count of making false statements to obtain housing
assistance. Between 1996 and 1998, Perry, who worked as a flight attendant,
falsified her annual income verification forms and forged the signatures of her
supervisors in order to continue receiving HUD rental assistance. She received
$8,142 in assistance to which she was not entitled. Sentencing is scheduled for
May 31, 2001. This was an OIG investigation.

    Section 8 resident Irene Clark pled guilty to 1 count of welfare fraud and was
sentenced to 2 years incarceration and restitution of $20,052. Clark was previ-
ously indicted for failing to report 9 years of income to the Porter County, IN
Housing Authority. This was an OIG investigation.

     EUA/FRC II Energy Associates of Boston, MA, was ordered to pay a $259,132
fine, $172,755 in restitution, and a $400 assessment. An investigation conducted
by the FBI and the HUD and Department of Health and Human Services OIGs
disclosed that the defendant charged several different properties excessive utility
costs between January 1994 and September 1995. Seven of these properties
received HUD subsidies. As a result, the Federal Government subsidized or paid
for inflated utility expenses. Restitution amounts for the 7 properties that received
HUD subsidies were $92,341. A criminal indictment had been filed against EUA in
September 2000 charging EUA with one count of mail fraud.

    A negotiated settlement was reached between the Frederick, MD Housing
Authority, James A. Huffman, and his mother, Mildred Huffman-Bytheway.
Huffman and Bytheway previously obtained $16,083 in rental assistance from the
Authority by falsifying their landlord-tenant agreement and their personal declara-
tions. James Huffman submitted documentation to the Authority showing that he
was renting the property from his mother when in fact he was the owner of the
property. Huffman and Bytheway agreed to reimburse the Authority $16,083 and
have the Authority place a lien on the Huffman home. This investigation was
conducted by OIG and the Frederick County State Attorneys Office.

     Two Section 8 residents, Catherine Dorsey and Monica Dorsey, living in the
Pitch Apartments in Washington, DC, were ordered to pay $8,548 and $2,170 in
restitution to HUD, respectively. Both had understated their annual family incomes
since 1995. The OIG conducted this investigation.

    Catherine Stephens, also known as Catherine Felder, a Section 8 resident in
Oakland, CA, was convicted on six counts of making false statements and one
count of theft of government funds. The conviction was the culmination of a 13-
month joint investigation by the HUD and Social Security Administration (SSA)
OIGs. The investigation disclosed that between 1992 and 1999, Stephens failed to
disclose to HUD and SSA income and assets derived from a dental business that
she owned and operated. As a result of her nondisclosure, Stephens received
more than $67,000 in Section 8 housing subsidy and $50,000 in SSA disability
income to which she was not entitled. While receiving HUD and SSA benefits, she
was able to amass a fleet of 5 vehicles, a 28-foot watercraft, and a house on a 3-1/
2 acre lot in Lower Lake, CA. Stephens had also rented six residential and
commercial properties at fair market rents for her businesses and as secondary
residences for her and her two sons.

    In Everett, WA, as a result of an investigation by the SnoFraud Multi-Agency
Task Force, a husband and wife were indicted for theft for their fraudulent appli-
cation and receipt of HUD funded housing assistance. The husband was arrested a
second time after he failed to appear for arraignment when he fled the State. The
Task Force was created to focus on widespread mail, housing, food stamp, social
security, and welfare fraud. The Task Force includes the HUD, Social Security
Administration, and Department of Agriculture OIGs, FBI, INS, Postal Inspection
Service, and the Washington Department of Health and Human Services.

    In a separate case, Patricia Raynes, the former resident manager of the
Everett, WA Country Club Apartments, a Section 8 apartment complex, pled
guilty to theft of government property. From December 1998 to June 1999, Raynes
embezzled over $13,000 of tenant rent receipts and utility subsidy payments. This
was an OIG investigation.

    John Igein, the owner/operator of P&C Printing and Convenience Center and
Power Electronics in Newark, NJ, pled guilty to one count each of mail fraud,
wire fraud, producing false identity documents, and conspiracy to commit mail/
wire fraud and produce false identity documents. Igein, who owned a storefront
business specializing in producing false documents for almost every type of
fraudulent activity, was the main suspect in a 4-year investigation conducted by
members of the West African Task Force (WATF). Specifically, he forged docu-
ments for an FHA loan and helped 26 Nigerians forge documents and verifications
of employment to obtain Section 8 assistance. WATF began looking into Igeins
activities after receiving information that he was providing fraudulent employment
information to West African residents of the Garden Spires apartment complex in
order to help them obtain Section 8 rental subsidies to which they were not
entitled. Igein also obtained an FHA loan by using fraudulent information.
    The WATF is a multi-agency entity made up of the OIG, FBI, IRS Criminal
Investigation Division, INS, U.S. Attorneys Office, Postal Inspection Service, and
the Secret Service, tasked by the Department of the Treasury to investigate
instances of widespread fraud.

    In Queens, NY, a mechanical engineer employed at John F. Kennedy Interna-
tional Airport was arrested by HUD and Social Security Administration (SSA) OIG
Special Agents at his place of employment and charged with theft of government
funds. While employed from 1992 through 1999 at one company, the engineer
concealed his income and employment from SSA by utilizing a Social Security
number issued to him under his Greek name. He collected SSA disability pay-
ments under his American name and a different Social Security number. He
resided in a HUD assisted housing development, concealing his income and
employment from the management agent and HUD from 1994 through 1999 by
using one of the Social Security numbers and his Greek name. The individual,
who actually earns over $50,000 per year, obtained a total of $69,397 in SSA
disability payments and $45,375 in HUD Section 8 rent subsidy payments by not
only using false Social Security numbers and submitting false statements, but also
by submitting false claims to the United States regarding the extent of his injuries
allegedly suffered in 1991. Loss to the government is estimated at $114,772.
Following his arrest, the individual was released on a $10,000 bond on the condi-
tion that he surrender his U.S. passport to prevent his flight to Greece.

     Two Section 8 landlords were indicted for theft of public money. The indict-
ments were the result of a joint investigation by the FBI and OIG which disclosed
that the landlords allegedly conspired to obtain Section 8 housing assistance from
the Victoria, TX Housing Authority on property that one of the landlords owned.
The loss to the government is nearly $10,000.

     In Denver, CO, following an OIG investigation, a grand jury returned a one-
count indictment against two individuals for making false statements to the Lake-
wood Housing Authority. The two allegedly failed to report income from one of
the individuals for the years 1988 through 1996. During that time, one of the
individuals was employed full time working as a health care provider.

    The U.S. Attorneys Office filed a felony complaint against a Section 8
resident for making false statements to receive benefits. The resident has lived at
Apollo Housing in Oakland, CA, a HUD subsidized multifamily housing complex,
since 1992. He was charged with underreporting his annual income on his initial
and subsequent Section 8 recertifications by failing to disclose his receipt of
federal workers compensation benefits. In addition to veterans benefits, which
he reported, the resident received more than $140,000 in federal workers
compensation benefits since 1991, while HUD paid more than $48,000 in Section 8
subsidies on his behalf. This investigation was conducted by the OIG based on a
referral from the Department of Labor OIG.

    A federal grand jury indicted a resident of the Cedar Terrace public housing
development in Beaumont, TX, on one count of false statements. An OIG investi-
gation found that the resident allegedly submitted false information on recertifica-
tion documents by failing to report employment income. The resident received
$9,000 in rental assistance benefits to which she was not entitled.

    Seventeen individuals were charged by the Marion County Prosecutors
Office with fraud involving checks drawn on accounts of the Indianapolis Housing
Agency. Charges included forgery, conspiracy to commit forgery, and theft. The
check fraud schemes included high detail computer duplication, crude photocopy-
ing with typed in information on checks, and theft of actual checks from the
Indianapolis Housing Agency by a former contract employee, who is also a
Section 8 landlord. This investigation was conducted by the Indianapolis, IN
Housing Agency Police Department and OIG.

    The OIG, with the assistance of the Porter County Sheriffs Office, arrested
two Valparaiso, IN Section 8 recipients based upon a state criminal complaint
charging them with welfare fraud in conjunction with false statements during
certification. The estimated loss is $22,000.

   A Mount Vernon, NY eligibility examiner with the Westchester County
Department of Social Services was arrested by OIG Agents for deliberately
   concealing her employment and true household income from 1989 through 1999 in
   order to obtain nearly $30,000 in HUD Section 8 rental assistance payments for
   which she was ineligible. She also falsely reported that she was unemployed in
   1999 and that she was employed as a part-time salesperson from 1990 through
   1998. As a Westchester County civil servant, her annual income is over $46,000.

       In Washington, DC, Manuel Toledo, the main contractor for Pitch Apart-
   ments, a Section 8 complex, was arrested by the INS and charged with illegally re-
   entering the United States. The arrest follows an OIG investigation. Toledo was
   deported in 1995 as a result of a 1989 conviction for a third degree sex offense.



Single Family Housing Programs

       Single Family Housing Programs provide mortgage insurance that enables
   individuals to finance the purchase, rehabilitation, and/or construction of a home.
   During this reporting period, OIG investigations uncovered single family equity
   skimming and instances of wrongdoing by mortgagee personnel and real estate
   brokers in the origination of single family and Title I home improvement loans.

        From 1996 to 1999, members of an organization in Ft. Lauderdale, FL,
   conspired to originate over 113 fraudulent FHA insured loans, through 7 banks and
   9 mortgage companies, by creating false gift letters and income information for
   individuals who could not otherwise qualify for the loans. The loans totaled over
   $11 million. In addition, the loan amounts were inflated as a result of flip sales
   from the original sellers to the defendants, who then sold the properties at inflated
   prices to the unqualified buyers on the same day, financing the purchases with the
   FHA loans. The properties were inflated an average of over $15,000 each. Five of
   the loans have been foreclosed and resold by HUD at a loss of over $185,000. The
   average loss on the properties is over $30,000 and the total loss to HUD is expected
   to be over $1.7 million. Several members of this organization have already been
   prosecuted. The following individuals were prosecuted during the current report-
   ing period.
        Kenneth Heyder, a title attorney and owner of Security Title and Escrow, was
   sentenced to 2 years probation and 6 months home detention with an electronic
   monitor, and fined $5,000. Heyder previously pled guilty to obstruction of justice.
   Paul Saltz, owner of Emergency Checks Printing Services, pled guilty to con-
   spiracy and was sentenced to 16 months imprisonment and 3 years supervised
   release, and ordered to pay $265,897 in restitution to HUD.
        Jean Dufralessi was sentenced to 12 months imprisonment and 2 years
   supervised release for conspiracy to commit bank fraud and HUD loan origination
   fraud. Lee Garber was sentenced 12 months imprisonment and 12 months super-
   vised release, and ordered to pay $149,108 in restitution for making false state-
   ments on HUD mortgage applications. Annette Gonzalez was sentenced to 18
   months probation and ordered to pay $265,897 in restitution for making false
   statements on HUD loan origination documents.
        Kenneth Duqette, a title company employee, was sentenced to 6 months home
   confinement and 3 years supervised release, and ordered to pay $117,000 in
restitution. Duqette previously pled guilty to one count of conspiracy to commit
bank fraud. Loan processor Cristie Gallucci was sentenced to 1 year incarcera-
tion and 2 years supervised release. Gallucci worked for a mortgage company
that provided false verification of employment forms to individuals to obtain FHA
mortgages
     Marie Lafargue pled guilty to 1 count of conspiracy to commit bank fraud and
was sentenced to 12 months supervised release and 150 hours of community
service. Lafargues company provided false verification of employment forms to
individuals obtaining FHA mortgages.
     The investigation was conducted jointly by the FBI and the OIG Offices of
Investigation and Audit.

    In a separate case, Cindy Carameros, owner of a Ft. Lauderdale, FL title
company, was sentenced to 3 years probation. She previously pled guilty to two
counts of conspiracy to commit bank fraud and making false statements on FHA
insured mortgage applications. Stanley Lerner, an investor, was sentenced in
federal court on one count of conspiracy to commit mail fraud and wire fraud.
Lerner was sentenced to 2 years imprisonment and 36 months supervised re-
lease, and was ordered to pay $327,705 in restitution, including $174,324 to HUD.
Investor Mark Roseman pled guilty to conspiracy to commit bank fraud, making
false statements on FHA insured mortgage applications, mail fraud, and wire
fraud. This investigation was conducted by the FBI, OIG, and IRS.

     Operation Straw House, a joint investigation in Houston, TX, conducted by
the FBI, OIG and IRS Criminal Investigation Division, uncovered a scheme which
may involve 3 criminal organizations and an estimated $74 million in fraudulent
loans obtained by approximately 75 individuals. To date, 25 individuals have been
charged with federal felony violations, 16 of whom have pled guilty. Over $5
million in real estate and approximately $58,000 in cash have been seized. The
following individuals were prosecuted during this reporting period.
     Matthew Kelly, the office manager for AA Quality Construction Company, a
contractor specializing in Title I loans, was sentenced on charges of bank fraud.
Kelly received 4 months home confinement and 5 years supervised release, was
fined $2,500, and ordered to pay a $100 special assessment. Kelly previously pled
guilty to routinely preparing false documents, such as W-2 forms, to submit with
Title I loan packages to ensure loan approval.
     Anthony Irwin, a former employee of AA Quality Construction Company, was
sentenced after previously pleading guilty to wire fraud. Irwin received 5 years
probation and was ordered to pay $24,779 in restitution and a $100 special assess-
ment. Irwin fraudulently obtained two HUD insured Title I home improvement
loans and paid numerous cash kickbacks to other Title I borrowers on behalf of
AA Quality Construction Company. The co-owners of AA Quality Construction
were indicted on charges of conspiracy, monetary transactions with criminally
derived property, and money laundering.
     Leslie Jones was sentenced to 5 years supervised release and ordered to pay
$22,500 in restitution to HUD and a $100 special assessment. Jones pled guilty to
submitting false statements in order to obtain a $25,000 HUD insured Title I home
improvement loan and receiving approximately $16,000 in cash from the contrac-
tor, BCM Builders.
    Alvin Loupe, Jr., the president of Lone Star Remodeling Company, a home
improvement contractor, pled guilty to one count of bank fraud. Loupe admitted
making false statements on loan applications to obtain loans from FDIC insured
banks. Real estate investor Arthur Stringer was charged with one count of bank
fraud. The charge was part of a plea agreement in which Stringer admitted
involvement in the scheme. He also admitted making false statements to an FDIC
insured bank on a loan application for approximately $220,000.
    Thomas Polycn, the owner of Western Lending Corporation (WLC), a com-
mercial lender, pled guilty to one count of bank fraud. This charge was filed as
part of a plea agreement wherein Polycn was charged for personal involvement in
fraudulently obtaining a loan of approximately $300,000 from an FDIC insured
bank. Polycn admitted to being involved in a loan scheme to defraud HUD and
commercial lenders of more than $30 million in loan proceeds. WLC is a non-
FDIC insured commercial lender that specializes in providing home improvement
loans and sub-prime credit loans to individuals.
    Howard Pailet, an FHA approved real estate appraiser, pled guilty to one count
of bank fraud. Pailet admitted submitting false statements to an FDIC insured bank
in conjunction with obtaining a $240,000 single family mortgage loan. Pailet also
admitted obtaining two HUD insured Title I home improvement loans by false
pretenses, along with four other single family mortgage loans.
    The U.S. Attorneys Office charged Alta House, a former manager for Mei
Enterprises, a real estate management firm, with bank fraud. House admitted to
participating in a $30 million mortgage and home improvement loan fraud scheme
and obtaining 5 single family mortgage loans, totaling $1,083,785, by false pre-
tenses.

    In Atlanta, GA, Susan Culvert, a real estate agent, and Larry Clark, a real
estate broker, pled guilty to making false statements on FHA insured mortgage
applications. Culvert and Clark were previously indicted, along with 5 other
individuals, on 29 counts of conspiracy, making false statements, mail fraud, and
money laundering. The individuals conspired to originate 43 fraudulent mortgages
amounting to over $3 million, causing a loss to HUD of over $450,000. They
originated the fraudulent mortgages by providing down payments to unqualified
borrowers. This investigation was conducted by the OIG, IRS, and FBI.

     In a separate case in Atlanta, GA, Ryan Steven Pendergraft was sentenced to
96 months imprisonment and 36 months supervised release, and ordered to pay
$554,309 in restitution. Pendergraft had previously pled guilty to one count of
conspiracy to commit money laundering, mail fraud, and using false verification
of deposit and verification of employment forms and Social Security numbers to
qualify individuals for mortgages. Pendergraft was a member of an organization
that originated 46 mortgages totaling over $7.5 million. Two others individuals
have already pled guilty. The investigation was conducted by the FBI, IRS, and the
HUD and Social Security Administration OIGs.


    In Norfolk, VA, Marie Elana Roland, the last of 11 defendants in a scheme
involving over 180 fraudulent HUD insured loans, was sentenced to 18 months
imprisonment and 3 years supervised release, and was ordered to pay $250,000 in
restitution to HUD. Roland used her position as a financial adviser with a repu-
table financial services company to steer investors to MSRV Development, a
property speculation company in which she was also an officer. The sentencing
Judge also prohibited Roland from working in the financial services or real estate
professions during her period of supervised release. This was a joint FBI/OIG
investigation.

     In Mansfield, LA, Donald Ray Heyen, the former financial officer of
Calhoun Property Management (CPM), was sentenced to 12 months in prison, 12
months confinement in a halfway house, and 3 years supervised release, and was
ordered to pay $198,000 in restitution to Fidelity Insurance Company and
$454,268 to CPM. Special conditions of the supervised release include providing a
yearly federal income tax return to his Probation Officer who will ensure that 20
percent of Heyens gross income is paid toward restitution to CPMfor the rest of
his life; Heyen is not allowed in any business with gambling machines; he must
provide a complete disclosure of all business and personal information; and must
pay $100 to the victims and witness fund. In February 2000, Heyen pled guilty to
one count of theft or bribery concerning programs receiving federal funds.
     The sentencing is the result of a joint investigation by the HUD and Depart-
ment of Agriculture OIGs which disclosed that Heyen had devised a scheme to
divert funds from construction and operating accounts maintained by CPM.

     Michael Fernsted was sentenced to 2 years in prison and 3 years supervised
release, and was ordered to pay $4,205 in restitution to his victim (a contractor
who cooperated in the investigation) and forfeit $29,350 seized during the investi-
gation. Fernsted was arrested in July 2000 on federal extortion charges. He was
the real estate asset manager for First Preston Management Company, the
company hired by HUD to oversee and manage over 1,500 properties in the Buf-
falo and Rochester, NY areas. Fernsted forced inspectors/contractors who were
subcontracted by First Preston to give him a percentage of their monthly earnings
in the form of kickbacks. He also instructed the inspectors/contractors to submit
bogus billings or inflate their monthly billings so they could make more money.
The HUD Enforcement Center debarred Michael Fernsted from future participa-
tion in procurement and non-procurement transactions as a participant, principal,
or contractor with HUD and throughout the Executive Branch of the Federal
Government for a period of 5 years. This was a joint investigation by the OIG and
the FBI.

    In St. Petersburg, FL, Robert Norman pled guilty to one count of conspiring
to defraud the Federal Housing Administration. Norman ran a corporation that
bought and flipped HUD properties within a short period of time. The federal
charges focused on phony down payments he used to secure FHA loans for five of
his buyers. To qualify the borrowers, Norman provided funds to the borrowers
relatives, who then wrote checks to the closing agent and signed letters stating
that the down payment funds were a gift. In addition, Norman signed the
addendums to the settlement statements stating that he did not provide any of the
down payment or closing cost funds to the purchasers. This investigation was
conducted by the FBI and the OIG.

    Tommy Shaw pled guilty to three counts of mail, wire, and bank fraud. The
charges relate to Shaws participation in a Memphis, TN property flipping
scheme during which Shaw conspired with others to direct strawbuyers to pur-
chase duplex properties for fair market value. The strawbuyers then resold
(flipped) the properties to other conspirators at greatly inflated prices. As part of
the conspiracy, the defendants prepared and used fraudulent leases, appraisals,
and HUD settlement forms to conceal the true value of the FHA insured properties
as well as the fact that Shaw and the other conspirators who purchased the
properties received a substantial portion of the loans proceeds as consulting
fees. Shaw received over $660,000 through his participation in 25 sales between
January and May 1998. The investigation was conducted by the OIG, FBI, and
Postal Inspection Service.

    A Pittsburgh, PA husband and wife, Lane M. and Lynn S. Lalone, purchas-
ers of a HUD real estate owned (REO) property, signed a Settlement Agreement
and Release with the Department of Justice and HUD for falsely certifying, at the
time they entered into a sales contract with HUD, that they would occupy the
property. An OIG investigation disclosed that they purchased the HUD REO prop-
erty for $68,250 on August 12, 1997, and listed it for sale the very next day. The
investigation further disclosed that they never resided in the property. After having
been unsuccessful in selling the property on their own, they listed the property
with a local real estate agent, who sold it in March 1998 for $95,000, only 7
months after they purchased it from HUD. On November 17, 2000, pursuant to the
Settlement Agreement, the Lalones paid $3,000 in civil restitution and agreed to
provide testimony and/or documentary evidence of alleged illegal acts by others
involved in the purchase of HUD owned properties. This matter was previously
declined for criminal prosecution.

    Following his 12-count indictment for creating false employment documents,
Minneapolis, MN real estate agent Larry D. Maxwell pled guilty to one count of
making false statements. The investigation disclosed that Maxwell created pay
stubs, W-2s, gift letters, and other documents to qualify buyers for FHA insured
loans. The loans subsequently went into foreclosure and the loss to HUD is in
excess of $250,000. In his plea agreement, Maxwell signed a consent order,
suspending his real estate license for 1 year. Sentencing is pending. This was an
OIG/IRS Criminal Investigation Division investigation.


     A grand jury in Denver, CO, indicted an individual on six counts of mail
fraud and six counts of monetary transactions in property derived from specific
unlawful activity. The indictment was based on the individuals involvement in a
property flipping scheme. The individual allegedly acquired properties in the
Denver metro area using strawbuyers, inflated the property values through
various title transfers, obtained FHA insured loans, and did not make the mortgage
payments. He also filed false releases of liens against the property deeds with the
County indicating that his mortgages were paid off and that he owned the proper-
ties free and clear. He would then obtain another loan from a different mortgage
company. A complaint was also filed in U.S. District Court against the
individuals co-conspirator, alleging mail fraud, false statements, and misuse of
Social Security numbers. Both have been arrested.

    A Livingston, NJ individual was arrested for submitting false statements to
the government in order to obtain FHA insurance. The arrest was the result of a 2-
          year OIG investigation of a conspiracy to defraud HUDs FHA 203(b) Insurance
          Program. The individual is one of several who may have conspired with employ-
          ees and associates of Main Street Mortgage, a real estate company that has direct
          endorsement authority for FHA insured loans.
               Additionally, the individual is also allegedly involved in an illegal narcotics
          trafficking organization believed to be using the mortgage company as a front to
          launder drug money in a property flipping scheme. In this scheme, an FHA
          insured property is initially purchased then later appraised at an inflated value
          resulting in a second purchase at a much higher price than it was originally
          insured for, resulting in a loss to HUD.

               OIG Agents executed two federal search warrants at a branch office of a
          direct endorsement lender in Phoenix, AZ, and at a single family residence in
          Glendale, at which several loan officers and a computer technician were sus-
          pected of creating false wage documents, including W-2 forms and pay stubs,
          which were then submitted to HUD to in order to qualify the loan officers clients
          for FHA insured mortgages. Among the items seized during the search were loan
          files containing falsified wage documents and several computers that contained
          templates of wage documents and 1099 forms.



Community Planning and Development Programs

               The Office of Community Planning and Development (CPD) administers
          programs that provide financial and technical assistance to states and communi-
          ties for activities such as community development, housing rehabilitation, home-
          less shelters, and economic job development. Grantees are responsible for
          planning and funding eligible activities, often through subrecipients. OIG investiga-
          tions of these programs disclosed cases of theft, bribery, false statements, and
          accepting a pay-off.

               Following a joint FBI/OIG investigation, Robert C. Munson, Jr., pled guilty to
          one count of theft or bribery concerning programs receiving federal funds. While
          employed as the Director of Housing for the City of Utica, NYs Department of
          Urban and Economic Development, Munson embezzled $113,964. As part of his
          responsibilities, Munson managed the Citys housing rehabilitation program. He
          solicited construction proposals from contractors; the contractors were required
          to submit, along with their proposals, a bid security deposit or a guaranteed bid
          bond in the amount of 5 percent of the total construction cost. Munson stole the
          bid security deposit checks, cashed them, and used the funds for his personal
          benefit. To conceal his theft, Munson forged City of Utica Community Develop-
          ment Block Grant Program payment vouchers for the return of the bid securities
          to the contractors. Munson produced fictitious vouchers showing that renovation
          work was completed when in fact no construction work was performed. Sentenc-
          ing is scheduled for April 2001.

              A former manager for the Midland Title Company in Akron, OH, was
          indicted for making false statements in documents related to nine property sales
         to the City of Akrons Inner-City Housing Development Agency. The individual
         misrepresented sales prices on settlement statements and concealed over $44,000
         in fees to the person who negotiated the sales between the buyers and the City.
         That individual has not been charged. Between December 1997 and October
         1998, the defendant prepared statements showing prices of up to $19,000 per lot,
         when the actual sales prices were often several thousands dollars less. This OIG
         investigation was conducted at the request of the U.S. Attorneys Office based on
         a Qui Tam lawsuit.

              David Fuller, former business administrator for the City of Irvington, NJ,
         pled guilty to accepting a pay-off relating to a paving contract that was completed
         at a youth recreation center. The youth center was rehabilitated with Community
         Development Block Grant Program funds. This was an OIG investigation.



Other Significant White Collar Investigations

             During this reporting period, other significant white collar OIG investigations
         resulted in one conviction and one indictment.

             In Beaumont, TX, Jerry Wernard Williams, a HUD CPD specialist, was found
         guilty on all 14 counts of an April 2000 indictment on false statement charges. The
         conviction was the result of an OIG investigation into official travel associated with
         Williams position with HUD. The investigation disclosed that between September
         1996 and February 2000, Williams submitted false, fictitious, and fraudulent
         material statements and representations on documents that were attached to
         government travel forms which were then submitted for reimbursement. The
         fraudulent documents included hotel receipts that Williams claimed for reim-
         bursement when he had actually stayed with friends at their private residences.

             The former executive director of the nonprofit Greater Nevada Fair Housing
         Council (GNVFHC) in Carson City, NV, was indicted by a federal grand jury and
         charged with theft of federal program funds, access device fraud, and theft of
         government property. The GNVFHC operated under a $252,863 grant from HUD
         and served rural Nevada by providing support and information regarding both
         federal and state housing discrimination laws. From July 1998 to March 1999, the
         executive director purportedly embezzled $40,839 by making unauthorized
         charges to credit cards he obtained in the name of the nonprofit. He charged hotel
         rooms and meals in the Reno/Carson City area, took cash advances at local area
         casinos, made charges for pornographic internet sites, hosted two retreats at
         Squaw Valley for his college fraternity and alumni from the University of Califor-
         nia at Berkeley, and paid for the hotel rooms and meals with the charge cards.
         This investigation was conducted by the OIG.
Violent Crime in Public and Assisted Housing

              As part of their regular workload, OIG Special Agents investigate violent
          crime and drug trafficking in public and assisted housing. These investigations are
          part of an initiative known as Operation Safe Home. The investigations are
          conducted in coordination with various federal, state, and local law enforcement
          task forces. In addition to law enforcement personnel from states, counties, cities,
          and housing authorities, the following federal agencies are primary partners in
          Operation Safe Home investigations: the Federal Bureau of Investigation (FBI),
          the Drug Enforcement Administration (DEA), the Bureau of Alcohol, Tobacco,
          and Firearms (ATF), the U.S. Secret Service, (USSS), the U.S. Marshals Service
          (USMS), the U.S. Postal Inspection Service (USPS), the U.S. Customs Service
          (USCS), the Immigration and Naturalization Service (INS), the Internal Revenue
          Service (IRS), and the Department of Justice (DOJ).
              Some of our recent significant investigative results in the violent crime area
          are as follows.

              Operation Sherm is a joint Safe Home initiative conducted by the OIG and
          DEA focusing on members of a gang of Belizean nationals, residing unlawfully in
          the United States, that controlled the sale of liquid phencyclidine (PCP) and PCP-
          dipped marijuana cigarettes in and around the Senator R. Taft, Saint Nicholas,
          Martin Luther King, Lester Patterson, James Weldon Johnson, Melrose, and
          Abraham Lincoln public housing developments in New York, NY. The gang,
          identified as the Mark Theus Cell, also controlled the sale and distribution of
          wholesale liquid PCP in New York, New Jersey, and Connecticut after it was
          transported from Los Angeles in traps, concealed compartments specially built
          into vehicles, or on the person of a corrupt airline employee. During this reporting
          period, five gang members, including the head of the Mark Theus Cell, were
          sentenced and three pled guilty to conspiracy to distribute controlled substances.
          Mark Godfrey Theus, also known as Sanchez, was sentenced to 14 years in prison
          and 5 years supervised release. Mark Edison Bowman, also known as BAP,
          lieutenant and enforcer of the Mark Theus Cell, was sentenced to 10 years in
          prison and 5 years supervised release. Javon Omar Monroe, also known as
          Rocko, was sentenced to 70 months incarceration and 5 years supervised release.
          Orin Brown, also known as Usher, was sentenced to 4 years incarceration and 5
          years supervised release. Ernie Arthur Ebanks, also known as Sleeper, was
          sentenced to 135 months incarceration and 5 years supervised release. All five
          individuals were also ordered to pay a $100 special assessment to the court. In
          addition, Julius Williams, also known as Juice, Chawn Battle, and Mark Gentle,
          also known as Mark Sosa, pled guilty to conspiracy to distribute a controlled
          substance.
              To date, as a result of this joint operation, 26 gang members have been
          arrested; 23 of the 26 were subsequently indicted. In addition, 17 have been
          convicted or have pled guilty. Five handguns, 2 vehicles, $250,000 in cash, and 2
          gallons of liquid PCP with an estimated street value of $100,000 have been seized.
          Five OIG Special Agents from the New York/New Jersey District were each
presented with certificates of appreciation from the DEA, New York Field Divi-
sion Special Agent in Charge, as a result of their service on this investigation.

     Efforts by the Los Angeles, CA Metropolitan Task Force on Violent Crime
resulted in several sentencings and convictions under the Racketeering Influenced
and Corrupt Organization (RICO) Act. Robert Cervantes and Frank Fernandez
were each sentenced to life imprisonment. Ignacio Felix and Alex Manon were
sentenced to 10 years and 14 years imprisonment, respectively. Jimmy Sanchez,
Dominick Gonzales, and Juan Garcia were convicted. The sentencings and
convictions all stemmed from federal RICO conspiracy indictments. The charges
included racketeering, conspiracy to murder, conspiracy to distribute narcotics,
conspiracy to distribute narcotics in jail or prison, conspiracy to commit rack-
eteering, felon in possession of a firearm, aiding and abetting the distribution of
controlled substances, violent crimes in aid of racketeering, and using firearms
during and in relation to crimes of violence.
     These individuals were associated with the Mexican Mafia gang, which in
turn controls the Big Hazard, the Varrio Nuevo Estrada Courts, and the Project
Boys gangs. The Mexican Mafia gang would divide up the greater Los Angeles
area into territories, with certain members of the gang controlling certain narcot-
ics traffickers and street gangs in each territory. These gangs are believed to be
responsible for illegal drug activity and gang violence in and around the Ramona
Gardens, Estrada Courts, San Fernando Gardens, and Rose Hills Courts public
housing developments. The Task Force, made up of the FBI, OIG, Los Angeles
Police Department, Los Angeles Sheriffs Department, and the California
Department of Corrections, also seized 30 kilos of cocaine, over 400 pounds of
marijuana, $40,000 in cash, and 1 semi-automatic firearm.

    The Operation Southside Crackdown Task Force made significant progress
during this period in ridding public and assisted housing in Richmond, VA, of
drugs and crime. The FBI, DEA, OIG, City of Richmond Police Department, and
Virginia State Police initiated this effort to identify and arrest heroin users in the
South Richmond area. The Henrico County and Chesterfield County Police
Departments and the Hanover County Sheriffs Department have also participated
in Task Force operations. As a result of their efforts, 1 person was indicted, 3 pled
guilty, and 8 others were sentenced to a total of 41 years in prison and 22 years
supervised release for distribution and conspiracy to distribute heroin in and
around the public housing communities of Blackwell, Hillside Court, Afton
Avenue Apartments, and Ruffin Road Apartments. One of those sentenced was a
major drug supplier from New York. Lab results of the heroin sold by the
individuals associates indicated that the heroin he brought into Richmond was 90
percent pure (70 percent is lethal). For years, this area, including several public
and assisted housing developments, has been plagued with a number of heroin
related deaths.
    Anthony Smith, a public housing resident and 1 of the 6 sentenced, was
previously convicted of involuntary manslaughter and using a firearm during a
murder. The conviction stemmed from a May 1999 incident involving Smith and
several others as they were hanging out near Hillside Court. Smith took offense
to words spoken by Rayshawn Beavers and pulled a gun, fatally wounding Beavers
as he was running away. Beavers body was not found until 2 days after the shoot-
ing incident. Although Smith was not one of the suspects of Operation Southside
Crackdown, that Task Force developed information that they later provided to the
Commonwealth Attorneys Office; this information proved vital in the prosecution
of Smith. Smith testified that he resided with Marquita Jackson, a public housing
resident, in order to attend the local high school. News of this conviction has been
forwarded to the Richmond Redevelopment and Housing Authority for initiation of
eviction proceedings under HUDs One Strike and Youre Out policy.

     Six individuals were sentenced for trafficking cocaine and crack cocaine in
Lebanon, KY public housing developments. Richard A. Sanders received 60
months confinement, 5 years supervised release, and a $900 special assessment.
Mildred Chic Sanders, the aunt of Richard Sanders, was sentenced to 60
months confinement, 4 years supervised release, and a $700 special assessment
for selling crack cocaine. Both Richard Sanders and Mildred Sanders faced
mandatory minimum sentences based on the amount of drugs involved.
     Four individuals were also sentenced in connection with an operation involv-
ing cocaine sales from the Raven Bar in Marion County, KY, which was the
main source of cocaine for residents of Lebanon public housing. Marion Paul
Elder had previously served 97 months in prison and was placed on 4 years
supervised release for trafficking in marijuana. He sold cocaine 3-1/2 years into
his supervised release. He was most recently sentenced to 15 months confine-
ment for the revocation of his supervised release. Additionally, he was sentenced
to 10 months confinement and 3 years supervised release, and required to pay a
$200 special assessment. The 15 months and 10 months were ordered to be served
consecutively. The severity of Elders sentencing was due to the fact that he was a
member of the Cornbread Mafia. This group was responsible for growing large
quantities of marijuana. Thomas Eric Elder, Marion Pauls brother, was also
sentenced to 3 years probation, 6 months home detention, and a $300 special
assessment for selling powder cocaine. In addition, James Walston was sentenced
to 3 years probation, 6 months home detention, and a $200 special assessment for
trafficking in cocaine, and David Duley was sentenced to 6 months confinement, 1
year supervised release, and a $100 special assessment for possession of cocaine.
     These efforts were carried out by OIG and the Lebanon Police Department.

    Operation Clean Up is a Topeka, KS Safe Home Task Force operation that
has, to date, resulted in 43 arrests, 25 federal convictions, 1,025 months in
federal jail time, and 18 evictions from housing assistance programs. During this
reporting period, Michael Grant was sentenced to 70 months in prison, Paul
Davis received 210 months, and James Wheeler received 78 months. All three
were sentenced for distributing crack cocaine in public housing. In addition, as a
result of other Task Force operations conducted at public housing complexes,
three individuals were indicted for distributing crack cocaine and carrying a
firearm during and in relation to a drug trafficking crime. To date, these other
Task Force operations have netted 28 federal convictions with a total sentencing of
2,616 months in prison, 64 evictions of housing assistance recipients, and 317
restraining orders issued to individuals for violating residents rights to a decent
and safe living environment. The Topeka Task Force is made up of the OIG,
Kansas Bureau of Investigation, and the Topeka Police Department.
     Operation Busted Flush was implemented in June 2000 to reduce narcotics
distribution and violent crime in and around federally assisted housing in
Hagerstown, MD. Efforts by the Task Force, comprised of OIG, DEA, the
Hagerstown Police Department, and the Washington County Narcotics Task
Force, have, to date, resulted in 25 convictions and the arrest of over 200 individu-
als for either dealing or purchasing drugs in federally funded neighborhoods. The
OIG is continuing to coordinate with the local housing authority to evict federally
subsidized residents who have either assisted dealers or been involved in drug
activities. According to the Hagerstown Chief of Police, the operation has had a
major impact on community residents because drug dealers have been forced off
the streets.
     Following one Operation Busted Flush initiative, Jason Luis Smith was
found guilty of possession with intent to distribute crack cocaine and was sen-
tenced to a minimum mandatory 25 years in prison. One co-conspirator also
faces 25 years in prison, while another has already pled guilty to conspiracy and
been sentenced to 3 years in prison. Another operation resulted in the conviction
of Robin Crosby on charges of conspiracy to distribute crack cocaine. Crosby, who
was sentenced to 8 years in state prison, is a known drug abuser who has 33 prior
arrests dating back to 1982. A third effort resulted in the sentencing of Simeon
Leonard Younger, also known as Travis, to 10 years in prison for conspiracy to
distribute crack cocaine. Younger, who has prior drug arrests, also faces charges
in Allegany County for possession with intent to distribute crack cocaine and
possession of a firearm during a drug crime.

     Twelve people were sentenced and three pled guilty following Safe Home
initiatives by the OIG, DEA, Cuyahoga Metropolitan Housing Authority Police, and
the Cuyahoga County Sheriffs Department. Descarlos Roberts, Arthur Smiley,
Darrell Moncrease, Wesley Jackson, Jerome McGinnes, LaFear Williams,
Anthony Williams, Demond Smith, Anson Lett, Carlos Price, Sharita Dix, and
Carlin Powell were sentenced to a total of over 65 years in prison and 68 years
supervised release for their involvement in a conspiracy to distribute crack
cocaine at the Riverside Estates public housing development in Cleveland, OH. In
addition, three individuals pled guilty to conspiracy to distribute crack cocaine in
public housing.

    In response to several drug related shootings in the Great Brook Valley public
housing development, the Worcester, MA Housing Authority requested the
assistance of OIG and the Worcester Police Department in dealing with the
growing violence and drug/crime problem in the development. The OIG teamed up
with the Worcester Police Department Detective Bureau, Operations Division,
and Gang and Vice Units to conduct zero tolerance and warrant apprehension
operations. To date, these operations have resulted in the execution of 3 state
search warrants, the arrest of 43 people on state charges and 1 person who was
wanted on a federal arrest warrant, and the seizure of 7 firearms, 1 ballistic vest,
ammunition, over 312 packets of heroin, 1,720 grams of pure heroin worth over $2
million, 14 packets of marijuana, 22 packets of crack cocaine, and $84,582 in
cash. One person, Jose A. Arana, was convicted of possession of a Class A
substance with intent to distribute and resisting arrest, and was sentenced to 1
year probation and ordered to complete a substance abuse rehabilitation program.
Eviction proceeding have been initiated against those arrestees who are public
housing residents.
     Also during this reporting period, 28 people were indicted after the OIG,
Worcester County District Attorneys Office, and the Worcester Police Depart-
ment concluded a 3-month investigation into drug and gang activity in several
public housing developments. Three individuals were also sentenced as a result of
Safe Home operations carried out by the Worcester and Shrewsbury Police
Departments and OIG. Ezekiel Idiagbonya was sentenced to 22 years in prison
after being charged with home invasion, armed robbery while masked, armed
burglary, and conspiracy to commit a home invasion. Idiagbonya was one of five
men, including a public housing resident and two Section 8 tenants, arrested for
their involvement in an armed home invasion in July 2000. Rattana Hin was
sentenced to 22 years in prison and Marlin Horton was sentenced to 1 year in
prison. Hin pled guilty to home invasion, armed robbery while masked, armed
burglary, assault and battery with a dangerous weapon, threatening to kill, carry-
ing a firearm without a license, unlawful possession of ammunition, and con-
spiracy to commit a home invasion. Horton, a public housing resident, pled guilty
to unlawful possession of a firearm and ammunition, being an accessory before
the fact, and assault with a dangerous weapon.

     In Greensboro, NC, the OIG, FBI, DEA, ATF, IRS Criminal Investigation
Division, Guilford County and Carswell County Sheriffs Offices, Alamance
County and Rockingham County Police, State Bureau of Investigations, and the
Greensboro, Burlington, and Liberty Police Departments continued to address
drugs and violent crime in Greensboro public housing. During this reporting
period, Kenyata Demoris Robinson was convicted on two counts of distribution of
crack cocaine. The conviction came after a 2-day trial during which an OIG Agent
was the chief witness. Robinson had been charged with supplying crack cocaine to
Greensboro public housing developments; she was also an unauthorized resident
living in public housing. Robinson was in possession of over 110 grams of crack
cocaine when she was arrested. She also had previous murder, narcotics, and
firearms charges. Scott Koonts, a former Guilford County Deputy Sheriff, pled
guilty in state court to 33 counts, including embezzlement by a public officer,
theft, and possession of cocaine. Koonts stole drugs from Guilford County
Sheriffs Office evidence lockers. This evidence was related to the Greensboro
Safe Home Task Force investigation and was purchased from individuals distrib-
uting drugs in Greensboro public housing. Koonts was sentenced to 60 to 72
months imprisonment and 60 months supervised release, and fined $15,000. In
addition to the conviction and sentencing, 20 people were arrested for distributing
drugs and approximately $120,000 in cash, 12 kilos of cocaine valued at over
$300,000, a small amount of marijuana, 3 guns, 3 vehicles, and over $150,000 in
property were confiscated.

    The two primary targets of a High Intensity Drug Trafficking Area (HIDTA)
Task Force drug investigation in Atlanta, GA, accepted plea bargains in lieu of
going to federal trial. Freddie Mitchell pled guilty to felony possession of a
firearm in public housing by a convicted felon, and Willie Reed pled guilty to
conspiracy to possess and distribute cocaine in public housing.
    HIDTA Task Force members also executed a vehicle search warrant within the
Jonesboro South public housing development. They seized 1 Chinese made assault
rifle and a small amount of marijuana. Although no arrests were made, the
investigation disclosed that individuals have been selling assault rifles within the
complex for $150 to $200 apiece. A number of homicides that have occurred in or
around the complex have involved these weapons.
     This Task Force includes the OIG, DEA, ATF, Georgia Bureau of Investigation,
and the Atlanta Police Department.

    Marvin and Chris Harris pled guilty to selling narcotics to an undercover
Agent. The Harris brothers were part of a narcotics organization operating out of
the LeClaire Courts public housing development. Seven other individuals were
previously indicted along with the Harris brothers for distributing crack cocaine
throughout various Chicago, IL Housing Authority developments. As a result of
the Harris plea and conviction, four other defendants also pled guilty. This
investigation was conducted by the OIG, ATF, and Chicago Housing Authority
Police Department.

    Gregory Lamar Knox was sentenced to 15 years in prison for possession with
intent to distribute crack cocaine and carrying a firearm during and in relation to
a drug trafficking crime. This is the heaviest sentence handed down to date as a
result of St. Louis, MO Safe Home operations. Knox was a suspect in at least 4
homicides that occurred in 1998 and 1999 in the LaSalle Park Homes and Clinton-
Peabody public housing developments. He was also the number one supplier of
narcotics to LaSalle Park Homes. This sentencing resulted from joint efforts by
the St. Louis Police Department Homicide Unit and the OIG.

     Following an initiative by the 24th Judicial District Operation Safe Home Task
Force, consisting of the Tennessee Bureau of Investigation, Tennessee Highway
Patrol, and OIG, Patrick Andrews was sentenced to 84 months in prison for
distributing drugs in Memphis and Carroll County, TN public housing develop-
ments. Andrews was arrested, along with another individual, as part of a drug
reversal operation during which 1 kilogram of cocaine was sold. Andrews was
previously convicted of aiding and abetting in the sale of cocaine; the severity of
his sentence was based on sentencing guidelines for past criminal history and for
a local drug arrest while on bond awaiting sentencing in federal court.

    A federal grand jury indicted two individuals for distributing crack cocaine in
the Terrace Apartments public housing development in Oklahoma City, OK.
Undercover Task Force members bought over 8 ounces of crack cocaine from the
individuals in the complex. In another effort, called the Edmond Initiative,
Oklahoma City Safe Home Task Force members arrested seven individuals in a
Section 8 complex on charges of felony distribution of a controlled and dangerous
substance. The apartments resident maintenance person was one of the
arrestees. Eviction proceedings have begun. In other initiatives, the Task Force
arrested 22 individuals for felony distribution of crack cocaine and confiscated 30
grams of cocaine base, 21 grams of cocaine powder, 300 grams of crack cocaine,
$28,000 in cash, 1 vehicle, and an extensive collection of ammunition. They also
dismantled a violent drug trafficking organization that operated out of a public
housing complex. The Oklahoma City Safe Home Task Force is comprised of
OIG, DEA, and the Oklahoma City Police Department.
    The Westside Interagency Narcotics Team (WIN), along with OIG, DEA, INS,
and the Hillsboro Police Departments Street Crimes Unit and Emergency
Response Team, conducted Safe Home activities in public, assisted, and Section 8
housing in Hillsboro, Cornelius, and Aloha, OR. In total, they seized $2,950 in
cash, drug paraphernalia including straws and a syringe, packaging materials,
several pagers, 2 cell phones, 1 12-gauge shotgun, ammunition, 2 grams of
marijuana, 4 grams of hashish, 2 grams of methamphetamine, 4 electronic
scales, telephone and bank account records, fake resident identification and Social
Security cards, and a notebook with receipts related to producing methamphet-
amine. As a result of these operations, Fernando Reyes-Garcia was sentenced to
46 months incarceration and 3 years supervised release, and was ordered to pay a
$100 special assessment; he is also to be deported after serving his sentence. On
four occasions, Reyes-Garcia sold heroin and cocaine to an undercover DEA
Agent. Reyes-Garcia was a street level runner to an area supplier. Both Reyes-
Garcia and the supplier lived near HUD low-income housing. Another person was
charged with 10 counts of possession/distribution with intent to distribute cocaine,
heroin, and methamphetamine.

     Operation Riptide is a joint investigation by the Organized Crime Drug
Enforcement Task Force, OIG, FBI, and the Newport, RI Police Department
targeting narcotics traffickers operating in the Tonomy Hill and Park Holm public
housing developments. As a result of initiatives during this period, Kareem Barnes
was sentenced to 151 months incarceration and 36 months supervised release
following his guilty plea to 2 counts of distribution of cocaine base. On the same
day, in the culmination of another Task Force investigation by OIG, DEA, and the
Newport Police Department, 26 state arrest warrants and 2 state search warrants
were executed for violations of delivery of narcotics statutes. The investigation
targeted drug dealers operating in the Tonomy Hill, Park Holm, and Chapel
Terrace public housing developments. Eight people were arrested on outstanding
warrants, and two bags of marijuana were seized from one of the arrestees. Five
suspects were already incarcerated on state charges. An additional five suspects
were arrested in Tonomy Hill for drug related charges during the sweep. Eight
bags of marijuana, $1,400 in cash, 1 vehicle, 1 cell phone, and 1 pager were
seized from one suspect, while 13 bags of marijuana were seized from another.

    In Houston, TX, 325 people were arrested by OIG, the Houston Police
Department, and the Harris County Constables Office. The arrestees, charged
with delivery and possession of a controlled substance, evading arrest, outstanding
fugitive warrants, theft, selling narcotics in public housing, failure to identify to a
Police Officer, aggravated assault, forgery, bribery, and endangering a child,
were arrested in and around the Lincoln Park, Oxford Place, Allen Parkway
Village, Irvinton Village, Kelly Village, Kennedy Place, Clayton Homes, Arbor
Courts, Cleame Manor, and Gulf Coast Arms public, assisted, and Section 8
complexes. During this period, the Task Force seized 1,054 grams of marijuana,
158 grams of crack cocaine, 575 grams of codeine, 9 grams of Xanax, 7 grams of
Valium, and 1 loaded handgun. In addition to the arrests, sealed federal indict-
ments were returned against two individuals. The first individual was charged
with selling 23 grams of crack cocaine in public housing. The second was charged
with selling 25 grams of crack cocaine to undercover Task Force Officers in
public housing.
    As part of a year-long Operation Safe Home initiative known as Clean
Sweep, the DEA, OIG, Paterson Police Department, and the Passaic County
Prosecutors Office conducted more than 30 undercover purchases of heroin and
crack cocaine within the Alexander Hamilton public housing development in
Paterson, NJ. Eighty-three drug dealers and 207 buyers were arrested. To date,
5,700 glassines of heroin, 900 bags of crack cocaine, $19,000 in cash, 1 shotgun,
3 handguns, and 2 vehicles containing hidden traps used to conceal illegal narcot-
ics have been seized. In November, arrest warrants were executed for 29 indi-
viduals. Each arrestee was issued a restraining order forbidding him/her from
entering the Alexander Hamilton grounds. Also as part of Clean Sweep, eight
eviction notices were served at public housing units, where residents were ar-
rested in accordance with the One Strike and Youre Out policy.

     A reverse undercover sting operation in the Glenside Homes public housing
complex resulted in the arrest of 63 people. This operation was the largest drug
sting operation to be conducted in the City of Reading, PA, within the last decade.
The operation was designed to deter persons who travel to the Glenside Homes to
purchase heroin, cocaine, marijuana, and PCP. Undercover Agents sold sham
heroin packets stamped with a smiley face to willing buyers, who were imme-
diately placed under arrest. Glenside Homes has become a primary source of
heroin for residents in a five-county area surrounding Reading. Of the 63 persons
arrested, 75 percent were not residents of the City; 50 percent were 24 years of
age or younger. The youngest purchaser arrested during the operation was 15
years of age. The last person arrested was a 20-year-old female who traveled
approximately 80 miles from Wilkes-Barre, PA, to Glenside Homes in order to
purchase $200 worth of heroin. Glenside Homes was also the site of a drug
related homicide in February. All defendants were charged with criminal attempt
to purchase heroin. Six defendants were additionally charged with possession of
drug paraphernalia, while three were charged with resisting arrest and disorderly
conduct. One defendant was charged with possession and distribution of a con-
trolled substance for prior sales of heroin and cocaine to an undercover Agent. In
addition to the arrests, 14 vehicles were seized for forfeiture, along with the
$4,000 in cash that was used for the attempted drug purchases. Eviction proceed-
ings will be initiated against any arrestees who reside in public housing. This
operation received favorable media coverage and was well received by the resi-
dents of Glenside Homes. Participating agencies include the FBI, DEA, OIG, City
of Reading Police Department, Berks County District Attorneys Office, and the
Berks County Sheriffs Department.

     The South Carolina Law Enforcement Division, Allendale Police Depart-
ment, Fairfax Sheriffs Department, and OIG arrested 41 individuals for distribu-
tion and conspiracy to distribute crack cocaine. The arrests were part of a raid
that resulted from a year-long undercover investigation conducted in Allendale,
SC public and low-income housing communities.

    OIG and the Albuquerque, NM Police Department, Westside Narcotics
Unit, conducted several joint Safe Home initiatives during this reporting period.
Three individuals were arrested and charged with conspiracy and possession with
intent to distribute a controlled substance. The individuals had been trafficking
crack cocaine in and around numerous public housing and Section 8 areas; two of
the three were also living in an apartment located in a predominately Section 8
area. Officers and Agents seized over 6 ounces of crack cocaine and a loaded
pistol. In January, Task Force members arrested an individual who had been
dealing cocaine in and around Puebilto de Paiz, a large Section 8 complex. An
undercover Agent purchased 1 kilo of cocaine from the arrestee. A federal grand
jury subsequently indicted the arrestee on 1 count of intent to distribute over 500
grams of cocaine. At a hearing 2 days later, the individual was ordered detained
because of his extensive criminal record and because he was considered a pos-
sible flight risk. As part of a third effort, Task Force members arrested an
individual who had been dealing cocaine in and around public and assisted housing
neighborhoods.

    In New Orleans, LA, the Safe Home Task Force continued to produce
significant results during this period. One hundred and thirteen people were
arrested in the and around the St. Thomas, St. Bernard, Calliope, Melpomene,
Lafitte, Magnolia, and Iberville public housing developments and in Section 8
areas of the City. Among other things, they were charged with possession of
narcotics, possession with intent to distribute, outstanding fugitive warrants,
resisting arrest by flight, and criminal trespassing. During one initiative, Task
Force members arrested an individual in a Section 8 complex for two state
murder violations, federal weapons charges, drug trafficking, using a firearm
during the commission of a violent crime, and felon in possession of a firearm.
The arrestee was believed to be a leader in the 7th Ward Soldiers, one of New
Orleans most deadly gangs. Another individual was arrested at the scene for
harboring a fugitive. During another initiative, the Task Force executed a search
warrant at a unit in the Calliope development and arrested two individuals for
possession of a controlled substance. One of the arrestees admitted living in the
unit for over 7 years without notifying housing authority officials. The estimated
loss to the government is over $25,000.
    In total, the Task Force, made up of ATF, OIG, and the New Orleans Police
Department, confiscated $9,416 in cash, 2,733 grams of marijuana, 40 grams of
cocaine, 30 grams of heroin, 30 weapons, and assorted drug paraphernalia.

    Special Agents from the FBI, OIG, and USCS, along with City of Miami, FL
Police Department Officers, executed 51 state arrest warrants in the Scott
Homes, Liberty Gardens and Windwood Apartments public housing develop-
ments. An undercover operation known as Get You Now targeted people
involved in narcotics sales in these developments. In addition to the narcotics
violations, many of the individuals were wanted for murder, rape, robbery,
burglary, sexual battery, and assault. The individuals living in public housing were
referred to the Dade County Housing Authority for eviction.

    Thirty-eight people were arrested following operations in public and assisted
housing developments by the New Haven, CT Task Force. Charges included
possession of controlled substances, possession with intent to sell, possession
within 1,000 feet of a school, interfering with a Police Officer, criminal imper-
sonation, risk of injury to a minor child, destruction of evidence, and operating a
drug factory. Task Force members seized over 3,600 grams of marijuana, 21 bags
of crack cocaine, 265 bags of heroin, $7,900 in cash, 1 passport, 1 weapon, 4
scales, 3 hypodermic needles, proof of residence, drug packaging materials, and
bank records. This Task Force is made up of the OIG, the Connecticut State
Police, and the New Haven Police Department.

    OIG, DEA, USMS, USPS, and the Puerto Rico Police Department executed 18
arrest warrants and 16 search warrants in the Los Cedros, Las Mar, Covadonga,
and Ramon Perez public housing developments in Trujillo, PR. The arrestees
were members of an organization indicted by a federal grand jury for illegal
distribution of firearms and narcotics, along with money laundering, in the
Trujillo Alto area. The organization operated out of the Los Cedros public housing
development and was responsible for numerous homicides and assaults.

    The Little Rock, AR Safe Home Task Force conducted enforcement opera-
tions in and around densely populated Section 8 areas of the City. During this
reporting period, Task Force Officers executed 19 search warrants and arrested
67 individuals on charges of manufacturing narcotics, possession of narcotics with
intent to distribute, possession of drug paraphernalia, felon in possession of a
handgun, interfering with law enforcement officers, resisting arrest, battery,
disorderly conduct, and outstanding fugitive warrants. One gram of methamphet-
amine, 56 grams of crack cocaine, over 3 grams of powder cocaine, 529 grams of
marijuana, 3 handguns, and $722 in cash were seized. This Task Force is made
up of members of the Pulaski County Sheriffs Office, the Little Rock and North
Little Rock Police Departments, and the OIG.

     The Tacoma, WA Police Departments Clandestine Methamphetamine Lab
Unit and an OIG Agent served a state search warrant at a residence located next
to a multifamily complex housing several assisted housing residents. The Clandes-
tine Lab Unit had information about a methamphetamine and marijuana manufac-
turing and distribution operation. What makes this meth lab different from many
others is that the suspects were extracting ephedrine from cattle salt licks instead
of using the common over the counter diet or cold products which can be pur-
chased at drug stores. The sales of salt licks are not regulated like the cold and
diet products containing ephedrine. The suspects advised that they were able to
extract 9 pounds of ephedrine from a 250-pound salt lick. Task Force members
seized 192 grams of ephedrine, 1 ounce of methamphetamine, 4 ounces of mari-
juana, 41 marijuana plants, and $4,900 in cash. Four individuals were arrested
and charged with unlawful manufacturing and possession of a controlled substance
with intent to deliver. One of the arrestees may receive a sentencing enhancement
for producing methamphetamine in the house where his 8-year old son lives.
     As part of this investigation, OIG and the Tacoma Police Department also
combined forces with the Department of Corrections (DOC) to check on individu-
als who are on supervised release and suspected of selling or manufacturing
methamphetamine. Officers first targeted two suspects residing in an apartment
complex housing other families on HUD assistance. A search resulted in the
seizure of 43 grams of pure processed ephedrine. Officers charged both residents
with violating their probation and unlawful possession of ephedrine with intent to
manufacture methamphetamine. The third suspect on DOC supervision resided in
a single family residence next to a HUD assisted complex. A search netted several
grams of methamphetamine along with other equipment commonly used in the
production of this drug. The suspect claimed that a friend of his had been cook-
ing methamphetamine in his garage for months. Officers later found two addi-
tional grams of methamphetamine on the suspect. The property was secured and
a state search warrant was later obtained for both the garage and the house. The
search of the garage revealed an extensive methamphetamine lab, including eight
5-gallon buckets containing large quantities of lab waste and methamphetamine
oil. The ceiling of the garage was covered in hydrogen chloride gas from what is
known as an HCL generator. This gas is highly explosive and shows that a cook
was recently done. The suspect was charged with possession and unlawful manu-
facturing of a controlled substance.

    In the District of Columbia, the Safe Streets Task Force, consisting of the
FBI, OIG, Metropolitan Police Department, and the District of Columbia Housing
Authority Police Department, arrested five people in two different operations. In
one initiative, Task Force members executed a search warrant in a public housing
complex and seized 30 ziplock bags of crack cocaine, 1 ziplock bag of heroin, and
a small amount of marijuana. Three individuals were arrested and charged with
various drug violations. In another operation, a search warrant executed at
Langston Dwelling, a public housing complex, resulted in the arrest of two
individuals for drug violations. Officers and Agents seized 20 grams of
unpackaged crack cocaine, 87 ziplock bags of crack cocaine, and $5,200 in cash.

    Agents and Officers from the OIG, DEA, FBI, IRS, ATF, and the Jefferson
County Sheriffs Office executed seven search warrants, nine seizure warrants
and two arrest warrants. The targets of the investigation were members of an
organization responsible for selling crack cocaine and heroin in Birmingham, AL
public housing developments. The warrants resulted in the seizure of 36 weapons
(including 11 that were stolen), $13,268 in cash, and 7 vehicles.

    The Las Vegas, NV Metropolitan Police Department, FBI, and OIG received
information describing a car that would be traveling from Southern California to
deliver a shipment of cocaine to the Ernie Cragin Apartments, a public housing
complex. Surveillance was set up on Interstate 15, the major roadway from
Southern California to the Las Vegas area. When Officers and Agents pulled over
a vehicle matching the description, they found 6 kilos of cocaine and $900 in cash,
both of which were seized, along with the vehicle. The three occupants of the
vehicle were arrested for trafficking in cocaine. During another initiative, OIG and
the Las Vegas Metropolitan Police Department executed a state search warrant at
an Ernie Cragin unit after an investigation found that cocaine was being sold out of
the apartment. One individual was arrested for possession of cocaine with intent
to sell. Five rocks of cocaine weighing about 2 grams, 2 grams of marijuana, and
drug paraphernalia were confiscated.

    OIG and the Omaha, NE Police Department executed a search warrant at a
public housing property. Two people were found to be in possession of a total of 23
grams of crack cocaine and 2 grams of marijuana and were arrested. In addition,
while assisting HUD Nebraska State Multifamily Program staff in completing
foreclosure inspections, an OIG Agent encountered a Section 8 recipient who was
a dangerous convicted drug felon with two outstanding warrants. The recipient
was arrested at the scene, and eviction proceedings were initiated.
    In Jackson, MS, the High Intensity Drug Trafficking Area/Safe Home Task
Force, which consists of the FBI, DEA, OIG, USCS, Hinds County Sheriffs Office,
and the Jackson Police Department, performed a controlled delivery and subse-
quently executed a search warrant, resulting in the seizure of approximately 2
kilograms of cocaine. The drugs were sent to Mississippi from a source of supply
in California and were destined for Jackson public and assisted housing. One
person was arrested and charged with possession with intent to distribute.

    OIG, DEA, the Manchester, NH Police Department Special Investigations
Unit, and the New Hampshire State Police Narcotics Unit conducted a buy/bust
operation next to a public housing development. Task Force members seized 500
grams of cocaine worth about $15,000 and arrested 1 person for violating state
narcotics laws.
Chapter 5
           Regulations,
        Notices, and Other
            Directives
                                Making recommendations on regulations and policy issues is a critical part of
                            the OIGs responsibilities under the Inspector General Act. This responsibility has
                            taken on an added dimension at HUD because of the dynamics of its rapidly
                            changing program and management environment. During this 6-month reporting
                            period, the OIG reviewed 133 regulations, funding notices, and other HUD direc-
                            tives and proposals. This Chapter highlights the more significant OIG recommen-
                            dations.


                                         Regulations

Prohibition of Predatory        This proposed rule would implement initiatives protecting the Federal Hous-
   Lending Practices in     ing Administration (FHA) and its borrowers against predatory lending practices.
  HUDs Single Family       The proposed rule was an effort to address property flipping, the practice of
                            reselling recently acquired properties at artificially inflated prices. The proposed
   Mortgage Insurance       rule would also make several regulatory changes designed to prevent lenders from
               Programs     charging excessive fees, often concealed as discount points. We nonconcurred with
                            the proposed rule because it would:

                            Ø Impose a cap on mortgage discount points. Since mortgage interest rates are
                              not regulated, any lender can stay within the discount point limit by raising the
                              interest rate. Since by law HUD cannot set the interest rate, such a rule change
                              would be ineffective.
                            Ø Allow the use of mortgage brokers, but not require that their fees be included
                              in the discount point limit.
                            Ø Permit the lender to charge a fee for a preliminary search to confirm the
                              previous ownership of properties. We believe permitting such a fee is unneces-
                              sary as it duplicates services performed during the title examination.

                                The Office of Housing addressed our comments by deleting the section
                            covering points and fees. We lifted our nonconcurrence on December 13, 2000;
                            however, at the close of this semiannual reporting period, the proposed rule had
                            not been issued.

 Nonprofit Organization          This proposed rule would establish regulatory approval and removal proce-
Participation in Certain    dures for HUDs nonprofit roster. This roster lists the nonprofit organizations that
     FHA Single Family      have been approved by HUD to participate in certain FHA single family activities,
                            including acting as a mortgagor, purchasing HUD homes at a discount, providing
Activities - Approval and   secondary funding, and providing down payment assistance in the form of gifts to
    Removal Procedures      mortgagors.
                                 We nonconcurred with this proposed rule because gifts by nonprofit organiza-
                            tions, provided as a part of a down payment assistance program, must comply
                            with FHA policies for gifts by charitable organizations. In addition, the proposed
                            rule should restrict the nonprofits activities to those specific activities approved in
                            its application. Also, the rule should provide additional information on conditional
                            approval and how those conditions will be monitored.
                                 As of the close of this semiannual reporting period, the proposed rule had not
                            been issued.
                                           Notices
  Prepayment of Direct        This proposed Notice would clarify guidance on the prepayment of Section
 Loans on Section 202     202 or 202/Section 8 direct loans for borrowers and Multifamily Hub/Program
                          Center staff. It also included underwriting guidelines where the borrower is
and 202/8 Projects with
                          proposing to use FHA mortgage insurance to refinance the Section 202 direct
     Inclusion of FHA     loan.
   Mortgage Insurance         We nonconcurred with this Notice because it did not provide assurance that
             Guidelines   rents for refinanced Section 8 projects would be limited to comparable market
                          rents in the area. This would help to ensure the reasonableness of subsidies paid
                          by HUD. Also, the Notice did not include adequate provisions to ensure that
                          owners do not gain control of residual receipts and replacement reserve funds
                          when project mortgages are prepaid, at the expense of adequate repair and
                          maintenance of the projects. When projects are in a state of disrepair, reserve
                          accounts should be placed in escrow to ensure that funds are not inappropriately
                          transferred to property owners. Additionally, for mortgage prepayments that
                          require HUD approval, we recommended an examination to identify any monies
                          owed HUD as a result of settlement agreements, judgments, or fines imposed as a
                          result of enforcement actions.
                              The Office of Multifamily Housing revised the Notice and added a require-
                          ment that owners use reserve funds on hand at the time of prepayment notification
                          to address any deferred maintenance and expenses or capital replacements at the
                          project, as required by Section 8 regulations, the projects Regulatory Agree-
                          ment, or the Section 8 Housing Assistance Payment contract. The Notice was
                          issued on December 11, 2000.

  Multifamily Housing          This Notice would announce HUDs funding for the Multifamily Housing
  Rehabilitation Loan     Rehabilitation Loan Program for Capital Repairs. The purpose of the program is
                          to address the rehabilitation and repair needs of aging projects that do not have the
  Program for Capital     financial resources available to address those needs. We nonconcurred with this
               Repairs    Notice because of concerns with its eligibility requirements, proposed program
                          requirements, use of funds, use agreements, the application review process,
                          selection procedures, monitoring, and reporting.
                               The eligibility requirements state that owners may not have engaged in
                          material adverse financial or managerial actions or omissions with regard to the
                          project. More specific guidance should be provided on the definition of mate-
                          rial. This statement is broad in nature and could result in inconsistent application
                          of the standard. We were particularly concerned about owners that have taken
                          surplus cash distributions from the project when the project was in need of repair
                          of rehabilitation.
                               The proposed program requirements state that the owners must agree to keep
                          the project in decent, safe, sanitary condition. We recommended that this older
                          property maintenance standard be replaced with HUDs current Uniform Physical
                          Standards.
                               The section defining allowable use of funds states that awards are a one-time
                          funding opportunity for the proposed rehabilitation, and that applicants may not
                          request additional funds from the Department at a later date to cover unforeseen
                          expenses. While we agree with this policy, it lacks provisions on how uncompleted
                         work will be funded. Absence of such provisions may jeopardize the completion
                         of projects. We recommended that owners be required to guarantee completion of
                         planned work.
                              Each application receives a preliminary review by the applicable field office
                         to determine acceptability. This includes a review of the management agents
                         performance. We recommended that the field office be required to perform a
                         management review when the management information file for the project does
                         not exist or is outdated, so an informed judgment may be made on the acceptabil-
                         ity of the owner or agent.
                              According to the current selection procedures, funding is awarded on a first
                         come, first serve basis after the threshold score is met. We recommended using a
                         selection process that gives preference to projects that have more than 50 percent
                         of the project occupied by very low-income residents, and are located in housing
                         markets or sub-markets in which there is not sufficient habitable affordable rental
                         housing.
                              Factors for making awards gives a maximum of 20 points for a favorable Real
                         Estate Assessment Center inspection score. A low score is an indication of the
                         need for repairs and maintenance. We recommended that point deductions be
                         made for low scores if the owner contributed to physical deficiencies because of
                         poor management. Also, the applicants capacity and the tenants evaluation of
                         managements performance should be considered in evaluating the applicants
                         performance and capabilities.
                              Finally, the Notice makes on-site inspections of rehabilitation work optional
                         for HUD staff. Effectively monitoring the owners progress in performing rehabili-
                         tation work without on-site inspections is virtually impossible. Absent this control,
                         the program is subject to substantial fraud and abuse. We recommended that the
                         Notice be revised to include procedures for performing independent inspections to
                         monitor progress, and ensure that funds are being used as intended.
                              While the Office of Housing agreed with our comments, the Notice had not
                         been issued as of the close of this semiannual reporting period.

Health Care Facilities        OIG nonconcurred on the proposed Notice for the Section 232 Health Care
                         Facilities Program. Proposed changes involved eligibility requirements, lease
                         arrangements, and underwriting terms and processing procedures. Large and
                         mid-size portfolios, with 11 or more projects, would be required to undergo
                         additional levels of review. To minimize the chance of an owner/operator placing
                         an undue risk on the FHA insurance fund by packaging a group of projects with
                         inordinately high mortgages, but under the 50 project limit, we recommended the
                         additional review also be required for owners/operators who submit mortgages
                         that exceed the average aggregate mortgage amount for Section 232 projects.
                              The Notice also allowed mortgages to be processed under the procedures for
                         Multifamily Accelerated Processing (MAP). Considering the health care
                         industrys financial uncertainty, and HUDs lack of experience with MAP lenders to
                         this point, especially with a program requiring specialized skills such as health
                         care facilities, we recommended that portfolio transactions be fully processed
                         using HUD staff.
                              The credit analyses provided for in the Notice were quite comprehensive and
                         should provide for a better assessment of Section 232 loans than in the past,
                         especially utilizing the expertise of Wall Street firms. However, we suggested the
                         analyses be strengthened from the standpoint of evaluating owners/operators
                              past performance in providing quality care nursing home facilities. This should
                              include examining: (1) the owners/operators compliance with federal care
                              standards, in particular those of the Health Care Financing Administration, and
                              including federally imposed fines; (2) complaints filed with state regulators in the
                              Department of Consumer and Industry Service (or like agencies), including state
                              imposed fines; (3) investigations by the States Attorney General; and (4) use of
                              related management companies, identity-of-interest consulting, and administra-
                              tion fees.
                                  While the Office of Housing agreed with our comments, the Notice had not
                              been issued as of the close of this semiannual reporting period.



                         Notices of Funding Availability

Service Coordinators in     This Super Notice of Funding Availability (SuperNOFA) would announce the
  Multifamily Housing   availability of HUD program funds for 39 grant categories, provide application
                              procedures, and describe requirements applicable to grant programs. The Ser-
                              vice Coordinator Program provides funding for employment and support of
                              coordinators responsible for assisting elderly and disabled residents in obtaining
                              the supportive services needed to live independently.
                                  We nonconcurred with this SuperNOFA because it deleted the requirement that
                              project owners have no outstanding contractual or regulatory violations in order to
                              be eligible to receive funding. We recommended that this requirement be rein-
                              stated to reaffirm HUDs policy of zero tolerance for program abuse and viola-
                              tions. The Office of Multifamily Housing revised the SuperNOFA to address our
                              comments, and included a requirement that, to be eligible for grant funds, appli-
                              cants must be in compliance with their Regulatory Agreements, Housing Assis-
                              tance Payments contracts, and other applicable directives.
                                  The Department issued the SuperNOFA on February 26, 2001.

     Lead-Based Paint     This SuperNOFA would assist states, Indian Tribes, and local governments in
 Hazard Control Grant undertaking comprehensive programs to identify and control lead-based paint
                      hazards in eligible privately owned rental housing or housing partnerships with
             Program owners and occupants.
                                  We nonconcurred with this SuperNOFA because its ranking and rating proce-
                              dures would allow applications to be advanced if their program provides lead
                              hazard control services to populations or communities that have a high need. This
                              would be inappropriate because need for the project is one of the factors consid-
                              ered during the initial rating and ranking process. Thus, projects with high need
                              should have already been awarded higher points during this review. Advancing
                              projects based on need after the ranking and rating process, without a clear
                              standard for such action, may increase the risk of bias.
                                  The Office of Healthy Homes and Lead Hazard Control deleted the provision
                              to advance projects based on high need and issued the SuperNOFA on February 26,
                              2001.
            Community             This SuperNOFA would provide funds for four separate community develop-
 Development Technical        ment technical assistance programs. We nonconcurred with the SuperNOFA
                              because it identified incarcerated populations as one of the underserved popula-
   Assistance Programs,       tions to be targeted for funding under the grants national objectives. Also, the
      HOME Program,           SuperNOFA did not include procedures to ensure fair selection of proposals for
McKinney Act Homeless         funding in the event none of the applications adequately addressed the Housing
         Assistance, and      Opportunities for Persons with AIDS technical assistance programs national goal.
 Housing Opportunities            The Office of Community Program Development revised the SuperNOFA to
                              target post incarcerated, rather than incarcerated persons for funding. The Office
 for Persons with AIDS        deleted the section allowing HUD to make awards to applicants who did not make
                              the minimum score or meet national objectives. The SuperNOFA was issued on
                              February 26, 2001.

 Housing Opportunities     This SuperNOFA would provide states and localities with the resources and
 for Persons with AIDS incentives to devise long-term comprehensive strategies for meeting the housing
                              and related supportive service needs of persons and families of persons with HIV/
                              AIDS.
                                  We nonconcurred with this SuperNOFA because it identified incarcerated
                              populations as being underserved. However, those populations do not qualify as
                              eligible persons as defined by the Cranston-Gonzalez National Affordable
                              Housing Act.
                                  The Office of Community Program Development revised the SuperNOFA to
                              state that applicants should target post incarcerated, rather than incarcerated
                              persons for services, and issued the SuperNOFA on February 26, 2001.

    HOPE VI Program                This SuperNOFA would announce funding availability for HOPE VI Revitaliza-
                              tion grants. The purpose of these grants is to help public housing agencies improve
                              the living environment for residents, revitalize public housing sites, build sustain-
                              able communities, and provide housing that will avoid or decrease the concentra-
                              tion of very low-income families.
                                   We nonconcurred with this SuperNOFA because it did not provide a maximum
                              cost per unit for demolition grants. Also, the SuperNOFA states that eligible
                              activities include replacement homeownership assistance to public housing
                              residents and other low-income families. Section 24(a)(1) of the Housing Act of
                              1937 states that the purpose of the assistance is to improve the living environment
                              for public housing residents. The Act makes no mention of assistance to low-
                              income families.
                                   The Office of Urban Revitalization revised the SuperNOFA to incorporate a
                              threshold of $5,000 per unit for demolition grants and deleted the paragraph
                              stating that assistance may be provided to low-income families. The SuperNOFA
                              was issued on February 26, 2001.

Fair Housing Initiatives           This SuperNOFA would announce funding availability for the Fair Housing
                              Initiatives Program. The purpose of the program is to increase compliance with
                              the Fair Housing Act, as well as substantially equivalent state and local fair
                              housing laws. We nonconcurred because this SuperNOFA would allow fair housing
                              enforcement organizations to participate in this initiative for 5 years, without
                              regard to annual performance. Guidance in 24 CFR 125.50 states that assistance
                              may be provided on a single-year or multi-year basis, contingent upon annual
                              performance reviews and annual appropriations.
                                   The Office of Fair Housing and Equal Opportunity revised this section of the
                              SuperNOFA and stated that organizations will be allowed to participate in this
                              initiative for 3 years, contingent upon satisfactory annual performance reviews.
                              We removed our nonoccurrence and the SuperNOFA was issued on February 26,
                              2001.

   Rural Housing and     The purpose of the Rural Housing and Economic Development Program is to
Economic Development build capacity at the state and local level for rural housing and economic develop-
                              ment, in consultation with the U.S. Department of Agriculture. We nonconcurred
                              with this SuperNOFA because it sought to provide assistance to communities other
                              than those designated as eligible by the Cranston-Gonzalez National Affordable
                              Housing Act. Also, the SuperNOFA would allow applicants to be eligible for
                              funding, even if up to 50 percent of the applicants proposed activities were
                              determined to be ineligible.
                                  The Office of Community Program Development deleted the provision to
                              provide assistance to communities not specifically authorized by the Cranston-
                              Gonzalez National Affordable Housing Act. Also, the initial screening require-
                              ments were revised to state that applicants may not propose significant ineligible
                              activities, and provided examples of such activities. The SuperNOFA was issued on
                              February 26, 2001.


                                Other HUD Directives

     Section 8 Renewal             This Guide would consolidate prior policy on the Section 8 Program, making
  Policy - Guidance for       the policy more effective and accessible to HUDs partners. The Guide would
                              apply to all multifamily housing projects with expiring Section 8 assistance
the Renewal of Project-       contracts. The Multifamily Assisted Housing Reform and Affordability Act of
        Based Section 8       1997 requires that Section 8 rents, to the extent possible, be comparable to
              Contracts       unsubsidized rents in the area where the projects are located. To preserve afford-
                              able housing, the Guide would make all surplus cash available for distribution to
                              project owners who are participating in the Mark-Up-To-Market initiative (an
                              initiative to adjust housing to market prices). Also, the Guide allows Sections 8
                              contracts for debarred and suspended owners to be renewed, provided that the
                              projects for which the contracts are being renewed are adequately managed and
                              maintained, and activities at those projects were not the cause of the administra-
                              tive actions against the owner.
                                   We nonconcurred with this Guide because it may encourage project owners to
                              overestimate expenses in order to accumulate a greater year-end surplus, which
                              may later become available for distribution. We recommended that restrictions be
                              implemented to prohibit distributions for projects that are not in compliance with
                              Uniform Physical Standards, or have exigent health and safety violations. We
                              recommended that similar standards be used to evaluate Section 8 contract
                              renewals of debarred owners.
                                   The Department initiated revisions to address our suggestions, but the Guide
                              had not been issued as of the close of this semiannual reporting period.
          Departmental             This memorandum proposed that the function of the Departmental Enforce-
   Enforcement Center,         ment Center be expanded to include investigative activities, including investiga-
                               tions across the full spectrum of HUD programs that may result in civil and/or
 Addition of Function -        administrative actions, judgments, sanctions and/or management decisions. The
Organizational Changes         memorandum also proposed to reorganize the organization to carry out the
                               proposed functions.
                                   We nonconcurred with the proposal because the Inspector General Act of
                               1978, Title 5 United States Code, Appendix 3, assigns all audit and investigative
                               resources under the direction of the Inspector General. The Act also requires that
                               allegations of fraud, waste, abuse, and mismanagement related to Departmental
                               programs and operations be made directly to the Office of Inspector General.
                                   This memorandum had not been issued as of the close of this semiannual
                               reporting period.

             Amended               This proposed reorganization would refocus the Office of the Comptroller
Reorganization - Office        activities to comply with recent changes in federal accounting policy. The reorga-
                               nization would allow budgetary accounting at the transaction level and enhance the
   of Housing-Federal
                               Comptrollers ability to report and be audited under federal basis accounting
Housing Administration         principles.
           Comptroller             We nonconcurred with this proposed reorganization because it identifies
                               performing internal audits as one of the primary functions of the Management
                               Controls Branch. Based on the Inspector General Act of 1978 and legal opinions
                               issued by the Department of Justice, the Office of the Inspector General is the
                               only entity within the Department authorized to conduct internal audits.
                                   Our nonconcurrence remained open at the end of this semiannual reporting
                               period.

        Realignment of             We reviewed seven proposed reorganizations affecting information and
Information Technology         technology support services, functions, and staff. We nonconcurred with those
      Support Services -       reorganizations because they would result in system development functions being
                               moved into program offices, rather than the Office of the Chief Information
    Functions and Staff        Officer. As noted in our recent audit reports, we believe fragmented control of
                               information technology development resources is a contributing cause to ongoing
                               system weaknesses.
                                   The Department had not responded to our comments as of the end of the
                               semiannual reporting period. However, the Office of Administration issued a
                               memorandum on March 26, 2001, stating that recent and pending reorganizations
                               will be reviewed to ensure that they are consistent with the priorities of the new
                               Presidential Administration.
                                   The reorganizations had not been completed as of the end of the semiannual
                               reporting period.

Results of FHAs Fraud      This Mortgage Letter would outline the actions FHA has taken to combat
        Protection Plan predatory lending involving FHA loans and information learned from the initiative.
                                   We nonconcurred with the Letter because it recommended a specific com-
                               mercial software product. Since the referenced product is a paid subscriber
                               service and there are many other available sources for the same information,
                               some at no cost, it is inappropriate for the government to promote a specific
                               product. This Mortgagee Letter had not been issued at the end of the semiannual
                               reporting period.
  Government National      This memorandum provides the proposed reorganization plan for GNMA. The
  Mortgage Association plan provides recommendations regarding staffing levels to support existing
                       programs and to respond to changes in the mortgage market. We nonconcurred
(GNMA) Reorganization with the proposed reorganization because of plans to establish an office within
                 Plan GNMA to handle the Community Development and Economic Development (CD/
                              ED) initiative.
                                  We believe that establishing another Office of Community Development is
                              unnecessary and duplicates functions previously established within the already
                              existing Office of Community Planning and Development (CPD). CPD administers
                              a variety of programs that help communities plan and finance their growth and
                              development. In addition, CPD coordinates community planning and development
                              efforts with other departments and agencies, other public and private organiza-
                              tions, private industry, financial markets, and international organizations. We
                              believe coordination between GNMA and CPD on GNMAs planned CD/ED initiative
                              would eliminate the need for a separate such office within GNMA and promote
                              more efficient utilization of the Departments limited resources.
                                  Our nonconcurrence remained open at the end of the semiannual reporting
                              period.

      Public and Indian            This proposed guidebook provides standard operating procedures for selecting
          Housing Drug        consultants who provide technical assistance. The purpose of the Public and
                              Native American Tribal Housing Drug Elimination Technical Assistance Program
  Elimination Technical       is to provide technical assistance from consultants to improve the administrative
     Assistance Program       effectiveness of drug elimination grants. The guidebook would apply to public
              Guidebook       housing agencies, Native American Tribal housing entities, resident management
                              corporations, and resident organizations.
                                   We nonconcurred with the issuance of this guidebook because our recent audit
                              disclosed serious weaknesses in the consultant selection process. Our audit
                              included 10 recommendations for correcting the weaknesses.
                                   HUD is currently revising the guidebook and will again request comments
                              when the revisions are complete.
Chapter 6
              Audit
            Resolution
                               In the audit resolution process, the OIG and HUD management come to an
                           agreement as to the needed actions and timeframes for resolving audit recom-
                           mendations. Through this process, we hope to achieve measurable improvements
                           in HUD programs and operations. The overall responsibility for assuring that the
                           agreed upon changes are implemented rests with HUD managers. This Chapter
                           describes some of the more significant pending issues where resolution action has
                           been delayed. It also contains a status report on HUDs implementation of the
                           Federal Financial Management Improvement Act of 1996. In addition to this
                           Chapter on audit resolution, see Appendix 2, Table A, Audit Reports Issued
                           Prior to Start of Period With No Management Decision at 3/31/01, and Table B,
                           Significant Audit Reports Described in Previous Semiannual Reports Where
                           Final Action Had Not Been Completed as of 3/31/01.


                                   Delayed Actions
Audits of HUDs FY      First issued June 30, 1992. HUD has been preparing financial statements
  1991 through 2000  under the requirements of the Chief Financial Officers Act for 10 fiscal years,
Financial Statements beginning with Fiscal Year (FY) 1991. Various internal control weaknesses have
                           been reported in these audits. In our most recent audit effort for FY 2000, we
                           were able to express an unqualified opinion on HUDs principal financial state-
                           ments.
                               The results of our FY 2000 report on internal controls were consistent with
                           results reported in Semiannual Reports from prior years. While there has been
                           progress, material weaknesses continue with respect to the need to: (1) complete
                           improvements to financial systems; (2) ensure that subsidies are based on correct
                           tenant income; and (3) improve monitoring of housing subsidy determinations. In
                           addition to the weaknesses that continue to exist from prior years, our report also
                           includes a material weakness about the need to enhance FHAs information
                           technology systems to more effectively support its business processes as well as
                           data integrity. Corrective action plans to resolve these issues have continued to
                           change over the last decade.

 Audits of FHAs FY      First issued March 27, 1992. FHA has been preparing financial statements for
  1991 through 2000  10 years under the Chief Financial Officers Act, beginning with FY 1991. The
                     audit of FHAs FY 2000 financial statements discussed problems similar to those
Financial Statements that have been reported since the audit of FHAs FY 1991 financial statements. The
                           audit continues to recognize that FHA needs to: (1) improve its information tech-
                           nology (primarily accounting and financial management systems) to more effec-
                           tively support FHAs business processes; (2) place more emphasis on early
                           warning and loss prevention for single family insured mortgages; and (3) monitor
                           and account for its single family property inventory. A weakness reported since
                           the FY 1992 financial statement audit relates to the need for FHA to enhance the
                           design and operation of information systems general and application level security
                           controls, which was expanded in FY 1999 and FY 2000 to include needed improve-
                           ments in data integrity. In FY 2000, FHA did resolve a material weakness (controls
                           over budgetary funds and funds control) and part or all of three reportable condi-
                           tions (the review process for estimating reserves for the insured portfolio; actions
                              to safeguard and quickly resolve Secretary held single family mortgage notes; and
                              early warning and loss prevention for multifamily insured mortgages).
                                  FHAs latest action plan continues to report efforts toward resolving these
                              long-standing issues. The FY 2001 financial statement audit will assess FHAs
                              accomplishments in correcting these conditions.

        Audits of Bond      Issued October 30, 1992, and April 30, 1993. In our Semiannual Report for
Refundings of Section 8 the period ending March 31, 1997, we disclosed that we had reopened several
               Projects recommendations   from these two reports because corrective actions were not
                        implemented. Almost 8 years have gone by since we first reported to HUD offi-
                              cials that some State Housing Finance Agencies (HFAs) were violating federal
                              regulations by collecting duplicate fees for administering Section 8 contracts.
                                   We reported that two of three HFAs reviewed were collecting duplicate fees.
                              The excessive fees for one of these HFAs amounted to over $640,000 for the 8-year
                              period covered by our audit. The Office of Housings current position is to prevent
                              HFAs from collecting both fees on future deals. HFAs will be allowed to continue
                              to collect duplicate fees on previous deals if they request a waiver and justify
                              keeping both fees. We believe it would be illegal to grant HFAs retroactive waivers
                              to keep fees inappropriately obtained from HUD. Also, allowing some HFAs to
                              collect and keep fees amounting to almost twice as much as those collected by
                              HFAs who abided by the regulations is inequitable and sends the wrong message to
                              those doing business with HUD. HFAs and other entities doing business with the
                              Department may conclude that overbilling for services will be overlooked or later
                              waived by HUD.
                                   Despite numerous attempts to have this issue resolved, including involvement
                              of the former Deputy Secretary, the Department is unwilling to require repayment
                              of the duplicate fees. HUD is of the view that the duplicate fees do not represent a
                              debt owed the government and allowing agencies to petition for a waiver of the
                              regulation is both fair and appropriate. OIG continues to maintain the position that
                              the dual fees are overpayments for the reasons originally cited in our 1993 audit
                              report and that the dual fees constitute a debt owed the government. HUD would
                              need to go to OMB or GAO for approval to write off collection of any dual fees
                              taken in excess of $100,000. On July 27, 2000, the OIG recommended that HUD
                              request a ruling from OMB or GAO to determine if the overpayments represent a
                              debt and are subject to debt collection rules. In September 2000, we were advised
                              that the Office of Housing would not request a ruling from OMB or GAO. Instead,
                              they planned to solicit agencies for petitions to waive the regulations.
                                   The OIG informed the former Deputy Secretary that we are not in agreement
                              with the Office of Housings plans and on December 15, 2000, we referred this
                              matter to the Comptroller General for a ruling. We are still awaiting that deci-
                              sion. (Report Nos. 1993-HQ-0004 and 1993-HQ-0013)

   Section 236 Program       Issued December 21, 1994. A multi-district audit on the Section 236 Rental
  Excess Rental Income Housing Program found that HUD needed to pursue changes in calculating excess
                         income, HUD needed to take more aggressive action to collect about $14.9 million
             Collections in overdue excess income, and Section 236 projects owed HUD at least $829,000 in
                              unreported excess income. To resolve the audit recommendations, HUD issued
                              guidance and instructions to multifamily property owners.
                                   A March 1999 review of the corrective action taken found that HUD did not
                              satisfactorily implement 11 of the 17 recommendations. As a result, uncollected
                            reported excess income has increased from almost $15 million to over $18 million
                            through November 1998, and the number of missing excess income reports
                            increased from 10,000 to nearly 14,000. It is also likely the amount of unreported
                            and uncollected excess income has increased. In June 1999, in response to our
                            corrective action review, the former General Deputy Assistant Secretary for
                            Housing provided an action plan to resolve all recommendations by September
                            2000. However, in May 2000, the Office of Housing informed OIG that it planned
                            to re-visit the issues and develop a revised action plan with revised target dates for
                            final action. The OIG never received a revised action plan and the recommenda-
                            tions remain unresolved over 6 years after our original report.
                                 Delays in taking corrective action further increase the amount of uncollected
                            reported excess income, the number of missing excess income reports, and the
                            amount of unreported and uncollected excess income. In an attempt to bring these
                            matters to closure, in March 2001, the OIG requested the General Deputy Assis-
                            tant Secretary for Housing to provide a revised action plan with revised target
                            dates for final action to resolve the conditions found. (Report Nos. 1995-SF-0001
                            and 1999-SF-0801)

    Section 108 Loan   Issued November 17, 1997. We reviewed complaints received from the Seattle
  Guarantee Program Displacement Coalition related to the City of Seattles Section 108 loan guarantee
                            for acquisition of the Frederick and Nelson building. We identified programmatic
                            issues relating to the need for full disclosure of activities undertaken. This disclo-
                            sure should be made to citizens and in Section 108 applications. To address these
                            issues, we recommended that HUD define and clarify disclosure requirements for
                            the program.
                                 In January 1998, HUD management told the OIG they would take appropriate
                            action to correct the identified deficiencies. Over 3 years have passed since OIG
                            concurred with managements decision to address the above program deficien-
                            cies. The planned actions are currently over 2 years overdue. Since January 1999,
                            OIG staff has made numerous requests to HUD officials to complete actions to
                            resolve the audit. In October 2000, we advised the former Assistant Secretary
                            that actions were long overdue. Beginning in January 2001, with the change in
                            Administration, we have worked closely with the Office of Community Planning
                            and Development. It was agreed that a Notice to program participants would be
                            issued to address our recommendations. The Notice is currently being prepared
                            and it is anticipated that it will be issued in May 2001. (Report No. 1998-SE-0001)

 Housing Authority of    Issued April 23, 1998. Between 1994 and 1996, the Tampa Housing Authority
the City of Tampa, FL (THA) awarded at least 81 construction contracts totaling almost $27 million
                            without competitive bidding and to unqualified resident owned businesses. We
                            recommended that THA repay $1.9 million in ineligible costs, representing costs
                            exceeding the lifetime limit on contracts to residents and contract awards exceed-
                            ing cost estimates.
                                In October 1998, the Florida State Office of Public and Indian Housing (PIH)
                            and OIG agreed that THA should repay $1.2 million to its Comprehensive Grant
                            Program (CGP). Final actions were to be completed by October 1999. In August
                            2000, the Florida State Office requested that the OIG agree to a write-off of about
                            $1 million because THA did not have non-HUD funds to reimburse the CGP. The
                            State Office indicated that THA would repay the remaining amount of about
                              $200,000 from non-HUD funds. We disagreed with the proposed write-off because
                              we were aware of an April 19, 2000 letter from THAs attorney to the PIH Direc-
                              tor in Miami which showed that THA had an additional $900,000 in non-HUD
                              funds. We advised PIH of the letter and the existence of the additional non-HUD
                              funds that THA could use to reduce the ineligible costs. In December 2000, PIH
                              instructed THA to use the additional $900,000 to reduce the ineligible costs.
                                   On February 26, 2001, the Florida State Office advised us that they no longer
                              agreed that additional funds in THAs possession were non-federal funds and
                              should be used to repay ineligible costs. We reiterated our position that the funds
                              were non-HUD funds that could be used to reduce the ineligible costs. We will
                              refer this issue to the Assistant Secretary for Public and Indian Housing for
                              resolution. (Report No. 1998-AT-1005)

          Section 203(k)   Issued February 6, 1997. Our nationwide review of the Section 203(k) Pro-
Rehabilitation Mortgage gram disclosed numerous abuses by investors and a very high rate of default on
   Insurance Program their loans. Because of the serious potential drain on the insurance fund, we
                              recommended that HUD no longer allow investors to participate in the program.
                                  Instead of permanently removing investors from the program, HUD placed a
                              temporary moratorium on investor participation. On June 9, 1997, this matter
                              was referred to the former Deputy Secretary. On February 2, 1998, the former
                              Deputy Secretary decided to maintain the suspension on investor participation, but
                              postponed the decision to permanently ban investors from the program until HUD
                              decided whether to implement a new rehabilitation program. While we believe
                              HUD should permanently ban investors from the 203(k) Program, as it had done in
                              other single family programs, the suspension was an acceptable interim solution.
                                  In January 2001, Office of Housing staff explained that they are committed to
                              maintaining the ban on investor participation. First, the Mortgagee Letter banning
                              investor participation remains in effect indefinitely. Investors will not be able to
                              participate in the program in the future unless a new Mortgagee Letter is issued.
                              Second, the Office of Housing has changed their systems so that they will not
                              permit investor loans. Since it would not be a simple effort to allow investors into
                              the program in the future, we closed all the audit recommendations. We plan to
                              conduct a corrective action verification of actions taken to address our audit
                              recommendations. (Report No. 1997-AT-0001)

Section 203(k) Program    Issued August 27, 1997. HUDs procedures for approving consultants and
           Consultants consultant trainers for the Section 203(k) Program were not properly documented
                              and resulted in inconsistent decisions by HUD Headquarters and Field Office
                              staffs. The former Assistant Secretary for Housing/Federal Housing Commis-
                              sioner proposed to develop a certification examination for 203(k) consultants
                              which would be administered by a HUD approved testing organization. The im-
                              provements were to be completed by January 1999. On July 26, 2000, the Office
                              of Housing issued Mortgagee Letter 00-25. According to the letter, HUD was
                              developing a formal examination process during FY 2001 similar to the test FHA
                              appraisers now complete. During this reporting period, HUD implemented the
                              process completing all necessary actions. To assure that the actions are effective,
                              we plan to conduct a corrective action verification of the actions taken. (Report
                              No. 1997-AT-0803)
          Section 203(k)     Issued May 1, 1998. Our audit of the Section 203(k) Program as it pertains to
Rehabilitation Mortgage owner/occupant borrowers found incomplete and poor rehabilitation work even
                         though inspectors had certified the work was properly completed. As a result,
   Insurance Program HUDs risks were increased and borrowers living conditions were poor. The
                               Office of Housing drafted a Mortgagee Letter requiring lenders to field review
                               the final inspection report for a sample of lenders loans. We concurred in the
                               proposed corrective action and a January 1999 draft Mortgagee Letter. The
                               Office of Housing issued a Mortgagee Letter that placed additional responsibili-
                               ties on lenders to assure that inspectors were performing properly, closing all
                               recommendations in the report. We plan to conduct a corrective action verifica-
                               tion to determine whether the actions taken have been effective. (Report No.
                               1998-AT-0002)

San Francisco Housing     First issued July 22, 1998. An audit of the San Francisco Housing Authority
       Authority Drug Drug Elimination Program found weaknesses in the procurement process, a lack
                      of adequate cost analyses, and fixed-price elements in contracts that should have
  Elimination Program been entirely cost reimbursable. In some cases, written contracts were not
                               executed. These weaknesses resulted in excessive and unsupported costs, which
                               potentially could lead to disputes with contractors as well as give the appearance
                               of favoritism. Corrective action was to include centralization of procurement
                               activities, training of staff, and revision of procurement procedures.
                                    Based on assurances and documentation provided by the Housing Authority,
                               the Memphis Troubled Agency Recovery Center (TARC) was prepared to consider
                               action completed in September 1999. However, the OIG advised the TARC that an
                               ongoing audit of the Housing Authority showed that actions were not complete.
                               Our March 31, 2000 audit report on contracting practices, conducted in conjunc-
                               tion with our audit of the Authoritys Low-Income Housing Program, noted
                               continuation of the same or similar deficient procurement practices. Accordingly,
                               the TARC did not close the recommendations.
                                    The TARC engaged a consulting firm to evaluate even more recent procure-
                               ment activities. That study showed a continuation of poor procurement practices.
                               We are working with the TARC to determine, by May 2001, what additional
                               corrective action needs to be taken. (Report No. 1998-SF-1003)

 City of Lynwood, CA -              Issued August 19, 1999. The City of Lynwood could not demonstrate its
            Community          compliance with CDBG requirements for activities administered by subgrantees.
                               The subgrantees operated a community based program which provided business
     Development Block
                               training and incubator space for the benefit of low- and moderate-income resi-
Grant (CDBG) Program           dents of the City of Lynwood. The training component included businesses outside
                               of the grantees City limits. However, the City could not provide documentation to
                               support the number of jobs for low- and moderate-income persons created or
                               retained, or document future benefits accruing to its residents from training
                               businesses located outside City limits. We recommended HUD require the grantee
                               to: (1) submit documentation establishing the eligibility of nearly $659,000 paid
                               for job creation and retention activities; (2) submit documentation establishing the
                               eligibility of over $73,000 paid for business trainees located outside of the
                               grantees City limits; and (3) return to its letter of credit, from non-federal funds,
                               the amount the grantee is unable to support. In December 1999, the Los Angeles
                               Office of Community Planning and Development (CPD) agreed with our recom-
                               mendations and agreed to complete actions by October 31, 2000.
                                    In November 2000, the Los Angeles Office of CPD requested revised manage-
                              ment decisions. The local office agreed that the City could not support job cre-
                              ation/retention and area benefit activities. However, they concluded that the Citys
                              program benefited low- and moderate-income persons. Therefore, it would not be
                              necessary for the City to repay the program. The basis for the local offices
                              decision was that a legitimate business training activity occurred and businesses
                              that received CDBG assistance obtained business licenses in the City. Further, the
                              businesses were located in an area with 57 percent low-income households and
                              jobs created were primarily low-paying.
                                    We disagreed with the Los Angeles Office of CPD and referred the matter to
                              the Acting General Deputy Assistant Secretary for CPD for decision in February
                              2001. In our opinion, the CDBG regulations are very specific in requiring that
                              CDBG funding may be used for the type of activity carried out by subgrantees only
                              if it creates or retains permanent jobs for low- and moderate-income persons. We
                              are currently working with Headquarters to resolve the matter. If agreement
                              cannot be reached, we will refer the matter to the Deputy Secretary in May 2001.
                              (Report No.1999-SF-1003)

HUDs Oversight of the   Issued March 30, 1999. HUD did not have an adequate system of oversight and
  Empowerment Zone control for the Empowerment Zone Program. Specifically, HUD did not effec-
             Program tively assess the progress and status of empowerment zones, confirm whether the
                              use of empowerment zone funds was appropriate or complied with cities strate-
                              gic plans, or ensure the accuracy of performance reviews submitted by cities. As
                              a result, HUD did not detect inefficient and ineffective uses of empowerment zone
                              resources and empowerment zone benefit achievements were overstated. In 1999,
                              HUD agreed a to develop procedures to improve the oversight and control of the
                              Empowerment Zone Program by March 2000.
                                  HUD did not meet the March 2000 completion date because the former
                              empowerment zone coordinator did not take action on the recommendations.
                              Based on the OIGs discussions with the Office of CPD, the CPD Comptroller
                              started taking action on the recommendations in February 2001. It is now antici-
                              pated that all actions will be completed by July 2001. (Report No. 1999-CH-0001)

City of St. Louis, MO - Issued September 28, 1999. The audit found that a special economic develop-
        CDBG Program ment activity totaling approximately $700,000 did not meet a national objective of
                              the Housing and Community Development Act. The project was intended to meet
                              the national objective of benefiting low- and moderate-income persons with an
                              eligible activity of job creation. The audit found that the City created no jobs for
                              low- and moderate-income persons. In January 2000, HUD agreed with our
                              recommendation. The City would need to demonstrate that the activity met
                              another national objective or repay the amount of ineligible assistance. Actions
                              were to be completed by January 2001.
                                   Subsequent to the audit, the City changed the national objective to an activity
                              to aid in the prevention or elimination of slums or blight. However, the City has
                              produced no documentation to support that the area of the activity was deteriorat-
                              ing, declared a slum or blighted area, or that there were conditions existing in the
                              building that would qualify it as spot blight. Nonetheless, in March 2001, the
                              Office of CPD advised they consider the project to meet the national objective of
                              prevention or elimination of slums or blight. On March 16, 2001, we advised the
                          Acting General Deputy Assistant Secretary that we disagreed with their position
                          and requested a meeting to discuss the issue. If agreement cannot be reached, we
                          will refer the matter to the Deputy Secretary in May 2001. (Report No. 1999-KC-
                          1002)

 Initial Development           Issued November 1, 1999. HUD has changed its development solution for the
        Efforts of the    new Departmental Grants Management System (DGMS) from a combined expan-
                          sion of existing systems to a custom development solution. In September 1998, the
Departmental Grants
                          financial systems integration team, under the HUD Chief Financial Officer,
Management System         completed a feasibility study, which concluded that the custom development
                          solution was the most expensive and risky solution. The Department disagreed
                          with four of the five recommendations in our audit report. In two responses, dated
                          January 3, 2000, and June 26, 2000, the Department refused to: (1) assign full
                          project responsibilities to the Chief Information Officer; (2) perform new feasi-
                          bility studies, including a cost-benefit analysis of technical alternatives; (3) curtail
                          further development until the recommended studies are completed; and (4)
                          involve experienced grantees to assist the Department in developing a new grants
                          management system.
                               Subsequent to our review, on June 22, 2000, the former Deputy Secretary
                          announced that due to contractor non-performance, development for Phase I of
                          DGMS had been suspended. HUD became concerned that delays in correcting
                          software defects and the software development approach being employed would
                          neither provide a high level of grant program functionality nor meet the needs of
                          our business partners on a consistent basis. DGMS costs through June 30, 2000,
                          totaled $5.3 million.
                               In a memorandum dated August 25, 2000, we again requested the former
                          Deputy Secretary to reconsider the Departments position on the disagreed
                          recommendations. The former Deputy Secretary informed us on September 29,
                          2000, that he had initiated a review of the issues we raised. He indicated that the
                          review should be completed by October 16, 2000, and that he would, at that time,
                          be prepared to discuss our request for the reconsideration.
                               In December 2000, the former Deputy Secretary provided an updated re-
                          sponse to the four recommendations, reaching the decision that no further action
                          was needed to address the recommendations. On January 10, 2001, HUD signed a
                          contract with a new contractor to develop DGMS, and the contractor began devel-
                          opment work on January 17, 2001. In our opinion, the former Deputy Secretarys
                          response did not effectively address our recommendations. By not implementing
                          our recommendations, HUD may be embarking on an expensive and costly system
                          development solution. Because of this concern, in a March 26, 2001 memoran-
                          dum, we requested the current Administration to reconsider the issues raised in
                          the audit. (Report No. 2000-DP-0002)

      Down Payment      Issued March 31, 2000. We reported that HUD allowed nonprofit organizations
Assistance Programs to operate down payment assistance programs that circumvent FHA requirements.
                          The down payment loan transactions do not meet the intent of FHA requirements
                          in that the down payment assistance is not a true gift because the seller reim-
                          burses the nonprofit for the assistance. Audit results indicate that default rates for
                          buyers receiving down payment assistance from nonprofit organizations are
                          significantly higher than for other FHA loans. Also, some sellers have raised the
                          sales prices of properties to cover the cost of the down payment assistance pro
              grams, causing buyers to finance higher loan amounts. The circumvention of FHA
              requirements occurred because HUD did not have an established process or
              specific criteria to evaluate these programs.
                   During the audit, HUD issued a proposed rule for comment which would
              preclude down payment funding derived from the sellers of single family proper-
              ties, either directly or indirectly. The audit provided evidence supporting HUDs
              proposed rule. After the audit was issued, the former Assistant Secretary for
              Housing decided not to issue a final rule to implement the provisions of the
              proposed rule.
                   We referred the recommendations to the former Deputy Secretary on Octo-
              ber 24, 2000, after being unable to reach agreement on the recommendations
              with the former Assistant Secretary. We did not receive a response from the
              former Deputy Secretary. In March 2001, the current Administration advised the
              OIG that they are reexamining the entire issue of down payment assistance.
              (Report No. 2000-SE-0001)


Federal Financial Management Improvement Act of 1996
                      (FFMIA)
                   FFMIA requires that HUD implement a remediation plan that will bring
              financial systems into compliance with federal financial system requirements
              within 3 years or obtain OMBs concurrence if more time is needed. FFMIA
              requires us to report, in our Semiannual Reports to the Congress, instances and
              reasons when an agency has not met the intermediate target dates established in
              the remediation plan required by FFMIA. In April 1998, HUD determined that 38
              of its systems were not in substantial compliance with FFMIA. At the end of Fiscal
              Year 2000, the Department reported that 11 systems were not in substantial
              compliance with FFMIA. Our audit of HUDs FY 2000 financial statements cites
              additional financial management systems weaknesses which we reported as
              reasons for the Departments FFMIA noncompliance. These include noncompli-
              ance with: (1) federal financial management systems requirements; and (2) the
              standard general ledger at the transaction level. HUD has submitted plans to OMB
              to correct material system weaknesses with a target completion date of Decem-
              ber 31, 2005. Since the Department will not be in compliance by April 2001, HUD
              will need to obtain OMBs approval for additional time to comply with FFMIA.
U.S. Department of Housing and Urban Development
   Office of Inspector General
Semiannual Report to the Congress
   for the period ending March 31, 2001




    Appendices
                             APPENDIX 1 - AUDIT REPORTS ISSUED
                                                            for the period
                                           October 1, 2000 through March 31, 2001

                                                                   Internal Reports

     Housing                                                          Audit Reports

2001-FO-0002      Federal Housing Administration, Audit of FY 2000 Financial Statements, 03/01/01.

       PIH

2001-AO-0001      Drug Elimination Technical Assistance Program, 01/31/01.
2001-SE-0001      HUD Approval of a Student Housing Project for Cook Inlet, AK Housing Authority, 03/30/01.

       CPD

2001-NY-0001      Canal Corridor Initiative, HUD Administered Small Cities CDBG, Section 108 Loan Guarantee Programs, 03/30/01.

  Miscellaneous

2001-DP-0001      HUD Entity-wide Security Program, 10/31/00.
2001-DP-0002      HUDs Central Accounting and Program System (HUDCAPS), 02/27/01.
2001-FO-0001      Audit of GNMAs FY 2000 Financial Statements, 02/20/01.
2001-FO-0003      Audit of HUDs Fiscal Year 2000 Financial Statements, 03/01/01.
2001-FO-0004      Review of HUDs Internal Controls over Fiscal Year 1999 Annual Performance Data, 03/28/01.


  Single Family                                                   Audit-Related Memoranda

2001-AT-0801      Interim Results - Officer/Teacher Next Door Program, 02/14/01.

   Multifamily

2001-FW-0801      Rainbow Village Project, Review for Possible Program Fraud Civil Remedies Act Filing, Houston, TX, 11/24/00.
                                                                                                                                  APPENDIX 1

                                                          Internal Reports - continued

       PIH                                                Audit-Related Memoranda - continued

2001-PH-0802      Pittsburgh, PA Public Housing Divisions Environmental Assessment Determination of Joshua Meeks House, 03/30/01.

       CPD

2001-PH-0801      Project H.O.M.E., Supportive Housing Grants, Philadelphia, PA, 03/22/01.

  Miscellaneous

2001-DP-0801      Review of the Departments Internet Privacy Status, Pursuant to Requirements of the Treasury and General Government
                   Appropriations Act of 2001, 02/21/01.
2001-AO-0801      Fair Housing Initiatives Program National Focus Education and Outreach Competition, 02/13/01.
2001-AO-0802      Fair Housing Initiatives Program Grant Administration, 02/13/01.
2001-FO-0801      Independent Accountants Report on HUDs FY 2000 Accounting Submission Report, 02/01/01.



                                                                   External Reports

  Single Family                                                        Audit Reports

2001-BO-1002      Waller, Smith and Palmer, PC - HUD Closing Agent, New London, CT, 01/05/01.
2001-FW-1001      Albuquerque Title Company, Inc., Closing Agent Contract, Albuquerque, NM, 11/20/00. Questioned: $8,067; Unsupported:
                     $163.

   Multifamily

2001-BO-1001      Blue Hills Housing, Dorchester, MA, 10/24/00.
2001-BO-1003      Bowdoin Apartments, Malden, MA, 01/29/01.
2001-NY-1001      Bay Towers, Multifamily Mortgagor Operations, Far Rockaway, NY, 12/07/00. Questioned: $652,194; Unsupported: $575,194.
                                                                                                                             APPENDIX 1

                                                      External Reports - continued

        PIH                                                Audit Reports - continued

2001-AT-1001   City of Miami Beach, FL Housing Authority, 10/20/00. Questioned: $1,014,015; Unsupported: $1,004,748.
2001-AT-1003   Mobile, AL Housing Board, Procurement Operations, 11/21/00.
2001-AT-1005   Puerto Rico Public Housing Administration HOPE VI, Comprehensive Grant & Economic Development and Supportive Ser-
                   vices Programs, 03/30/01. Questioned: $16,027,917; Unsupported: $10,555,081; Better Use: $3,845,850.
2001-CH-1002   Muskegon, MI Housing Commission, Low-Rent Public Housing, Section 8 and SRO Programs, 11/29/00. Questioned:
                  $1,200,085; Unsupported: $64,222.
2001-CH-1003   Saginaw, MI Housing Commission, Low-Rent Public Housing, Section 8 and Drug Elimination Grant Programs, 01/04/01.
                  Questioned: $19,552; Unsupported: $7,982.
2001-CH-1004   Youngstown, OH Metropolitan Housing Authority, Comprehensive Audit, 03/09/01. Questioned: $19,840; Unsupported:
                  $8,210.
2001-CH-1005   London, OH Metropolitan Housing Authority, Safeguarding Monetary Assets and Inventory, 03/22/01. Questioned: $6,578.
2001-FW-1003   City of Uvalde, TX Housing Authority, Low-Rent Public Housing and Section 8 Programs, 12/18/00. Questioned: $339,508;
                  Unsupported: $13,082.
2001-KC-1001   Independence, MO Housing Authority, Internal Control Review, 10/24/00. Questioned: $879.
2001-PH-1002   Chester, PA Housing Authority, 02/15/01. Questioned: $34,365; Unsupported: $22,516.
2001-PH-1003   Housing Authority of Baltimore City, MD, Section 8 Certificate and Voucher Programs, 03/28/01. Questioned: $1,013,756;
                  Unsupported: $733,804.
2001-SF-1001   San Francisco, CA Housing Authority, Force Account Modernization Activities, Comprehensive Grant Program, 03/30/01.
                  Questioned: $355,473; Unsupported: $73,210.

       CPD

2001-AT-1002   Adopt-a-Family of the Palm Beaches, Inc., Supportive Housing Grant, West Palm Beach, FL, 11/03/00. Questioned: $88,741;
                   Unsupported: $88,741.
2001-AT-1004   Palm Beach County Division of Human Resources, Supportive Housing Grant, West Palm Beach, FL, 12/08/00. Questioned:
                   $32,103.
2001-CH-1001   City of Ironton, OH Community Development Block Grant Program, 11/16/00. Questioned: $534,540; Unsupported:
                   $167,945.
2001-DE-1001   Cheyenne, WY Office of Housing and Community Development, Homeowner Rehabilitation and First-time Homebuyer Assis-
                   tance Programs, 01/26/01.
2001-FW-1002   City of Dallas, TX, Continuum of Care Program, 12/13/00. Questioned: $56,471; Unsupported: $2,261.
2001-PH-1001   Philadelphia, PA Commercial Development Corporations Funding of the Urban Education Development Research and Retreat
                   Center Rehabilitation Project, Community Development Block Grant Program, 11/02/00.
                                                                                                                              APPENDIX 1


                                                       External Reports - continued

   Multifamily                                                Audit-Related Memoranda

2001-KC-1801     Metro Management Corporation, Overland Park, KS, 02/21/01. Questioned: $9,506.
2001-SF-1802     Fountain Park Cooperative, Inc., Audit of HUD Earthquake Loan Program Funds, Woodland Hills, CA, 02/08/01.


       PIH

2001-AT-1802     Procurement of the Kimberly Park HOPE VI Developer, City of Winston-Salem, NC Housing Authority, 01/04/01.
2001-BO-1801     Waterville, ME Housing Authority, 10/26/00.
2001-FW-1801     Dallas, TX Housing Authority, HOPE VI, Roseland Homes Revitalization, 10/10/00.
2001-PH-1801     Housing Authority of Baltimore City, MD, Thompson Court Decree, 01/24/01.


       CPD

2001-AT-1801     Municipality of Aguadilla, PR, Community Development Block Grant Program, 12/12/00. Questioned: $3,848,989.
2001-BO-1802     Department of Mental Health and Addiction Services, Continuum of Care Program, Hartford, CT, 01/05/01.
2001-CH-1801     Cuyahoga County, Cleveland, OH, Community Development Block Grant Program, Revolving Loan Fund, 01/10/01.
2001-FW-1802     Greater Dallas, TX Council on Alcohol & Drug Abuse, Supportive Housing Grant, 02/13/01. Questioned: $28,892; Unsup-
                    ported: $21,356.
2001-FW-1803     AIDS Foundation Houston, Inc., Supportive Housing Program Grant, Houston, TX, 03/09/01. Questioned: $69,369; Unsup-
                    ported: $27,203.
2001-SF-1801     Sacramento, CA Housing and Redevelopment Agency, Limited Review, 02/07/01. Questioned: $225,000; Unsupported:
                    $225,000.
2001-SF-1803     Los Angeles, CA Homeless Services Authority, El Monte Youth Development Center, Supportive Housing Program Grant,
                    03/23/01. Questioned: $656,845; Unsupported: $576,206.
                                                                                                                                      APPENDIX 2
                                                                 TABLE A
                                        AUDIT REPORTS ISSUED PRIOR TO START OF PERIOD                   WITH
                                              NO MANAGEMENT DECISION AT 03/31/01
                                      *Significant Audit Reports Described in Previous Semiannual Reports


                                                                                                                                  ISSUE DATE/
                                                                                                                                  TARGET FOR
       REPORT NUMBER & TITLE                                   REASON   FOR   LACK   OF   MANAGEMENT DECISION
                                                                                                                                  MANAGEMENT
                                                                                                                                    DECISION

*2000DP0002 Initial Development Efforts      Management decisions have not been reached on 4 of the 5 reported recommenda-          11/4/99
of the Departmental Grants Management        tions. The former Deputy Secretary provided an updated response in December            05/31/01
System.                                      2000, stating that no further action was necessary. Because this could be a costly
                                             decision for the Department, we requested the current Administration to recon-
                                             sider the decisions on the recommendations.

*2000AT1003 Puerto Rico Public Housing       Management decisions have not been reached on 10 of the 19 reported recommen-          03/6/00
Administration, Procurement Management,      dations. The issues were referred to the former Deputy Secretary in October 2000,      05/31/01
San Juan, PR.                                because agreement could not be reached with the former Assistant Secretary.
                                             However, the former Deputy Secretary did not make management decisions on the
                                             recommendations before leaving office. In February 2001, the Office of Public and
                                             Indian Housing provided documentation to the OIG to address all but 2 recom-
                                             mendations. Our review of the documentation will not be completed until May
                                             2001 because it is quite extensive. Management decisions on the remaining 2
                                             recommendations are being delayed until the current Administration has an oppor-
                                             tunity to determine necessary actions.

*2000AT1801 Puerto Rico Public Housing       Management decisions have not been reached on 2 of the 3 reported recommenda-          03/9/00
Administration, Misuse of Funds, San Juan,   tions. The issues were referred to the former Deputy Secretary in October 2000,        05/31/01
PR.                                          because agreement could not be reached with the former Assistant Secretary.
                                             However, the former Deputy Secretary did not make management decisions on the
                                             recommendations before leaving office. In February 2001, the Office of Public and
                                             Indian Housing provided documentation to the OIG on the 2 recommendations.
                                             Our review of the documentation will not be completed until May 2001 because it
                                             is quite extensive.
                                                                                                                                  APPENDIX 2, TABLE A

                                                                                                                                     ISSUE DATE/
                                                                                                                                     TARGET FOR
       REPORT NUMBER & TITLE                             REASON    FOR   LACK   OF   MANAGEMENT DECISION
                                                                                                                                     MANAGEMENT
                                                                                                                                       DECISION

*2000SE0001 Nationwide Audit, Down      Management decisions have not been reached on the 4 reported recommendations. The                03/31/00
Payment Assistance Programs.            issues were referred to the former Deputy Secretary in October 2000 because agree-               05/31/01
                                        ment could not be reached with the former Assistant Secretary for Housing. However,
                                        the former Deputy Secretary left office without making management decisions. In
                                        March 2001, the current Administration advised the OIG that they are reexamining the
                                        entire issue of down payment assistance. It is expected that management decisions will
                                        be reached in May 2001.

*2000FW1003 Pope & Booth, P.C.,         Management decisions have not been reached on 3 of the 6 reported recommendations.               05/24/00
Closing Agent Contract, Austin, TX.     The issues were referred to the Deputy Assistant Secretary for Single Family Housing             07/30/01
                                        because agreement could not be reached with the Homeownership Center. A meeting
                                        was held with the Deputy Assistant Secretary in March 2001. On April 4, 2001, the
                                        Deputy Assistant Secretary requested HUD Counsel to provide a legal opinion on the
                                        feasibility of pursuing the recommendations. Once the legal opinion is obtained, the
                                        Deputy Assistant Secretary will provide management decisions on the recommenda-
                                        tions.

*2000AT0002 Demolition of HUD Real      Management decision has not been reached on 1 of the 5 reported recommendations.                 09/28/00
Estate Owned Properties, Chicago, IL.   When we issued our report, the local Community Planning and Development (CPD)                    05/31/01
                                        Director agreed with our recommendation, which would require the City of Chicago to
                                        obtain HUD approval before demolishing HUD owned single family properties. Subse-
                                        quently, the Director reversed the position initally taken. Because agreement could not
                                        be reached, the matter was referred to the General Deputy Assistant Secretary for CPD
                                        in February 2001. If agreement cannot be reached with CPD, the matter will be re-
                                        ferred to the Deputy Secretary in May 2001.

*2000SE0003 Nationwide Audit, Use and   Management decisions have not been reached on 11 of the 12 reported recommenda-                  09/29/00
Disposition of Residual Receipts.       tions. The former Deputy Assistant Secretary for Multifamily Housing was unrespon-               05/31/01
                                        sive to the reported recommendations. We referred the matter to the General Deputy
                                        Assistant Secretary for Housing in March 2001. A meeting will be held with the
                                        General Deputy Assistant Secretary in April 2001 to attempt to reach agreement on the
                                        necessary actions.
                                                                                                                               APPENDIX 2
                                                           TABLE B
                       SIGNIFICANT AUDIT REPORTS DESCRIBED IN PREVIOUS SEMIANNUAL REPORTS
                           WHERE FINAL ACTION HAD NOT BEEN COMPLETED AS OF 03/31/01
  Report                                                                                                  Issue     Decision     Final
  Number                                              Report Title                                        Date       Date        Action

1990FW1004   Regency Place Apartments                                                                    04/05/90   07/31/90 Note 1

1992TS0011   Audit of Fiscal Year 1991 HUD Consolidated Financial Statements                             06/30/92   09/30/94 12/31/01

1992PH1009   Huntington, WV Community Development Block Grant Program                                    07/10/92   11/07/92    07/31/01

1992SF1009   San Francisco, CA Housing Authority, Low-Income Public Housing Program                      09/10/92   01/08/93 Note 1

1993HQ0004   Interim Audit of Bond Refunding of Section 8 Projects                                       10/30/92   10/26/93 Note 1

1993FW1003   Grimmet Drive Apartments                                                                    12/10/92   04/08/93 Note 1

1993FO0004   Audit of HUDs Fiscal Year 1992 Consolidated Financial Statements                           06/30/93   03/31/94 Note 1

1993SF1014   Tucson Health Care Limited Partnership                                                      09/23/93   01/21/94 Note 1

1993FW1016   Anthony and Associates, Inc.                                                                09/28/93   12/10/93 Note 1

1995SF0001   Multi-district Audit of Section 236 Program, Excess Rental Income Collections               12/21/94   03/31/96 Note 2

1995CH1009   Alliance Mortgage Corporation, Single Family Mortgage Insurance Program, Villa Park, IL     08/08/95   11/30/95 Note 1

1996FW1001   Credit Finance Corporation, Multifamily Management Agent, Dallas, TX                        10/16/95   06/05/96 Note 2

1996SF1002   Pascua Yaqui Housing Authority, Tucson, AZ                                                  02/13/96   06/11/96 Note 1

1996AT1821   Puerto Rico Public Housing Administration, Comprehensive Grant and Drug Elim. Progs., San   06/26/96   12/10/96 Note 1
             Juan, PR

1996FW1002   Credit Finance Corporation, Multifamily Management Agent, Dallas, TX                        08/19/96   10/17/96 Note 2
                                                                                                                          APPENDIX 2, TABLE B
  Report                                                                                                        Issue     Decision   Final
  Number                                               Report Title                                             Date       Date      Action

1996DP0002   Multifamily Information Systems                                                                   09/30/96   03/31/97   Note 1

1997PH1002   Newport News General Hospital, Section 242 Hospital Program, Newport News, VA                     12/09/96   03/26/97   Note 1

1997NY0802   Riverside South Apartments, New York, NY                                                          02/21/97   09/30/99   Note 1

1997AT1806   Limited Review of Martin Street Plaza, Atlanta, GA                                                04/17/97   07/14/97   06/30/01

1997FW1003   Medlock Southwest Management Corporation, Multifamily Management Agent, Lubbock, TX               08/26/97   01/16/98   Note 1

1997CH1010   Major Mortgage Corporation, Section 203(k) Rehabilitation Home Mortgage Ins. Prog., Livonia, MI   09/17/97   01/06/98   Note 1

1997PH0001   HUD Contracting                                                                                   09/30/97   02/10/99   06/30/01

1998SE0001   Acquisition of Frederick & Nelson Building, Section 108 Loan Guarantee, Seattle, WA               11/17/97   04/30/98   Note 1

1998HQ0801   Review of HUDs 2020 Management Reform Plan                                                       11/25/97   07/14/99   Note 1

1998SF1001   Villa San Carlos Garden Apartments, Multifamily Mortgagor Operations, Santa Cruz, CA              03/24/98   09/24/98   07/31/01

1998SF1002   Redwood Villa, Multifamily Mortgagor Operations, Mountain View, CA                                03/31/98   08/14/98   04/03/02

1998AT1005   Housing Authority of the City of Tampa, FL                                                        04/23/98   10/21/98   Note 1

1998SF1003   San Francisco, CA Housing Authority, Drug Elimination Program                                     07/22/98   12/09/98   04/30/01

1998CH1005   City of Atlanta, GA Empowerment Zone Program                                                      09/28/98   09/20/99   Note 2

1998CH1006   City of Philadelphia, PA Empowerment Zone Program                                                 09/30/98   09/20/99   Note 2

1998DP0004   Controls Over the Single Family Acquired Asset Management System                                  09/30/98   09/29/99   Note 2

1999AT1001   Municipality of Arecibo, PR, CDBG and Section 108 Loan Guarantee Assistance Programs              11/05/98   03/09/99   09/15/05

1999PH0001   Youthbuild Program, Multiple Location Review                                                      11/10/98   03/08/99   Note 1
                                                                                                                            APPENDIX 2, TABLE B
 Report                                                                                                          Issue     Decision    Final
 Number                                               Report Title                                               Date       Date       Action

1999CH1801   Assessment of Progress Follow-up, Chicago, IL Housing Authority                                    12/02/98   03/31/99   Note 1

1999NY1004   Homestead Financial Services, Inc., Non-supervised Mortgagee, Syracuse, NY                         02/17/99   06/25/99   Note 2

1999AT1004   Housing Authority of the City of Sarasota, FL                                                      02/24/99   04/29/99   Note 2

1999FO0002   Federal Housing Administration Audit of Fiscal Year 1998 Federal Basis Financial Statements        03/12/99   09/30/99   Note 2

1999FO0003   U.S. Department of HUD Fiscal Year 1998 Financial Statements                                       03/29/99   09/30/99   12/31/01

1999CH0001   HUDs Oversight of the Empowerment Zone Program                                                    03/30/99   09/17/99   Note 1

1999PH0801   Chester, PA Housing Authority Receivership                                                         06/01/99   12/02/99   07/31/03

1999SF1003   City of Lynwood, CA, CDBG and HOME Programs                                                        08/19/99   12/16/99   Note 2

1999SF1803   Northern Pueblos Housing Authority, Limited Review of Operations, Santa Fe, NM                     09/08/99   11/09/99   Note 2

1999CH1803   Fairfield County, Community Housing Improvement Program, Lancaster, OH                             09/15/99   01/13/00   Note 2

1999NY1007   Alliance Mortgage Banking Corporation, Non-supervised Mortgagee, Rochester, NY                     09/27/99   02/16/00   Note 2

1999KC1002   Community Development Block Grant Program, St. Louis, MO                                           09/28/99   01/21/00   Note 2

1999DE0001   Nationwide Review of HUDs Loss Mitigation Program                                                 09/30/99   03/31/00   09/30/01

1999PH0002   HUD Contracting, Follow-up Review                                                                  09/30/99   09/27/00   Note 2

2000AT1001   Mego Mortgage Corporation, Title I Approved Lender, Atlanta, GA                                    10/04/99   02/09/00   Note 2

2000CH1001   Great Lakes Housing, Inc., Section 203(k) Mortgage Insurance Program and Partners for Affordable   10/19/99   02/16/00   Note 2
             Homeownership Program, Wyoming, MI

2000DP0002   Initial Development Efforts of the Departmental Grants Management System                           11/04/99              Note 3
                                                                                                                       APPENDIX 2, TABLE B
 Report                                                                                                     Issue      Decision   Final
 Number                                                  Report Title                                       Date        Date      Action

2000PH1002   Philadelphia, PA Housing Authority Police Department                                          11/15/99    03/16/00   04/01/02

2000NY1002   Target V Phase I Development Associates, Multifamily Housing Program, Bronx, NY               12/08/99    05/08/00   05/08/01

2000FW1001   New Orleans, LA Housing Authority, Executive Monitor Contract with Moten & Associates         01/19/00    09/29/00   09/22/01

2000DE1001   City and County of Denver, CO, Housing Opportunities for Persons with AIDS Program            02/25/00    06/21/00   06/15/01

2000FO0002   Federal Housing Administration, Audit of Fiscal Year 1999 Financial Statements                02/29/00    08/09/00   09/30/01

2000FO0003   Attempt to Audit the Fiscal Year 1999 HUD Financial Statements                                03/01/00    09/29/00   12/31/01

2000AT1003   Puerto Rico Public Housing Administration, Procurement Management, San Juan, PR               03/06/00               Note 3

2000AT1801   Misuse of HUD Funds, Puerto Rico Public Housing Administration, San Juan, PR                  03/09/00               Note 3

2000AT1004   Pinellas County Housing Authority, Clearwater, FL                                             03/23/00    07/24/00   07/24/01

2000NY1801   Atlantic City, NJ Housing Authority, Low-Rent Housing Program                                 03/24/00    09/08/00   06/30/01

2000AT1005   Benson, NC Housing Authority, Public Housing Programs                                         03/27/00    09/13/00   09/13/01

2000BO0001   Office of Public and Indian Housing, Use of REACs Physical Inspection Assessments, Boston, MA 03/28/00   06/12/00   06/12/01

2000NY0001   Nationwide Audit - Enforcement Center                                                         03/28/00    07/10/00   07/10/01

2000SF0001   Single Family Production                                                                      03/30/00    01/19/01   12/30/01

2000AO0001   Nationwide Audit of Storefront Operations                                                     03/31/00    09/08/00   Note 2

2000BO0002   Office of Housing, Use of REACs Physical Inspection Assessments, Boston, MA                  03/31/00    10/13/00   Note 2

2000CH1002   Cuyahoga Metropolitan Housing Authority, Title V Account, Cleveland, OH                       03/31/00    09/29/00   10/15/02

2000KC0001   Assessment of Resident Association Grants, Multi-Location Summary Report                      03/31/00    07/28/00   09/30/01
                                                                                                                       APPENDIX 2, TABLE B
  Report                                                                                                  Issue      Decision    Final
  Number                                            Report Title                                          Date        Date       Action

2000SE0001   Final Report of Nationwide Audit, Down Payment Assistance Programs                           03/31/00               Note 3

2000SF1001   San Francisco, CA Housing Authority, Low-Income and Section 8 Programs                       03/31/00   09/01/00    09/30/01

2000FW1802   Alexandria, LA Housing Authority, Agreed Upon Procedures                                     04/26/00   10/01/00    09/30/01

2000FW1803   Leesville, LA Housing Authority                                                              05/10/00   10/06/00    04/01/11

2000DP0003   Integrated Disbursement and Information Systems                                              05/11/00   02/14/01    08/31/01

2000AT1007   St. Petersburg, FL Housing Authority                                                         05/24/00   10/03/00    08/02/01

2000FW1003   Pope & Booth, P.C. Closing Agent Contract, Austin, TX                                        05/24/00               Note 3

2000CH1003   State of Ohio, Community Housing Improvement Program, Columbus, OH                           06/15/00   10/18/00    09/28/01

2000FW1004   San Antonio, TX Housing Authority, Procurement Activities                                    08/09/00   12/14/00    08/09/01

2000FW1006   Fortune Escrow, Inc., Closing Agent Contract, Glendora, CA                                   08/23/00   11/02/00    10/24/01

2000CH1811   City of South Bend, IN, Broadway Street Mortgage Loan Subsidy Program                        09/13/00   01/04/01    09/30/01

2000DE1004   Chippewa Cree Housing Authority, Housing Activities and Related Mgmt. Controls, Rocky Boy,   09/21/00   01/19/01    10/15/02
             MT

2000BO1803   State of Maine, FIX ME Program, Augusta, ME                                                  09/25/00   01/23/01    08/31/01

2000NY1005   Poughkeepsie, NY Housing Authority, Low-Rent Housing Program                                 09/25/00   02/13/01    04/09/01

2000NY1803   Hoboken, NJ Housing Authority, Low-Rent Housing Program                                      09/25/00   12/01/00    09/30/01

2000AT0001   Single Family Property Disposition Program                                                   09/28/00   02/20/01    12/31/01

2000AT0002   Demolition of HUD Real Estate Owned Properties, Chicago, IL                                  09/28/00               Note 3

2000CH0801   HUDs Settlement Agreement, Associated Estates Realty Corp., Office of Multifamily Housing   09/28/00   03/30/01    06/30/01
                                                                                                                                  APPENDIX 2, TABLE B
  Report                                                                                                             Issue      Decision     Final
  Number                                                    Report Title                                             Date        Date        Action

2000PH1004         Wilmington, DE Housing Authority, Public Housing Operations                                      09/28/00     01/25/01   7/31/01

2000DP0804         Departments September 2000 Purchase of COTS Financial Management System                         09/29/00     03/30/01   03/30/02

2000FO0802         Survey of HUDs Contract Award Process                                                           09/29/00     01/31/01   01/31/02

2000KC0002         Housing Subsidy Payments                                                                         09/29/00     02/21/01   12/31/01

2000PH0001         Up-Front Grant Program                                                                           09/29/00     01/24/01   04/30/01

2000SE0003         Nationwide Audit, Use and Disposition of Residual Receipts                                       09/29/00                Note 3




AUDITS EXCLUDED:                                                           NOTES:

15 audits under repayment plans                                            1 Management did not meet the target date. Target date is over 1 year old.
21 audits under formal judicial review, investigation, or                  2 Management did not meet the target date. Target date is under 1 year old.
   legislative solution                                                    3 No management decision.
                                                                                                                                                             APPENDIX 2
                                                                            TABLE C
                                                      INSPECTOR GENERAL ISSUED REPORTS WITH
                                                   QUESTIONED AND UNSUPPORTED COSTS AT 03/31/01
                                                             (DOLLARS IN THOUSANDS)
                                                                                                                  1XPEHU RI $XGLW             4XHVWLRQHG   8QVXSSRUWHG
                                                  5HSRUWV                                                            5HSRUWV                    &RVWV         &RVWV
$ )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDG EHHQ PDGH E\ WKH FRPPHQFHPHQW RI WKH UHSRUWLQJ                                                                
   SHULRG
$ )RU ZKLFK OLWLJDWLRQ OHJLVODWLRQ RU LQYHVWLJDWLRQ ZDV SHQGLQJ DW WKH FRPPHQFHPHQW RI WKH                                                           
   UHSRUWLQJ SHULRG
$ )RU ZKLFK DGGLWLRQDO FRVWV ZHUH DGGHG WR UHSRUWV LQ EHJLQQLQJ LQYHQWRU\                                                                                
$ )RU ZKLFK FRVWV ZHUH DGGHG WR QRQFRVW UHSRUWV                                                                                                            
% :KLFK ZHUH LVVXHG GXULQJ WKH UHSRUWLQJ SHULRG                                                                                                      
% :KLFK ZHUH UHRSHQHG GXULQJ WKH UHSRUWLQJ SHULRG                                                                                                            
                                                                                           6XEWRWDOV $%                                            
&    )RU ZKLFK D PDQDJHPHQW GHFLVLRQ ZDV PDGH GXULQJ WKH UHSRUWLQJ SHULRG                                                                            
      'ROODU YDOXH RI GLVDOORZHG FRVWV
          'XH +8'                                                                                                                                     
          'XH 3URJUDP 3DUWLFLSDQWV                                                                                                                    
      'ROODU YDOXH RI FRVWV QRW GLVDOORZHG                                                                                                             
'    )RU ZKLFK PDQDJHPHQW GHFLVLRQ KDG EHHQ PDGH QRW WR GHWHUPLQH FRVWV XQWLO FRPSOHWLRQ RI                                                            
     OLWLJDWLRQ OHJLVODWLRQ RU LQYHVWLJDWLRQ
                                                                                                                                                     
(    )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDG EHHQ PDGH E\ WKH HQG RI WKH UHSRUWLQJ SHULRG
                                                                                                                        !                  !    !




    DXGLW UHSRUWV DOVR FRQWDLQ UHFRPPHQGDWLRQV ZLWK IXQGV WR EH SXW WR EHWWHU XVH
    DXGLW UHSRUWV DOVR FRQWDLQ UHFRPPHQGDWLRQV ZLWK IXQGV GXH SURJUDP SDUWLFLSDQWV
    DXGLW UHSRUWV DOVR FRQWDLQ UHFRPPHQGDWLRQV ZLWK IXQGV DJUHHG WR E\ PDQDJHPHQW
   7KH ILJXUHV LQ EUDFNHWV UHSUHVHQW GDWD DW WKH UHFRPPHQGDWLRQ OHYHO DV FRPSDUHG WR WKH UHSRUW OHYHO 6HH ([SODQDWLRQV RI 7DEOHV & DQG '
                                                                                                                                                       APPENDIX 2

                                                                           TABLE D
                                                       INSPECTOR GENERAL ISSUED REPORTS
                                          WITH    RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                  AT 03/31/01
                                                            (DOLLARS IN THOUSANDS)

                                                          5HSRUWV                                                                1XPEHU RI $XGLW   'ROODU 9DOXH
                                                                                                                                    5HSRUWV
$ )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDG EHHQ PDGH E\ WKH FRPPHQFHPHQW RI WKH UHSRUWLQJ SHULRG                                                         
$ )RU ZKLFK OLWLJDWLRQ OHJLVODWLRQ RU LQYHVWLJDWLRQ ZDV SHQGLQJ DW WKH FRPPHQFHPHQW RI WKH UHSRUWLQJ SHULRG                                        
$ )RU ZKLFK DGGLWLRQDO FRVWV ZHUH DGGHG WR UHSRUWV LQ EHJLQQLQJ LQYHQWRU\                                                                             
$ )RU ZKLFK FRVWV ZHUH DGGHG WR QRQFRVW UHSRUWV                                                                                                     
% :KLFK ZHUH LVVXHG GXULQJ WKH UHSRUWLQJ SHULRG                                                                                                      

                                                                                                          6XEWRWDOV $%                            
& )RU ZKLFK D PDQDJHPHQW GHFLVLRQ ZDV PDGH GXULQJ WKH UHSRUWLQJ SHULRG                                                                               
     'ROODU YDOXH RI UHFRPPHQGDWLRQV WKDW ZHUH DJUHHG WR E\ PDQDJHPHQW
         'XH +8'                                                                                                                                      
         'XH 3URJUDP 3DUWLFLSDQWV                                                                                                                    
     'ROODU YDOXH RI UHFRPPHQGDWLRQV WKDW ZHUH QRW DJUHHG WR E\ PDQDJHPHQW                                                                          
' )RU ZKLFK PDQDJHPHQW GHFLVLRQ KDG EHHQ PDGH QRW WR GHWHUPLQH FRVWV XQWLO FRPSOHWLRQ RI OLWLJDWLRQ                                                 
  OHJLVODWLRQ RU LQYHVWLJDWLRQ
                                                                                                                                                    
( )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDG EHHQ PDGH E\ WKH HQG RI WKH UHSRUWLQJ SHULRG                                                     !        !




    DXGLW UHSRUWV DOVR FRQWDLQ UHFRPPHQGDWLRQV ZLWK TXHVWLRQHG FRVWV
   7KH ILJXUHV LQ EUDFNHWV UHSUHVHQW GDWD DW WKH UHFRPPHQGDWLRQ OHYHO DV FRPSDUHG WR WKH UHSRUW OHYHO 6HH ([SODQDWLRQV RI 7DEOHV & DQG '
                                                                                                                                              APPENDIX 2
EXPLANATIONS OF TABLES C AND D

    The Inspector General Act Amendments of 1988 require Inspectors General and agency heads to report cost data on management decisions and final
actions on audit reports. The current method of reporting at the report level rather than at the individual audit recommendation level results in
misleading reporting of cost data. Under the Act, an audit report does not have a management decision or final action until all questioned cost items or
other recommendations have a management decision or final action. Under these circumstances, the use of the report based rather than the recom-
mendation based method of reporting distorts the actual agency efforts to resolve and complete action on audit recommendations. For example, certain
cost items or recommendations could have a management decision and repayment (final action) in a short period of time. Other cost items or nonmon-
etary recommendation issues in the same audit report may be more complex, requiring a longer period of time for managements decision or final action.
Although management may have taken timely action on all but one of many recommendations in an audit report, the current all or nothing reporting
format does not take recognition of their efforts.

   The closing inventory for items with no management decision on Tables C and D (Line E) reflects figures at the report level as well as the
recommendation level.
                                                                                                          APPENDIX 3

                           PROFILE           OF     PERFORMANCE
                                                for the period
                        October 1, 2000 through March 31, 2001

              $XGLW DQG ,QYHVWLJDWLRQ 5HVXOWV                     $XGLW      ,QYHVWLJDWLRQ   &RPELQHG
5HFRPPHQGDWLRQV 7KDW )XQGV %H 3XW WR %HWWHU 8VH                                     
0DQDJHPHQW 'HFLVLRQV RQ $XGLWV ZLWK 5HFRPPHQGDWLRQV                                    
   7KDW )XQGV %H 3XW WR %HWWHU 8VH
4XHVWLRQHG &RVWV                                                                   
0DQDJHPHQW 'HFLVLRQV RQ $XGLWV ZLWK 4XHVWLRQHG &RVWV                               
,QGLFWPHQWV                                                                                 
6XFFHVVIXO 3URVHFXWLRQV                                                                     
<HDUV RI 3ULVRQ 6HQWHQFHV                                                                   
,QYHVWLJDWLYH 5HFRYHULHV                                                     
&ROOHFWLRQV )URP $XGLWV DQG ,QYHVWLJDWLRQV                               
$UUHVWV                                                                                  
6HDUFK :DUUDQWV                                                                             
9DOXH RI 'UXJV 6HL]HG                                                               
:HDSRQV 6HL]HG                                                                              
$GPLQLVWUDWLYH 6DQFWLRQV                                                                    
6XESRHQDV ,VVXHG                                                                          
